<html>
<title> - REAUTHORIZATION OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 REAUTHORIZATION OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2005

                               __________

                           Serial No. 109-27

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
22-984                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                    ------------------------------  
                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

RALPH M. HALL, Texas                 JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida             Ranking Member
  Vice Chairman                      HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia             BART GORDON, Tennessee
BARBARA CUBIN, Wyoming               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
HEATHER WILSON, New Mexico           BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona             ELIOT L. ENGEL, New York
CHARLES W. ``CHIP'' PICKERING,       ALBERT R. WYNN, Maryland
Mississippi, Vice Chairman           GENE GREEN, Texas
VITO FOSSELLA, New York              TED STRICKLAND, Ohio
ROY BLUNT, Missouri                  DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania        JIM DAVIS, Florida
MARY BONO, California                JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                  HILDA L. SOLIS, California
LEE TERRY, Nebraska                  CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey            JAY INSLEE, Washington
MIKE ROGERS, Michigan                TAMMY BALDWIN, Wisconsin
C.L. ``BUTCH'' OTTER, Idaho          MIKE ROSS, Arkansas
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee

                      Bud Albright, Staff Director

        David Cavicke, Deputy Staff Director and General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 JAN SCHAKOWSKY, Illinois
NATHAN DEAL, Georgia                   Ranking Member
BARBARA CUBIN, Wyoming               MIKE ROSS, Arkansas
GEORGE RADANOVICH, California        EDWARD J. MARKEY, Massachusetts
CHARLES F. BASS, New Hampshire       EDOLPHUS TOWNS, New York
JOSEPH R. PITTS, Pennsylvania        SHERROD BROWN, Ohio
MARY BONO, California                BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE FERGUSON, New Jersey            TED STRICKLAND, Ohio
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
C.L. ``BUTCH'' OTTER, Idaho          JIM DAVIS, Florida
SUE MYRICK, North Carolina           CHARLES A. GONZALEZ, Texas
TIM MURPHY, Pennsylvania             TAMMY BALDWIN, Wisconsin
MARSHA BLACKBURN, Tennessee          JOHN D. DINGELL, Michigan,
JOE BARTON, Texas,                     (Ex Officio)
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Fennell, Janette E., President, Kids and Cars................    57
    O'Neill, Brian, President, Insurance Institute for Highway 
      Safety.....................................................    49
    Pikrallidas, Susan, Vice President of Public Affairs, AAA....    54
    Runge, Jeffrey W., Administrator, National Highway Traffic 
      Safety Administration......................................     8
    Webber, Frederick L., President, Alliance of Automobile 
      Manufacturers..............................................    31
Additional material submitted for the record:
    Alliance of Automobile Manufacturers, response for the record    72
    Runge, Jeffrey W., Administrator, National Highway Traffic 
      Safety Administration, response for the record.............    73

                                 (iii)

  

 
 REAUTHORIZATION OF THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

                              ----------                              


                        THURSDAY, JUNE 23, 2005

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:36 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Cliff 
Stearns (chairman) presiding.
    Members present: Representatives Stearns, Radanovich, Bass, 
Rogers, Otter, Myrick, Murphy, Blackburn, Barton (ex officio), 
Schakowsky, Markey, Green, Baldwin, and Dingell (ex officio).
    Staff present: Bud Albright, staff director; Andy Black, 
deputy staff director, Policy; Julie Fields, special assistant 
to the deputy staff director; Chris Leahy, policy coordinator; 
Kelly Cole, majority counsel; Larry Neal, deputy staff 
director, communications; Lisa Miller, deputy communications 
director; Billy Harvard, clerk; Anh Nguyen, clerk; Chad Grant, 
clerk; Jonathan Cordone, minority counsel; David Vogel, 
research assistant; and Jodi Seth, press secretary.
    Mr. Stearns. Good morning, everybody. I would like to 
welcome everyone to this extremely important hearing on the 
reauthorization of the National Highway Traffic Safety 
Administration, NHTSA, an agency that is critically important 
to the health and safety of all Americans. I would like to 
thank, in particular, the Administrator, Mr. Runge, for 
rearranging his travel plans, and making time to be here this 
morning.
    Simply put, NHTSA is charged with reducing motor vehicle 
crash fatalities and injuries on our national highways. This is 
a formidable and complex task in a Nation of more than 235 
million motor vehicles that travel almost 3 trillion miles per 
year. In 2004, 42,800 people were killed on the Nation's 
highways, up slightly from 42,643 in 2003. The rate of deaths 
based on vehicle miles traveled, however, decreased from 2003 
to 2004, from 1.48 to 1.46 deaths per million vehicles 
traveled, miles traveled. In addition, there were 2.8 million 
injuries related to motor vehicle crashes in 2004, representing 
a 4.6 percent decrease from 2.9 million in 2003. These cases, 
coupled with resultant property loss, cost the United States 
economy about $230 billion in 2004 alone. Sadly, those numbers 
do not begin to capture the personal anguish of those Americans 
and those families affected by these deaths and these injuries. 
Clearly, there is much work to be done.
    The questions before us today include how best to deploy 
intellectual, financial, and other resources to work toward 
solving the most significant motor vehicle safety problems, how 
to prioritize that work based upon the most accurate and 
relevant data, and who should make those strategic decisions: 
Congress, the experts at NHTSA, or both? This committee's 
oversight responsibilities compel us to ensure that the 
American public is benefiting from the best decisions from the 
most qualified experts. With that rationale in mind, I believe 
that NHTSA reauthorization provisions in the Senate version of 
the transportation bill provide adequate support and guidance 
for NHTSA and its dedicated experts to save lives and, of 
course, prevent injuries. However, we must be certain that the 
provisions negotiated provide enough flexibility to allow the 
data to drive the need for mandated rules.
    Without a doubt, 100 percent safety belt use still remains 
the holy grail of motor vehicle fatality and injury prevention. 
In fact, according to NHTSA's own calculations, if all 
Americans wore their safety belts, an additional 7,000 lives 
would be saved every year. But sadly, 56 percent of occupants 
killed in crashes in 2004 were not even wearing their safety 
belts. Safety belts remain the most effective safety technology 
for saving lives and preventing injuries in motor vehicle 
crashes. Fortunately, the safety belt use rate is trending up, 
and was close to 80 percent in 2004, an increase of almost 10 
percent from 2000. I would like to commend Dr. Runge for the 
tremendous work NHTSA has done to develop both legal and 
technological incentives to promote safety belt use.
    Today's hearing will provide some key insights into the 
current state-of-the-art in passive safety technology that 
protects us in the event of a crash, airbags, crashworthiness, 
as well as active safety or crash avoidance technology, which, 
as the name implies, helps prevent crashes, and is becoming an 
important tool for saving lives and preventing injuries. In my 
opinion, electronic stability control, ESC, an active safety 
technology, highlights the future potential of safety 
technology to apply protection before it becomes critical for 
survival. ESC typically works with a vehicle's anti-lock 
braking system to maintain control in extreme maneuvers that 
can cause a vehicle to leave the roadway, become tripped when 
it turns sideways, and rolls over. A recent NHTSA study 
concluded that ESC was associated with a 30 percent reduction 
in single vehicle crash fatalities for passenger cars, and a 63 
percent for SUVs, when compared to the same models sold in 
prior years. These percentages translate into about 7,000 lives 
saved annually, assuming 100 percent deployment. NHTSA is 
developing a performance standard that would promote deployment 
of ESC technology, and several automakers have already 
voluntarily committed to broad ESC deployment by a date 
certain.
    My colleagues, I believe it is also--it is invaluable to 
encourage voluntary action and industry-government cooperation 
in safety matters, when appropriate. The open exchange of 
quality information creates opportunities for gains at the 
technical level, as well as we have seen in programs like the 
stars system for crash test ratings. It can also result in 
elegant, simple ways to make safety an important factor in 
consumer purchasing decisions.
    In closing, I would like to suggest a few general 
principles that I believe would guide our discussion today. 
One, advances in technology, no matter how significant, are 
best promoted through performance-based standards that allow 
consumers and the market to assist in establishing safety 
advances as the standard, not the option.
    Two, NHTSA's extremely important work is a data-driven 
business, not a political one. Sound science, quality data, 
objective cost/benefit analysis should be the major factors 
used to establish priorities for advancing vehicle safety. And 
last, the finite resources provided by the American taxpayer to 
effectuate motor vehicle safety should be deployed to 
promulgate rules and standards based on the size of the safety 
and the likelihood of an optimal solution.
    Again, I am glad that we have this opportunity to examine 
more closely NHTSA's reauthorization conference provisions, and 
help realize the shared goals of reducing death and injury on 
our highways. I would like to welcome our distinguished panel 
of witnesses.
    Before I go to the ranking member, I would point out, in 
deference to Mr. Runge, we are going to have opening statements 
from myself, the ranking member, and the chairman of the Energy 
and Commerce Committee. We will move to Dr. Runge, and then, 
before the next panel, we will continue with our opening 
statements.
    And with that, Ms. Schakowsky.
    [The prepared statement of Hon. Cliff Stearns follows:]

Prepared Statement of Hon. Clifford Stearns, Chairman, Subcommittee on 
                Commerce, Trade, and Consumer Protection

    Good morning. I would like to welcome everyone to this extremely 
important hearing on the reauthorization of the National Highway 
Traffic Safety Administration (NHTSA)--an agency that is critically 
important to the health and safety of all Americans. I would like to 
thank, in particular, Administrator Runge for rearranging his travel 
plans and making time to be here this morning.
    Simply put, NHTSA is charged with reducing motor vehicle crash 
fatalities and injuries on our national roadways. This is a formidable 
and complex task in a nation of more than 235 million motor vehicles 
that traveled almost three trillion miles last year. In 2004, 42,800 
people were killed on the nation's highways, up slightly from 42,643 in 
2003. The rate of deaths based on vehicle miles traveled, however, 
decreased from 2003 to 2004 from 1.48 to 1.46 deaths per million 
vehicle miles traveled. In addition, there were 2.8 million injuries 
related to motor vehicle crashes in 2004, representing a 4.6% decease 
from 2.9 million in 2003. Those cases coupled with resultant property 
loss cost the United States economy over $230 billion dollars in 2004 
alone. Sadly, these numbers do not begin to capture the personal 
anguish of those Americans and their families affected by these deaths 
and injuries. Clearly, there is much more work to be done.
    The questions before us today include how best to deploy 
intellectual, financial, and other resources to work towards solving 
the most significant motor vehicle safety problems; how to prioritize 
that work based on the most accurate and relevant data; and who should 
make those strategic decisions--the Congress?, the experts at NHTSA?, 
both? This Committee's oversight responsibilities compel us to ensure 
that the American public is benefiting from the best decisions from the 
most qualified experts. With that rationale in mind, I believe that the 
NHTSA reauthorization provisions in the Senate version of the 
transportation bill provide adequate support and guidance for NHTSA and 
its dedicated experts to save lives and prevent injuries. However, we 
must be certain that the provisions negotiated provide enough 
flexibility to allow the data to drive the need for mandated rules.
    Without a doubt, 100% safety belt use still remains the holy grail 
of motor vehicle fatality and injury prevention. In fact, according to 
NHTSA own calculations, if all Americans wore their safety belts, an 
additional 7,000 lives would be saved every year. But sadly, 56% of 
occupants killed in crashes in 2004 were not wearing safety belts. 
Safety belts remain the most effective safety technology for saving 
lives and preventing injuries in motor vehicle crashes. Fortunately, 
the safety belt use rate is trending up and was close to 80% in 2004, 
an increase of almost 10% from 2000. I would like to commend Dr. Runge 
for the tremendous work NHTSA has done to develop both legal and 
technological incentives to promote safety belt use.
    Today's hearing will provide some key insight into the current 
state-of-the-art in passive safety technology that protects in the 
event of a crash (airbags, crashworthiness), as well as active safety 
or ``crash avoidance'' technology, which, as the name implies, helps 
prevent crashes and is becoming an important new tool for saving lives 
and preventing injuries. In my opinion, electronic stability control 
(ESC), an active safety technology, highlights the future potential of 
safety technology to apply protection before it becomes critical for 
survival. ESC typically works with a vehicle's anti-lock braking system 
(ABS) to maintain control in extreme maneuvers that can cause a vehicle 
to leave the roadway, become ``tripped'' when it turns sideways, and 
roll over. A recent NHTSA study concluded that ESC was associated with 
a 30% reduction in single vehicle crash fatalities for passenger cars 
and 63% for SUVs, when compared to the same models sold in prior years. 
These percentages translate into about 7,000 lives saved annually, 
assuming 100% deployment. NHTSA is developing a performance standard 
that would promote deployment of ESC technology, and several automakers 
have already voluntarily committed to broad ESC deployment by a date 
certain.
    I also believe it is valuable to encourage voluntary action and 
industry-government cooperation in safety matters, when appropriate. 
The open exchange of quality information creates opportunities for 
gains at the technical level and, as we have seen in programs like the 
stars system for crash test ratings, it also can result in elegant, 
simple ways to make safety an important factor in consumer purchasing 
decisions.
    In closing, I'd like to suggest a few general principles that, I 
believe, should guide our discussion today:

 Advances in technology, no matter how significant, are best promoted 
        through performance-based standards that allow consumers and 
        the market to assist in establishing safety advances as the 
        standard not the option.
 NHTSA's extremely important work is a data driven business, not a 
        political one. Sound science, quality data, and objective cost/
        benefit analysis should be the major factors used to establish 
        priorities for advancing vehicle safety.
 The finite resources provided by the American taxpayer to effectuate 
        motor vehicle safety should be deployed to promulgate rules and 
        standards based on the size of the safety problem and the 
        likelihood of an optimal solution.
    Again, I am glad that we have this opportunity to examine more 
closely the NHTSA reauthorization conference provisions and help 
realize the shared goal of reducing death and injury on our highways. I 
would like to welcome our distinguished panel of witnesses. Thank you.

    Ms. Schakowsky. Thank you, Chairman Stearns, for holding 
this hearing on the reauthorization of the National Highway 
Transportation Safety Administration, and the challenges NHTSA 
faces as it works to meet its safety improvement 
responsibilities.
    I would also like to recognize and thank my ranking member, 
Representative Dingell, who is hopefully going to be here 
shortly, and I want to welcome our witnesses, who are here to 
share with us their views on how to improve safety, reduce 
fatalities and injuries, and better protect children.
    Over the past 3 years, more than 125,000 people died in 
motor vehicle crashes. Nearly 9 million more people were 
injured during that time. Mind you, those numbers do not 
include children who were injured or killed in and around cars 
that were not in traffic. Currently, NHTSA does not track 
injuries and fatalities in non-traffic, non-crash-related car 
accidents. The best government statistics we can reference come 
from the Centers for Disease Control, a CDC study, that found 
that an estimated 9,160 children suffered nonfatal injuries and 
78 children were killed in non-traffic accidents between July 
2000 and June 2001.
    Because there are no official statistics kept by NHTSA, one 
of our witnesses, Janette Fennell, took it upon herself to 
collect every report of every non-traffic accident she could 
find, in order to paint a picture of how severe a problem it 
is. After personally scouring news reports, she found that in 
2004, there were at least 523 children who were involved in 
non-traffic, non-crash-related incidents, and at least 165 of 
those children died. Those numbers, reflecting only the stories 
picked up by the press, are cause for alarm. Right now, we can 
only imagine how staggering they truly are, and we can only 
imagine how devastating each accident is to each family 
affected.
    Not only do I think we need to count every accident, 
whether in a driveway or on the highway, I also think that we 
must do everything we can in order to limit accidents that are 
otherwise preventable, and ensure that vehicles on and off the 
road are as safe as possible. While I think everyone is in 
agreement with Dr. Runge and Mr. Webber, two of our witnesses, 
that we need to do all we can to make sure that drivers and 
passengers are wearing their seatbelts, and that impaired 
drivers are off the road, manufacturers and NHTSA also need to 
do whatever they can to make sure that the safety factors of 
the vehicles are addressed as well.
    Our witnesses are right. It will make a significant 
difference in reducing the seriousness of injuries and numbers 
of deaths on the road if we can increase personal 
responsibility. However, I do not believe that manufacturers 
and NHTSA are absolved of their responsibilities just because 
drivers' behaviors contribute to accidents.
    Increasingly, we are seeing problems stemming from the fact 
that people are buying bigger and more powerful vehicles. In 
fact, half of new vehicles purchased are SUVs, vans, and pickup 
trucks. SUVs accounted for 1 in 4 cars sold in 2003 alone. This 
has led to an increased number of rollover accidents. Deaths in 
SUV rollovers increased by 7 percent between 2003 and 2004, 
from 2,639 to 2,821. Between 1992 and 2004, rollover deaths in 
SUVs increased by an astounding 238 percent. It is no surprise 
that with increases like that, rollover deaths currently 
account for one-third of all passenger occupant fatalities. And 
with SUVs growing in size, their rear blind spots have also 
become larger. Some SUVs have blind spots as deep as 50 feet, 
so large that 20 children can be hidden behind them. In 2004, 
we lost more than 100 children to back-over accidents alone, 
because they went unseen. Many of these accidents were in 
families' own driveways. We must approach the problem of 
increasing rollovers and blind spots, along with other safety 
issues we know about, by working on ways to prevent accidents 
from happening, as well as improving protections for people in 
the cases that do occur.
    There are a number of good policy provisions in the Senate 
highway bill that would address many of the safety issues with 
which I am concerned, including a provision to collect 
statistics for non-traffic accidents. I hope that we can work 
out the most appropriate way to keep those provisions, that 
protect people in and around cars, in the bill.
    Additionally, I want to mention that a number of 
contributing factors to non-traffic-related car accidents are 
also addressed in H.R. 2230, the Cameron Gulbransen Kids and 
Cars Safety Act, which I have introduced with Representative 
Peter King again this Congress. I believe that by simply 
requiring safer power window switches, better rear visibility, 
and a reminder system that lets drivers know if passengers 
remain in the vehicle, which our bill would require, we could 
protect our most valuable cargo, our children.
    Again, I look forward to hearing from all of our witnesses, 
and I appreciate, Congressman Stearns, your holding today's 
hearing.
    Mr. Stearns. I thank the gentlelady. Now, the distinguished 
chairman of the full committee, Mr. Barton, the gentleman from 
Texas.
    Chairman Barton. Thank you, Chairman Stearns, for holding 
this hearing today on the reauthorization of the National 
Highway Traffic Safety Administration.
    Nearly every family in this country owns at least one car, 
and in 2003, more than 40,000 members of those families died in 
their cars. My family is one of those victims. My cousin from 
Colorado was killed in a two car accident on an interstate 
highway, when the car behind moved over and clipped her car as 
she was attempting to exit to go home. So I know what I am 
talking about when we talk about families that have to bear the 
tragedy of deaths because of automobile accidents. When I say 
cars, I don't mean literally cars. I mean every kind of 
vehicle, from pickup trucks that fill the roads in my part of 
the country, to taxis in New York, to the limos here in 
Washington, over on K Street, every kind of four-wheeled, six-
wheeled, and eight-wheeled vehicle. Cars are part of our 
culture and part of our lives. Thankfully, they are getting 
better every year. I want to thank the automakers of this 
country for improving vehicle safety over the last 20 years. 
Every year, more people buckle up in their seatbelts. And 
although there are more cars on the road every year, and they 
all come in different shapes and sizes, the accident rate per 
mile traveled continues to decline. Despite these advances, 
does anyone doubt that the cars that we drive could be made 
safer? I sure think they could be.
    I also know that new technologies are taking safety to a 
new level. In addition to shielding people from injury in an 
accident, I am told that the next generation of cars may 
actually help drivers to avoid a crash. A feature called 
electronic stability control can prevent loss of control during 
emergency maneuvers.
    Two of our witnesses from NHTSA and the Insurance Institute 
for Highway Safety have concluded recently that this technology 
is particularly effective in dramatically cutting the number of 
single vehicle crashes in SUVs. This translates into lives 
saved.
    The timing of this hearing is no accident. We are 
negotiating a new transportation bill in the Transportation 
Conference Committee, and I, along with Mr. Dingell, am a 
conferee of that conference. The Senate has brought to the 
table a bill that includes NHTSA provisions that would require 
the agency to complete rulemakings on several safety 
initiatives, including vehicle rollover, occupant ejection 
mitigation, side crashes, and roof strength. I am anxious to 
learn from each of our witnesses today about how this 
legislative language perhaps could save lives on America's 
roads and highways.
    This committee shares jurisdiction over NHTSA, and in some 
cases, has sole jurisdiction, such as in the issue of 
automobile safety. The Senate highway bill provisions that we 
are discussing today would be referred to this committee, if 
they were a standalone bill. An option before us today is to 
reject the items in the conference committee, and to consider 
them in this committee in a standalone NHTSA reauthorization 
bill. It is an option that has a lot of appeal to me. I look 
forward to looking and listening to the witnesses, to see if 
that is something that we should consider. I haven't made a 
decision yet, and haven't--I have had some discussions with Mr. 
Dingell about doing it as a standalone bill. So we are going 
to, obviously, work together on that after the conclusion of 
today's hearing.
    The loss of life on our roads, in terms of rate of loss of 
life, is decreasing annually, but the aggregate number is still 
a huge number: 42,263 people died in automobile accidents in 
2003. To put that into context, there is a legitimate concern 
about the number of deaths of our soldiers, soldiers, sailors, 
and airmen in Iraq, but the total number of deaths there, in 
the time that we have been there, is under 2,000, and once 
again, in 2003, we had 42,263 deaths from automobile accidents 
on our Nation's highways and byways. There is great work to be 
done to reduce that rate. The transportation conference is a 
good place to start. This committee might be even a better 
place to start. I look forward to being educated by our 
witnesses today on these issues and others that they may wish 
to bring before the committee.
    Thank you, Mr. Stearns, for arranging for this hearing. I 
look forward to hearing from the witnesses.
    [The prepared statement of Hon. Joe Barton follows:]

 Prepared Statement of Hon. Joe Barton, Chairman, Committee on Energy 
                              and Commerce

    Thank you, Chairman Stearns, for holding this hearing today on the 
reauthorization of the National Highway Traffic Safety Administration.
    Nearly every family in this country owns at least one car, and in 
2003, more than 40,000 members of these families died in their cars. By 
``cars'' I mean everything from the pickup trucks that fill the roads 
in my part of the country, to the taxis in New York, to the limos over 
on K Street here in Washington. Cars are part of the culture and part 
of our lives, and they're getting better every year. In particular, 
automakers have dramatically improved vehicle safety in the last 20 
years. Every year more people buckle their seatbelts. And although more 
cars hit the road every year, and they come in all shapes and sizes, 
the accident rate continues to decline. Despite the advances, does 
anybody doubt that the cars we drive can be even safer? I sure don't.
    I also know that new technologies are taking safety to a new level. 
In addition to shielding people from injury in an accident, I'm told 
that the next generation of cars may actually help drivers avoid a 
crash. A feature called ``electronic stability control'' can prevent 
loss of control during emergency maneuvers.
    Two of our witnesses, from NHTSA and the Insurance Institute for 
Highway Safety, both concluded recently that this technology is 
particularly effective in dramatically cutting the number of single-
vehicle crashes in SUVs. This translates into lives saved.
    The timing of this hearing is no accident. We are negotiating a new 
Transportation bill in the Transportation Conference Committee, and I 
am a conferee. The Senate has brought to the table a bill that includes 
NHTSA provisions that would require the agency to complete rulemakings 
on several safety initiatives, including vehicle rollover, occupant 
ejection mitigation, side crashes, and roof strength. I am anxious to 
learn from each of our witnesses today about how this legislative 
language can save lives on America's roads and highways.
    This Committee shares jurisdiction over NHTSA, and has sole 
jurisdiction over automobile safety issues. The Senate highway bill 
provisions we are discussing today would be referred to this Committee 
as a stand-alone bill. One option before us is to reject the items in 
the conference and to consider them in a stand-alone NHTSA 
reauthorization bill. I have not come to a position on the provisions 
or the procedure.
    Although the loss of life rate on our roads decreases annually, the 
actual number staggers the imagination: 42,263 people died in auto 
accidents in 2003. Plainly, there is great work yet to be done, and the 
Transportation Conference is a good place to start. I look forward to 
being educated by our witnesses on these vehicle safety issues today
    Thank you again, Chairman Stearns, for holding this hearing and I 
look forward to hearing from our witnesses.

    Mr. Stearns. I thank the distinguished chairman, and as I 
mentioned earlier, Dr. Runge had changed his travel plans so he 
could be here. So he has made a sacrifice for us, so if the 
members will realize that we will get to their opening 
statements right after his testimony.
    We welcome you, Dr. Runge, and thank you for making your 
changes, so that you could be here, and we look forward to your 
opening statement.

 STATEMENT OF JEFFREY W. RUNGE, ADMINISTRATOR, NATIONAL HIGHWAY 
                 TRAFFIC SAFETY ADMINISTRATION

    Mr. Runge. Thank you, Mr. Chairman, and thank you, Chairman 
Barton, for calling this hearing today, and for giving us a 
chance to talk to you about what we live and breathe in NHTSA, 
which is motor vehicle safety. You did a very nice job of 
summarizing my opening statement, so I will try to be brief.
    Our mission is very straightforward, to prevent injuries, 
and to save lives on our Nation's highways. You have heard the 
number of 42,000 mentioned three times now. I think that that 
simply does not capture the devastating losses that occur 
personally to everyone, Chairman Barton and the other 42,000 
families every year who are affected by this, not to mention 
the cost to our economy of over $230 billion, and those were in 
the year 2000 dollars, by the way.
    There is no question that safety improvements in vehicles 
have been a worthy role of government. Since its inception in 
the 1960's, we estimate that the lives of 330,000 Americans 
have been saved through vehicle technologies, but over half of 
that 330,000 was saved by one simple technology, the safety 
belt, 180,000 people. So today, there is much public attention 
devoted to vehicle safety standards, yet over 90 percent of 
crashes, well over 90 percent of crashes, are caused by human 
factors, such as inattention, speeding, impaired driving, and 
other physiologic impairment. So the largest gains in highway 
safety yet to be realized are in the human factors area, 
including how drivers interact with their vehicles and their 
environment. So we have to devote our agency's resources to 
where they can reduce the most fatalities, and we have to 
prioritize our rulemakings and research activities in 
accordance with that principle. To do otherwise, we believe, 
Mr. Chairman, would be an irresponsible stewardship of the 
public trust and the public's resources.
    For these reasons, earlier this year, we published an 
update of NHTSA's rulemaking priority plan, which sets the 
agency's rulemaking goals through 2009. Now, this priority plan 
was set using sound science, through a careful examination of 
costs and benefits, through an iterative public process. This 
plan is a living document, and we intend to update it 
periodically. Our highest rulemaking priorities are those that 
have the greatest potential to reduce death and injury. 
Unfortunately, we likewise must give a lower priority to those 
proposals not supported by sound data, or that involve large 
costs to consumers with minimal impact on the safety numbers.
    Because NHTSA bases this rulemaking on sound research and 
real world data, the Administration is opposed to any 
legislative mandates that would presuppose the outcomes of the 
research necessary to underpin a rule, or displace a higher 
priority regulatory action. We are concerned that arbitrary 
deadlines in Congressional mandates could preclude the vital 
research and analysis needed to avoid unintended and dangerous 
consequences to deployment of technologies. The public deserves 
regulations that are technically sound, practicable, and 
objective.
    Mr. Chairman, the provisions of our rulemaking priority 
plan are detailed in my written testimony. Among the most 
urgent is a vital upgrade to our side impact standard, designed 
to protect occupants struck in the side, often by larger 
vehicles. Of over 33,000 vehicle occupants killed, 9,000 are in 
side impacts, and we think this rule will save 850 to 1,000 
Americans each year, and avoid devastating brain injuries for 
many, many others.
    Another high priority for our Agency is rollover, which 
causes the deaths of over 10,000 people a year. Nearly half of 
those rollover deaths are the result of full ejections from the 
vehicle, and nearly all of those ejected were not wearing 
safety belts. We have a comprehensive plan to reduce fatalities 
and injuries from rollovers, as no single regulation will 
address this problem adequately. Our intention is to prevent 
most rollovers from occurring in the first place through 
technologies which were mentioned in the opening statements, 
and protecting occupants when they--when rollovers do occur.
    Mr. Chairman, I also want to bring up a topic not within 
the jurisdiction of the subcommittee, yet it is the most 
important thing that we all can do to save lives immediately. 
There is a provision in the Senate version of H.R. 3 that will 
save over 1,200 lives a year, and do it faster and cheaper, in 
fact, for free, more than any other proposal you will consider 
this Congress, and certainly within the highway bill.
    I am referring to the Administration's proposal, passed by 
the Senate but not contained in the House bill, which would 
provide generous incentives to States to pass primary safety 
belt laws, or to reach 90 percent safety belt usage. It seems 
that--sorry. It seems a curious quirk of jurisdiction that this 
subcommittee oversees the equipping of safety belts in 
vehicles, but it ends there, not the use. Mr. Chairman, it can 
not end there. If any benefit it to be realized by so equipping 
those vehicles, Congress must act affirmatively to assist the 
States in raising safety belt usage, or the cost and the lives 
will be wasted.
    Primary belt laws are necessary because States that enact a 
primary belt law average a belt use of 84 percent, compared 
with 73 percent in States without primary belt laws last year. 
Every percentage point we raise belt use, Mr. Chairman, saves 
270 lives, 4,000 serious injuries, and over $800 million in 
economic impact to this country every year, for every 
percentage in belt use.
    Now, consider that NHTSA recently completed the 15 
rulemakings that surrounded the TREAD Act. These regulations 
cost consumers $1.2 billion and took years of NHTSA resources, 
and for that, we expect to save about 120 lives a year. In 
comparison, if the remaining 28 States pass a primary belt law, 
we will save 10 times that many every year, by utilizing a 
device already in the car that consumers have already paid for. 
This economic efficiency of this potential Congressional action 
stands in stark contrast to the mandated rulemakings in the 
Senate version of H.R. 3 under your consideration.
    In conclusion, Mr. Chairman, before coming to Washington, 
as you know, I spent 20 years as an emergency physician in one 
of our Nation's busiest trauma centers. To me, that 42,000 
number, as Chairman Barton suggested, is not just an 
abstraction. These are real people. Telling a family that their 
mother or father or sister or brother or son or daughter is not 
coming home again is all you need to understand the obligation 
that we, as policymakers, have to bring those numbers down, and 
to increase safety belt use in our Nation. So often, that 
conversation would never have happened if that person had just 
been wearing his safety belt.
    So the facts are today, Mr. Chairman, if this committee 
wants to make a real impact on the number of highway deaths, 
there is one provision of SAFETEA that dwarfs all the others in 
importance, and I thank you for letting me bring that to your 
attention.
    [The prepared statement of Jeffrey W. Runge follows:]

 Prepared Statement of Hon. Jeffrey W. Runge, Administrator, National 
                 Highway Traffic Safety Administration

    Chairman Stearns, Congresswoman Schakowsky, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to discuss reauthorization of the motor vehicle safety programs of the 
National Highway Traffic Safety Administration (NHTSA).
    I want to express my appreciation for this Subcommittee's 
longstanding support of motor vehicle safety programs. Transportation 
safety is a top priority for Secretary Mineta and President Bush. Your 
work has allowed NHTSA to advance motor vehicle safety. We are grateful 
to this Subcommittee for its continuing leadership and for scheduling 
this hearing.
    NHTSA's mission is to save lives and prevent injuries. Motor 
vehicle crashes are responsible for 95 percent of all transportation-
related deaths and 99 percent of all transportation-related injuries. 
They are the leading cause of death for Americans in the age group 3 
through 33. In 2003, the last year for which we have complete data, 
42,643 people were killed in motor vehicle crashes. The economic costs 
associated with these crashes also seriously impact the Nation's fiscal 
health. The annual cost to our economy of all motor vehicle crashes is 
$230.6 billion in Year 2000 dollars, or 2.3 percent of the U.S. gross 
domestic product.
    The motor vehicle safety law vests NHTSA with the authority and 
responsibility to issue motor vehicle safety standards for new motor 
vehicles and equipment that are performance-based, objective, 
practicable, and repeatable, and that advance real world safety. These 
standards reduce the number of motor vehicle crashes and minimize the 
consequences of crashes that do occur.
    The safety improvements in vehicles have been significant since 
NHTSA's inception in the 1960s. We estimate that total lives saved by 
vehicle technologies number about 330,000, over half of which are 
attributable to safety belts. Today, there is much agency and public 
attention devoted to vehicle safety standards, yet over 90 percent of 
crashes are caused by human factors, such as inattention, speeding and 
physiologic impairment. The largest gains in highway safety yet to be 
realized are in the human factors area, including how drivers interact 
with their vehicles. Relatively few lives will be saved in the future 
by continuing a traditional focus on vehicle crashworthiness. We must 
devote our agency's resources where they can reduce the safety problem 
most effectively. And we must prioritize our rulemaking and research 
activities in accordance with that principle. To do otherwise would be 
irresponsible stewardship of public resources and the public's welfare.
    When I came before this committee last year, I spoke of the 
publication, in 2003, of the first ever NHTSA multi-year vehicle safety 
rulemaking priority plan. Early this year we updated the plan, and it 
now sets forth the agency's rulemaking goals through 2009. The 
rulemaking and supporting research priorities were defined through 
extensive discussions within the agency, taking into account the views 
we have heard over several recent years at public meetings and in 
response to rulemaking notices and requests for comment. We prioritized 
potential new rules and upgrades of existing rules according to the 
size and severity of the problems they address, and the best educated 
estimates of the cost and effectiveness. The agency works closely with 
Congress and the public to define our priorities.
    We intend for our rulemaking priority plan to be a living document, 
and will continue to update it annually. In addition, we are committed 
to reviewing all Federal Motor Vehicle Safety Standards systematically 
over a 7-year cycle. We decided that such a review is needed in light 
of changing technology, vehicle fleet composition, safety concerns and 
other issues that may require changes to a standard. Our regulatory 
reviews are in keeping with the goals of the Government Performance and 
Results Act, to ensure that our rulemaking actions produce measurable 
safety outcomes.
    Because of this careful process, and the need to make these 
decisions based on current data, the Administration is opposed to 
legislatively mandated rulemaking actions that displace deliberative 
research and regulatory actions. The process that we have developed 
will produce the best and most cost-effective solutions to our most 
critical safety needs. The imposition of deadlines and mandated 
requirements can preclude the completion of necessary research and 
force premature judgments or the adoption of incomplete or only 
partially developed solutions.
    Furthermore, we have seen proposed mandates with technical elements 
that have not proven viable. Several decades of vehicle safety 
rulemaking have demonstrated that quality data and research produce 
regulations that are technically sound, practicable, objective, and 
repeatable. Our rulemaking priority plan was carefully considered, in 
the context of concomitant research needs, and I ask for your support 
in our pursuit of its objectives.
    The overall safety priorities set by our agency at the outset of 
this Administration are increasing safety belt use, reducing impaired 
driving, addressing vehicle crash incompatibility, reducing rollovers, 
and enhancing our data systems. In 2003, we carefully studied these 
objectives and developed and published a roadmap for achieving them. 
This Subcommittee has jurisdiction over the motor vehicle safety law, 
which is central to our objective of reducing deaths and injuries 
associated with crash incompatibility and rollover.
    NHTSA's priority rulemakings for the immediate future include 
enhanced side crash protection, preventing occupant ejection in 
rollovers, electronic stability control systems, and upgrading our 
standards relating to roof crush and door locks. Our longer-term 
research priorities include a number of potential advances in crash 
avoidance driver-assist technologies and addressing vehicle 
incompatibility in frontal crashes. We have integrated our rulemaking 
priority plan and our research plan to ensure that, as rulemaking 
becomes necessary to advance safety in the future, we have the research 
to support it.
    In all of our efforts, we recognize the vital role that complete 
and precise data play in identifying safety problems. With that in 
mind, we have evaluated the important advances that electronic data 
recorders can add to our crash data and our ability to assess safety 
needs and benefits, and we are completing a final rule to address these 
devices that we intend to publish this Fall.
    I would like to turn, now, to a discussion of some of the specific 
actions we are taking in accord with our rulemaking priority plan, 
against the backdrop of the safety problems we must address.
    Of the 33,471 passenger vehicle occupants killed in 2003, more than 
9,000 were killed in side impacts. In side impacts involving two-
passenger vehicles, an occupant of the struck vehicle was about 8 times 
more likely to have been killed than an occupant of the striking 
vehicle. It's not hard to see why preventing deaths and injuries in 
side-impact crashes is one of our highest priorities.
    In May 2004, we published a notice of proposed rulemaking to 
upgrade our side-impact standard. We estimate that this upgrade will 
prevent many hundreds of deaths annually in these types of crashes. We 
are now developing the final rule and hope to publish it in early 2006.
    The growing popularity over the past ten years of light trucks, 
vans, and utility vehicles (LTVs) has changed the mix of vehicles in 
the fleet and the safety picture. More vehicle occupants are being 
killed in crashes between passenger cars and light trucks than in 
crashes involving only passenger cars. Passenger car occupants are over 
three and one-half times more likely to die than LTV occupants in 
crashes between the two vehicle types, both in front-to-front and in 
side impact crashes.
    NHTSA's 2003 integrated project team plan outlined our strategy of 
addressing the issue of compatibility through partner-protection, self-
protection, lighting/glare and reforms to the Corporate Average Fuel 
Economy program. We expect our upgraded side impact standard to provide 
increased protection for occupants in vehicles struck by other 
vehicles, and NHTSA is conducting research to determine good measures 
of vehicle compatibility and alternative test barriers to improve 
protection of occupants of struck vehicles.
    Rollover crashes account for a substantial percentage of the fatal 
crashes in the country. Even though only 2.5 percent of crashes are 
rollovers, over 10,000 people die each year in rollovers. This is 
almost a third of all passenger vehicle occupant fatalities and about 
60 percent of sport utility vehicle (SUV) occupant fatalities. The data 
show that nearly half of all rollover deaths are the result of ejection 
from a vehicle, and nearly all of these occupants are unbelted.
    We added dynamic testing of vehicles as part of our rollover 
resistance rating system in accordance with the Transportation Recall 
Enhancement, Accountability, and Documentation (TREAD) Act. Testing and 
reporting of those results began with 2004 model year vehicles as part 
of our New Car Assessment Program (NCAP).
    We have already noticed improvements in vehicle designs and in 
safety ratings. Manufacturers strive to obtain high safety ratings 
under NCAP, because so many consumers rely on this information in 
making their vehicle purchasing decisions. We have seen an increase in 
vehicle manufacturers using NHTSA's star-rating information in their 
product advertising. An informed public will be an effective catalyst 
for improved rollover resistance. NHTSA's new web site, 
www.safercar.gov, enhances the consumer's access to this safety 
information.
    To improve the crashworthiness of vehicles that do roll over in a 
crash, we are working on improved ejection mitigation and roof crush 
protection. Even as NHTSA is upgrading our side impact standard, all of 
the major automobile manufacturers have committed over time to ensure 
that their vehicles meet certain testing criteria for side impacts. 
Those testing criteria are intended to encourage the installation of 
side airbag curtains that protect against brain injury in side impact 
crashes. An additional benefit of many side airbag curtains is that 
they prevent potentially lethal ejections.
    In addition to the attention we are giving our rollover and 
compatibility priorities, we also intend to bring to Congress some 
additional important safety initiatives. We believe the Secretary of 
Transportation should be authorized to participate and cooperate in 
international activities to enhance motor vehicle and traffic safety. 
This would provide for NHTSA's participation and cooperation in 
international activities aimed at developing the best possible global 
safety research and technical regulations. Through participation in 
these international efforts, the United States will combine its motor 
vehicle safety initiatives with those of other countries, to ensure a 
comprehensive approach to motor vehicle safety and to promote cost-
effective deployment of safety technologies.
    A second area is our need to expand activities in crash prevention 
and severity reduction. The most significant vehicle safety initiatives 
in the future will be based on technology that avoids crashes, rather 
than our traditional emphasis on crashworthiness. This would include 
evaluations of crash avoidance technologies such as electronic 
stability control, telematics, alternative braking, vision enhancement 
systems, lane keeping systems, and collision avoidance systems.
    We anticipate that our research into these and other driver 
assistance technologies will reach significantly beyond the scope of 
current agency research and development activities. The rapid advances 
in these technologies will radically change the design and performance 
of automobiles over the next 10 years and, coupled with the aging 
driver population, present unique research challenges in human factors 
engineering. Our goal is to hasten the introduction of vehicle-based 
driver assistance technologies into the marketplace while ensuring 
their safe performance across all demographics, through the development 
of standards, voluntary guidelines, and consumer information. In doing 
so, we will have to be mindful that with the proliferation of new 
technologies comes the potential for increased driver distraction.
    A third area is our need to engage in research and development in 
fuel integrity of hydrogen powered vehicles. This includes risk 
assessment studies and the development of test and evaluation 
procedures, performance criteria, and suitable countermeasures.
    This safety initiative would support the President's Hydrogen Fuel 
Initiative and the FreedomCAR Program. In particular, the research 
program would investigate the safety of the power train, the vehicle 
fuel container and delivery system, the onboard refueling system, and 
the full vehicle system performance. This research would evaluate leak 
detection systems, determine the effectiveness of safety systems, 
assess fire potential and flammability, and evaluate external hazards 
to these systems. The onboard refueling system related research and 
performance tests would evaluate fuel leakage, examine sparking and 
grounding conditions of the refueling system, and examine conditions 
under which fire could occur.
    I would like to take a moment now to highlight NHTSA's important 
and continuing role in the delivery of Emergency Medical Services 
(EMS). For more than 3 decades, longer than any other Federal agency, 
NHTSA has been the Federal Government's leader for EMS. Our first 
Administrator, Dr. William Haddon, had a vision for EMS systems before 
they existed, and recognized that caring for the injured would be 
essential to decreasing the number of highway deaths. He also realized, 
as we still do today, that the only sustainable EMS system is one that 
addresses all emergencies. As EMS grew to include caring for people 
with non-traffic-related injuries, NHTSA created an informal Federal 
interagency EMS structure, partnering with the Departments of Health 
and Human Services and Homeland Security, and national EMS 
organizations to provide the leadership, coordination, and policy 
guidance to enhance the national EMS system.
    The needs of a comprehensive EMS system surpass the expertise or 
funding of any one agency. This is why I urge you to adopt the 
Administration's proposal, as contained in the Senate's version of H.R. 
3, which would create a formal, ongoing mechanism with the authority to 
coordinate Federal EMS activities. Such a committee, dubbed ``FICEMS'' 
(for Federal Interagency Committee on Emergency Medical Services) would 
not only allow, but require EMS to continue to tap the expertise and 
the resources of multiple departments.
    Creating FICEMS avoids duplication, assures consistency of mission, 
and maximizes the use of limited resources. Through the proposed EMS 
grant program, which is also in the Senate bill, each State's EMS 
office would receive formula grant funds for improving the capacity of 
the entire EMS system. This would not duplicate funding provided by 
other agencies, but would be the primary funding to support the basic 
EMS infrastructure that these segments utilize.
    Since 1966, NHTSA and the Department of Transportation have been at 
the forefront of the Federal Government's efforts to support every 
portion of the EMS system. I ask members of this Committee to continue 
NHTSA's commitment to EMS for the next decades.
    Finally, I want to bring up a topic that is not within the 
jurisdiction of this Subcommittee, yet vital to saving lives. There is 
a provision in the Senate version of H.R. 3 that will save over 1,200 
lives a year, and do it faster and cheaper than any other proposal you 
will consider in this Congress, and perhaps in this decade. If the 
intent of this hearing is to hear what can NHTSA do now that will 
immediately save lives, this is a provision I strongly urge the House 
to adopt.
    I am referring to the Administration's proposal, passed by the 
Senate but not in the House bill, which would provide incentives to the 
States to enact primary safety belt laws or reach 90 percent safety 
belt usage. Why are primary safety belt laws important? Because States 
that enact a primary safety belt law can expect to see their safety 
belt use numbers rise by approximately 11 percentage points practically 
overnight. If all States adopted a primary belt law, we would prevent 
1,275 deaths and 17,000 serious injuries every year. No other safety 
proposal I am aware of before Congress would save more than 1,200 
people annually at practically no cost.
    Consider that NHTSA recently completed the 15 rulemakings related 
to the TREAD Act. The actions associated with that law cost consumers 
$1.2 billion and took years to promulgate. In total, that law will save 
120 lives annually. In comparison, if the remaining States enacted a 
primary belt law, we would save ten times as many lives annually, by 
utilizing a device already in the car, at no cost to the consumer.
    It is one of the paradoxes of Congressional jurisdiction that this 
committee oversees the equipping of safety belts in vehicles, but not 
their use. There is no benefit to equipping vehicles with safety belts 
unless they are worn. I want to stress that this proposal provides 
incentives to the States, not sanctions. No State would be penalized 
for not adopting a primary belt law.
    Mr. Chairman, if the members of this Subcommittee want to save 
lives and do it now, and I know every Member here shares that goal, I 
urge you and your colleagues to adopt the Senate language for primary 
belt incentives. No vehicle mandate, no elaborate rulemaking, no public 
relations campaign would save as many lives as Congress giving the 
States an incentive to pass primary belt laws.
    I urge this Subcommittee to support all of these important safety 
initiatives and our rulemaking goals as outlined in our priority plan. 
I will be glad to answer any questions you may have.

    Mr. Stearns. I thank you. I will start with the questions.
    I think a good example of what you are talking about is the 
air safety bag. Back in, I guess, the mid-90's, it was sort of 
a rulemaking that we had to make safety airbags stronger, and 
in so doing, by making them stronger, then you are going to 
actually increase the possibility of death to infant children, 
and so Congress had to back off on that, and we had to indicate 
this rulemaking is not appropriate. And that goes to what I 
said in my opening statement.
    There is a fine balance between Congress issuing a rule and 
the optimum safety provided with the cost analysis, and what 
the impact would be. And you are indicating this morning that 
just these incentives, that is in the Senate bill, if it was in 
the House bill, would provide safety--would eliminate the 
deaths of 1,200 people, you are saying, just by giving 
incentives to the State. And so I think that points up toward 
this question I have.
    I understand your agency is working on a rulemaking on 
rollovers, occupant ejection, door locks, and side impacts. 
What are the chances that these rulemakings will not be 
completed, or will be completed?
    Mr. Runge. Well, Mr. Chairman, the side impact rule, we--it 
has been through the NPRM. It has been through the comment 
period, and we expect to publish that early in 2006, I hope 
before the crocuses pop through the grass. There is nothing 
higher on our rulemaking priority plan. We believe that that is 
850 lives a year. And keep in mind, Mr. Chairman, we don't have 
a head--our side impact center does not recognize the brain, 
even though 58 percent of our side impacts involve brain 
injury. So this--we have to do this. This is absolutely a must-
do, and it will be done.
    With regard to rollover, that is a little more complex, 
because it involves not only structural integrity and safety 
belt use and safety belt performance and ejection mitigation, 
but also involves preventing the rollover from happening in the 
first place. Hence, our emphasis on electronic stability 
control and developing a performance test that will keep 
vehicles on the pavement. Ninety percent of those rollovers--
that is a serious one there--90 percent of those rollovers 
occur when the vehicle leaves the road and trips. So if we can 
keep vehicles on the road with technology, then a lot of the 
other improvements that we can make in the structure of 
vehicles will be less important.
    Mr. Stearns. Maybe I should ask this question first. 
Generally, what do you believe that mandated rulemakings, I 
mean your philosophy, are they in the best interests of your 
agency coming from Congress? Perhaps what is the role of 
Congress when it comes to your agency, you know, other than 
just the, strictly, funding of your agency, what should be our 
position on this rulemaking? You might just establish that from 
the get-go.
    Mr. Runge. Thank you. Mr. Chairman, we enjoy working with 
the committee on things that are important to the members, and 
we like to come over and share the data, and you know, lay it 
all out, so you can see what the most important things are that 
we believe, based on the data we have to do. The problem--and I 
think we have done that. We have done that with the Senate 
committee to the point that the language that is in the Senate, 
I don't believe is going to be particularly harmful for NHTSA's 
functioning.
    However, you yourself pointed out that in the mid-90's, 
NHTSA had to turn on a dime to address airbags that were 
overpowered, and that consumed a tremendous amount of resources 
in the rulemaking and the research part of our agency, which 
is, again, not very big. So things got delayed. Now, if we 
have, you know, 6 years worth of mandates, our ability to turn 
on a dime and address emerging safety problems is severely 
impaired.
    So we would prefer to use a rulemaking priority plan to do 
this, which again, we will update annually or at least 
biannually with input from the committee, with input from 
public comment, based on data and cost/benefit. That is the way 
we would prefer to set our rulemaking priorities.
    Mr. Stearns. Well, you hear from a lot of members who are 
talking about back-over technology, cameras and radars that are 
being evaluated. I guess is this an example of huge amount of 
costs, huge--optimal solution not provided. In your opinion, 
what is being done in this area, and how do you feel in terms 
of if we moved in that area of rulemaking?
    Mr. Runge. Back-over injuries and deaths are a serious 
matter, and we take them very seriously. The difficulty is, and 
you know, it is easy to be--to tell somebody you have got to 
collect data on these things.
    Mr. Stearns. Some automotive companies have already bought 
these cameras, I think in Europe.
    Mr. Runge. Yes. Well, there are some that are available in 
the United States as well.
    Mr. Stearns. Okay. So you can get it as an option----
    Mr. Runge. Sure.
    Mr. Stearns. [continuing] in your SUV.
    Mr. Runge. There are vehicles that if a parent wants to--if 
they are concerned about this, they can go buy those vehicles. 
You know, my kids are 21 and 18 and out of the house. I have 
less need of a back-over technology in my vehicle. So I may not 
choose to pay that $1,500. So again, you know, we believe that 
market forces can work in this area. The data collection is 
difficult, because, you know--and we talked to Ms. Fennell 
about this a lot, and her careful scouring of LexisNexis and 
all the clips and so forth, but we have to rely on national 
data. So we went to the National Health Statistics, NCHS, and 
said we need all of the, you know, all the codes that could be 
strangulation from power windows, back-overs, and so forth, and 
you know, we just recently received 1998 birth certificates, 
and we had a person who pored over every single birth 
certificate, and you know, it was tremendously labor-intensive. 
So if we do this, if Congress tells us to do this----
    Mr. Stearns. You mean a death certificate instead of a 
birth certificate.
    Mr. Runge. Yes, I am sorry. Death certificate.
    Mr. Stearns. Instead of a birth certificate.
    Mr. Runge. Sorry. Sorry. I am just a physician. They pored 
over these death certificates, and you know, were able to find 
a small number of these incidents. Now, every incident is 
important, and we don't want to diminish that by any means.
    Mr. Stearns. Under 10, you mean?
    Mr. Runge. Well, let us see here. There were 123 backing 
deaths.
    Mr. Stearns. Okay.
    Mr. Runge. 1998. 44 percent of those were children aged 1 
to 4. So about 60 kids.
    Mr. Stearns. Sixty kids.
    Mr. Runge. In 1998.
    Mr. Stearns. Okay.
    Mr. Runge. And many were adults over 70. Now, to--
technology--you know, we don't want to presuppose that a 
technology is going to be 100 percent effective, either, at 
preventing these things.
    Mr. Stearns. No.
    Mr. Runge. So you know, when you look at the cost and 
benefits here, it gets a little tough to justify.
    Mr. Stearns. Well, and also, I, you know, there is a lot of 
politics involved here, so for us to tell you what to do in 
this area, we need to hear your best judgment first, before we 
just run it out, and you are saying right now that the public 
can get this, if a mom and dad want this protection, for 
$1,500. Instead of buying a new car, they can get a used car, 
could they get it retrofitted or not?
    Mr. Runge. Well, there are cameras that will fit, for 
instance, in the hitches, trailer hitches.
    Mr. Stearns. Okay.
    Mr. Runge. There are mirrors. There are technologies that 
people can use in their vehicles. And in fact, you know, we are 
seeing--we just protected the 5.9 gigahertz spectrum for 
vehicles and ultrahigh bandwidth radar. Mercedes just tested a 
vehicle with us a few weeks ago, where it can actually detect 
objects around the vehicle.
    Mr. Stearns. This is a radar rather than camera. So in the 
end, maybe radar is a solution as we move on, that radar could 
make cameras obsolete, because the radars would be much more 
efficient.
    Mr. Runge. Certainly could be, but again, this is research 
that will be done by the industry, and we will watch it very 
carefully. But this is a tough problem.
    Mr. Stearns. Yes. Thank you. My time has expired. The 
ranking member.
    Ms. Schakowsky. Are you opposed to data collection for non-
traffic accidents, then?
    Mr. Runge. Certainly not.
    Ms. Schakowsky. Okay. So I got the impression that it would 
be overly difficult to collect that information.
    Mr. Runge. Well, we don't know how we would do it right 
now. In a--to get data sources that would be acceptable to the 
Data Quality Act, which you all passed, and so forth. And we 
would have to really look at this closely. Right now, the only 
data source that we know or that we can rely on is the National 
Center for Health Statistics, which is years behind in the 
death certificate. And there is no word search capability that 
we know of that will get to this problem. So we think we just 
don't know how we would do this, other than the method that Ms. 
Fennell uses, which is to scour press clips. And, you know, and 
that has its own limitations.
    Ms. Schackowsky. Although using that method, a private 
citizen did find 523 children involved in those kinds of 
accidents, 165 dead, in 2004 alone. I mean, I don't know how 
big a problem has to get. And I don't know if you saw Good 
Morning America, the segment where they had--I think on that, 
the time I saw it, 17 children were huddled behind an SUV, and 
with all the equipment on it that was available, you couldn't 
see any of them. It was really just amazing. It was just 
shocking. And they were saying how many kids do you think were 
back there, and it turned out there were 17. And it seems that 
minimally, collecting this information so that we do know the 
scope of the problem ought to be a project that we begin 
immediately. I wonder what kind of progress we can make on that 
now.
    Mr. Runge. That is a great question, and we would be happy 
to work with the committee on that, Ms. Schakowsky. You know, 
interestingly, over in the appropriations side, we got 
appropriations language that just came out last week that 
suggested we might be collecting too much data. So we have 
really got to get together on this, and decide, you know, what 
it is exactly that we should do. We are not authorized right 
now, though we certainly could do this on our own, to figure 
out some data system for off-road, off, out of traffic, motor 
vehicle related injuries, but right now, that is not in our 
mandate. And it is certainly within your power to change that.
    Ms. Schakowsky. And I think it would--it is important that 
we don't leave the impression that any car can be either 
purchased with or retrofitted to include this technology right 
now. Am I correct with that, that I can't go to an auto dealer 
and say, and I want these features in my, I don't know, maybe 
my Ford Focus wagon, I can do that. I don't know. But they are 
not universally available. Isn't that true?
    Mr. Runge. I believe that you can buy small cameras, and in 
fact, I saw Ms. Greenberg here from Consumers Union. We were up 
there in Connecticut at their facility a couple years ago, 
looking at some of the aftermarket potential.
    Ms. Schakowsky. Aftermarket, but----
    Mr. Runge. Right.
    Ms. Schakowsky. Originally, when I purchase a car, it is 
not even an option in all cars, is it?
    Mr. Runge. It is not an option in all cars. Neither is 
anything else, for that matter, but there are vehicles out 
there that you can go. If a back-over camera is important to 
you, you can buy it, when you are ready to buy a new car.
    Ms. Schakowsky. Yes, but seatbelts are available. Basic 
safety features are available in all cars. I wanted to just 
point out that while you emphasize that 90 percent of crashes 
are caused by human factors, inattention, speeding, 
psychological, physiological impairment, et cetera, of course 
that is true, and that is why seatbelts, in some ways, take 
account of that, take that into consideration, the fact that 
human factors will lead people to accidents. But those built-in 
safety features will mitigate against the result of those 
personal human factors. And so I would think that we would want 
to move as quickly as possible, in terms of rollover accidents, 
the kinds of timetables that are in the Senate bill.
    Now, I understand you gave an example of the airbags. That 
was a special case, where you had to turn on a dime, but were 
there not those kinds of special cases? Are you saying that the 
timetables and the deadlines that are in the Senate bill are 
unreasonable, that it is not possible to meet them? And if so, 
what are your timetables for dealing with these issues?
    Mr. Runge. The only one--the only deadline that is 
absolutely preposterous is the implement labeling requirements, 
the vehicle safety labeling requirements, the so-called stars 
on cars, that tells us to issue a plan by January 1, 2006. And 
I understand that--I hope that the committee will be sensitive 
to that. The rest of the deadlines in the Senate language, 
frankly, are certainly workable, and we, you know, we have 
other, bigger fish to fry than worrying about those deadlines.
    Ms. Schackowsky. And what would those be?
    Mr. Runge. Than worrying about those deadlines. They are 
not unreasonable.
    Ms. Schackowsky. And what are the bigger fish to fry that 
you mean?
    Mr. Runge. If we get primary belt law incentives, your 
State will get $31 million, and we will be able to get a lot 
more primary laws in this country, and save 1,275 people a 
year.
    Ms. Schackowsky. So you see that as the--your No. 1 
priority now is to do that. But you wouldn't oppose, other than 
the October 1, 2006 deadline, in the Senate--no, it was--what 
did you say?
    Mr. Runge. January.
    Ms. Schakowsky. January.
    Mr. Runge. January 1.
    Ms. Schakowsky. Yes. As a--those other deadlines would be 
acceptable to you?
    Mr. Runge. Yes, ma'am. The other deadlines are certainly 
workable.
    Ms. Schakowsky. Thank you very much.
    Mr. Runge. Sure.
    Mr. Stearns. I thank the gentlelady. Ms. Myrick is 
recognized.
    Ms. Myrick. Thank you, Mr. Chairman. Dr. Runge is from my 
district, and he literally has spent his lifetime working on 
saving lives, because when he was at our largest hospital, in 
charge of emergency and trauma, he really made our whole region 
aware of what we needed to do, ourselves, to help save lives. 
And so I was delighted when he came up here, because I knew 
that he would do what he believes in, and that is, do 
everything he can to save lives. And we appreciate the job 
you've been doing at the agency, and I want to thank you.
    But I wanted to ask. I know we don't want, a lot of us 
don't feel strongly about mandating things, and you have 
already said that causes you some difficulty. But are there 
other tools or authorities that this committee might be able to 
provide to you that would be helpful in your quest of saving 
lives?
    Mr. Runge. Representative Myrick, I am not used to getting 
such a wonderful, open-ended question like that, and it frankly 
sort of caught me on my heels. We do have a really good 
relationship with your committee staff, and it is a 
relationship that has developed over time, and I think that 
there is a confidence that has developed mutually, about when 
we see needs, we aren't shy. And in fact, neither is your 
committee staff.
    So if you would allow me the opportunity to think about 
that a little bit, I would love to give you back a real answer.
    Ms. Myrick. I appreciate it very much, and again, we are 
glad you are here. Thanks for the good job you do. I am 
finished, Mr. Chairman.
    Mr. Stearns. I thank the gentlelady. The ranking member of 
the full committee, Mr. Dingell, is recognized.
    Mr. Dingell. Mr. Chairman, thank you very much for your 
courtesy. I begin by asking unanimous consent that I may be 
permitted to insert an opening statement in the record.
    Mr. Stearns. By unanimous consent, so ordered.
    [The prepared statement of Hon. John Dingell follows:]

    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan

    I am pleased we are holding this hearing on the ``Reauthorization 
of the National Highway Traffic Safety Administration (NHTSA).'' This 
will aid us in examining the resource needs of the agency, and its 
current priorities. I have always viewed reauthorization of an agency, 
which is for a fixed period of time, to be separate from decisions to 
change the underlying laws which the agency administers. Should 
Congress, during the reauthorization process, consider writing new laws 
for the agency to administer, we should be guided by several factors:
    First, we must guard against regulating before the experts have an 
adequate understanding of both the problem we seek to solve and how 
proposed solutions affect overall safety and public health. Time after 
time, when NHTSA has been forced to regulate without a complete 
understanding of the problem, the unintended consequences have been 
grave. For example, the issue of air bags has been revisited more than 
once to ensure that children and small adults are not harmed by a 
system intended to protect. Good intentions alone are not sufficient 
for regulating vehicle safety.
    Second, we must not divert resources away from regulations and 
innovations with the most potential to save lives. Every time Congress 
mandates that NHTSA promulgate a rule on a specific subject, there are 
fewer resources for NHTSA to spend on other safety priorities. As 
information and research improve, we should allow the expert agency 
adequate flexibility to determine what actions will save the greatest 
number of lives.
    Third, we must recognize that irresponsible regulation of the 
automobile will sacrifice important manufacturing jobs in the United 
States. At a time when this country is hemorrhaging jobs, we must take 
extraordinary care to ensure that new regulations are both appropriate 
and implemented wisely.
    There are times when legislative action is necessary. We worked 
diligently in this Committee on the TREAD Act, and that law continues 
to yield fruit. The Early Warning System established under that Act 
helps NHTSA and manufacturers identify problems sooner and recall 
affected vehicles faster.
    Due in part to the TREAD Act's success, times have changed. NHTSA 
has established an aggressive agenda for vehicle safety that will be 
implemented on a responsible timetable. I commend Dr. Runge for 
establishing a multi-year priority plan for vehicle safety. NHTSA's 
diligent progress toward implementing these safety initiatives and Dr. 
Runge's personal efforts to increase seat-belt use are saving lives.
    When the Senate proposed a NHTSA reauthorization last Congress, 
Chairman Barton and I were profoundly concerned that it would supplant 
the expertise of the engineers and scientists at NHTSA with the 
opinions of lawyers and activists. The version presented to us this 
Congress, however, appears to have moved in the proper direction and 
deserves careful examination.
    I look forward to working closely with Chairman Barton on this 
important matter, and I thank the witnesses for their testimony today.

    Mr. Dingell. Thank you, Mr. Chairman. Dr. Runge, welcome to 
the committee. You are asking for more resources for your 
agency to do the job that we have commanded you to do. Would 
you please identify what those are for the record. And so that 
we can look to see what we have to do to help you do your job 
the way you want to do it. Now, I would note that you want to 
regulate hydrogen vehicles, and you want authority to harmonize 
our regulations with those of foreign governments. Would you 
submit for the record, please, some statements as to what it is 
you want there?
    Mr. Runge. Absolutely.
    Mr. Dingell. Now, Doctor, with regard to the mandated 
rulemakings that the Senate has included in its bill. First of 
all, what amongst these are matters on which your agency is not 
now working? Are there any of them?
    Mr. Runge. Yes, sir, Mr. Dingell, there are. We--there are 
several areas here, which we are working, but are not our 
highest priority. For instance, back-over----
    Mr. Dingell. What you are telling me is that some of these 
are things that you don't view as being high priority. And I 
guess you are telling me that establishing high priority for 
things that you might have lower priority will, perhaps, deter 
you from doing things that might be more important, in terms of 
safety of motor vehicles and the safety of the motoring public. 
Is that right?
    Mr. Runge. That is correct, sir.
    Mr. Dingell. All right. Would you submit that to us for the 
record? Out of respect for our chairman, I don't want to 
clutter the time of the committee with my questions and answers 
if I can get it in the record. Now, would you tell us, also, 
which of the Senate mandates are on your priority list, and 
which are not on your priority list? Would you submit that to 
us, please?
    Mr. Runge. Yes, sir.
    Mr. Dingell. Now, I would note, Doctor, that if we work 
with the Senate, we are going to have to address the question 
of how the language should be best done. I think that you are 
probably going to need a certain amount of flexibility in terms 
of what the language would do. Is that correct?
    Mr. Runge. We would prefer to be able to respond to 
emergencies and turn on a dime, yes, sir.
    Mr. Dingell. For example, I note that the mandate is that 
you come up with a final rule, and would it not be better that 
you were to be mandated to come up with a final action?
    Mr. Runge. That would certainly increase our flexibility.
    Mr. Dingell. That would give you more flexibility, and you 
would still have to come to a decision on matters prior to the 
time.
    Mr. Runge. That would be very helpful, sir.
    Mr. Dingell. Now, I note that there are agreements 
providing better and more information to the agency, which 
might come faster than would occur without them. Is that--and I 
am referring now to voluntary agreements that are executed 
inside the industry with the insurance industry. Is that 
correct?
    Mr. Runge. There is no question that the industry can move 
faster than we can regulate.
    Mr. Dingell. And these have actually made for more safety, 
faster and better. Is that not so?
    Mr. Runge. We have good example of that. We also have 
examples where we have gone slightly divergent, and see the 
need to regulate. But yes, sir, the timing is absolutely 
correct.
    Mr. Dingell. So I assume, Doctor, that these voluntary 
agreements inside the industry, and with the insurance 
industry, and with your agency, enable the auto manufacturers 
to accomplish your purpose of safety better. They enable NHTSA 
to understand the problem, and to bring forward potential 
solutions in a faster and more effective manner. Is that right?
    Mr. Runge. Yes, sir. You know, the research community is 
fairly small, and the research engineers know what each other 
are doing, and we have a very constructive dialog with the 
safety people in the industry.
    Mr. Dingell. Do I have any reason to assume that the 
mandates that are here would in any way interfere with the 
voluntary agreements which you are executing with the 
companies?
    Mr. Runge. I would say, in general, sir, that the more 
restrictive mandates are, the less we are able to evolve into 
the best path. Some of these do presuppose that we already know 
the answer to the question before we have adequately researched 
it. Having said that, the most--as much flexibility as you can 
give us, if you all see the need to mandate these particularly 
safety problems, would be most appreciated.
    Mr. Dingell. Now, Doctor, I note that you are beginning to 
work on rollover prevention and crashworthiness. Will voluntary 
standards help you here as you proceed about your efforts to do 
the regulation of these questions inside the agency?
    Mr. Runge. Mr. Dingell, in a couple of these instances with 
rollover, I do believe that the industry deserves a level 
playing field, and I do think that that is an appropriate place 
for regulation, rather than voluntary standards. There are 
always things that the industry can do voluntarily to go beyond 
the minimum standard, but I do believe that manufacturers that 
do the right thing, that might be a little more costly, deserve 
a level playing field to make sure that they are not at a 
competitive disadvantage.
    Mr. Dingell. Thank you, Doctor. Mr. Chairman, I know I am 
transgressing upon your time. I hope that you will forgive me 
for one final question.
    Dr. Runge, I want to refer to your experience with regard 
to mandated regulations on specific subjects. And I have the 
impression that this oft-time develops a situation where delay 
with regard to product plans, for economic reasons, by the 
industry, will occur until they understand what the new 
requirements might be. And I would also ask while the mandates 
in the Senate bill may be similar to your priority plans, is it 
fair to say that a pattern of Congressional mandates would 
discourage voluntary agreements in the future, and possibly 
delay the advance in safety in motor vehicles?
    Mr. Runge. If we get to a point where we think we know the 
best answer, and it turns out not to be the wrong answer, after 
public comment, but we are still under a rulemaking deadline 
for a final rule, there are--it is very difficult to work 
around those deadlines.
    Mr. Dingell. So I guess, Doctor, that--in courtesy to our 
chair, you are telling me yes.
    Mr. Runge. Yes, sir.
    Mr. Dingell. Thank you, Doctor.
    Mr. Chairman, I thank you for your courtesy.
    Mr. Stearns. I thank the distinguished colleague. Mr. 
Otter.
    Mr. Otter. Thank you, Mr. Chairman. And thank you, Doctor, 
for being here today. We have, as you might recall, at the--met 
in various capacities before, when I was on the Transportation 
Committee, and even though I know most of your questions and 
answers today have dealt with vehicle safety, I want to go to 
another part of highway safety that I don't think we are paying 
near enough attention to, and of course, it goes back over all 
these years. I just did some figuring, and there is a section 
of highway in Idaho, Highway 95, which runs, traverses from the 
south, at the Nevada line, clear to Canada, some 680 miles, in 
fact, in 1939, was designated as part of the Alcan Highway, 
which was a total of 26,000 miles. But twice as many people are 
killed on a small section of that highway as can hide behind an 
SUV, every year. The biggest holdup that we have had on that is 
our failure to streamline, as was promised in TEA-21, as ISTEA, 
and now, TEALU, or the promise of, I should say, a streamlining 
process where we can move forward on highway construction, 
especially, where we are losing lives, and we are costing 
people. There--and in the insurance industry. Is the 
Department, has the Department begun moving forward to at least 
help the Transportation Department and the construction side 
now, and design now, I am talking about, move forward on some 
streamlining, so that we are not 10 years waiting to find out 
if a bug or a piece of grass or something like that is going to 
be eliminated as a result of our widening or making our 
highways more safe.
    Mr. Runge. Thank you, Mr. Otter. I--this falls under the 
jurisdiction of the Federal Highway Administration. But I can 
tell you that Administrator Peters has had at one of her top 
priorities to get effective environmental streamlining into the 
reauthorization process. I am not expert in this, and I really 
can't speak to the provision of the bill. I do know that it is 
very high on our priority list.
    Mr. Otter. I had noticed that some of the very same 
communities that are so enthusiastic about designing what 
Detroit puts out are the same communities that are resistant to 
allow us to go forward with the design of our highways, with 
the construction of our highways. In fact, the year that I 
served on the Transportation Committee, 2001 and 2002, that 
term, we had some $14 billion in highway construction funds 
backed up waiting for a decision from some agency of the 
Federal Government, relatively mostly to an environmental 
consideration. Now, I think that is--in fact, as I recall, 
Christie Todd Whitman's successor from New Jersey came and 
testified that they had been waiting some 11 years for a 
turnoff, an off-ramp, where they had been killing about 19 
people a year, because of the absence of that turnoff. And I 
still don't know yet today if they have been able to mitigate 
two and a half acres of swamp in order to save 19 lives, and I 
don't expect you to know that specific either. But I would just 
hope that if it is not within your purview, I would just hope 
that you wouldn't pass the opportunity to at least put an 
asterisk at the bottom of a page, and say exactly what could be 
done or should be done. No matter how many more seatbelts we 
put in cars, or airbags we put in cars, or how wider we make 
the track on a vehicle, unless they are running across a safe 
highway, and safe as they can possibly be, it is not going to 
make any difference what we mandate from Detroit, if we are not 
mandating the same things, as far as the streamlining process 
that we were promised in the past.
    So I would just mention that, and I hope, if you get the 
opportunity, that you could add to--the idea that no matter how 
safe we make these vehicles, if our highways aren't also 
enjoying the maximum amount of attention for their safety, it 
is not going to make any difference. That is just a final 
statement. I don't expect you to respond.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Stearns. I thank my colleague. Ms. Baldwin.
    Ms. Baldwin. Thank you, Mr. Chairman. I want to follow up 
on two matters that our ranking member, Mr. Dingell, referred 
to quickly, and just ask a little bit further on those. In your 
written testimony, I was interested in your references to 
hydrogen-powered vehicles, and pleased that there are plans to 
make this a priority area for safety research, and I wondered 
if you could provide some more detail regarding the timeline 
for this research, when you would expect any rulemaking process 
to occur, and whether you have sufficient statutory authority 
to pursue this research and rulemaking.
    Mr. Runge. Thank you. With respect to your last question, 
yes, we do have the statutory authority. We have not had the 
appropriation to do specific testing for hydrogen yet. However, 
we have, you know, it is funny how this happens in the Federal 
Government, we have found some money to begin research into 
hydrogen fuel safety systems. You know, the idea here is, is 
that the--that we hear from Europe and from the manufacturers 
here that there is a lot of component testing going on, and you 
know, 10,000 PSI tanks, 8,000 PSI tanks, they don't leak and so 
forth. But we are not going to be happy until we do a test of 
the full fuel system. We don't know exactly what the effects of 
a 1,500 degree invisible flame will do to a vehicle or its 
occupants, but we need to find out.
    We already have test fleets that are on the roads of this 
country right now, and frankly, we are behind. So we intend to 
do full vehicle testing at some point, particularly crash 
testing, but it will depend upon the availability of vehicles, 
and there are so few right now, and they are so expensive that 
we don't think that is practical. So we are going to continue 
to look at the fuel delivery, both the low pressure and the 
high pressure side, and try to get some science behind what 
might turn into a future regulation.
    Ms. Baldwin. On, I guess a related matter, you noted in 
your testimony that the Secretary of Transportation should be 
authorized to--quoting, authorized to participate and cooperate 
in international activities to enhance motor vehicle and 
traffic safety. Should I take from that that under current law, 
the Secretary is not permitted to engage in such discussions?
    Mr. Runge. There are two things that happen 
internationally. One is vehicle regulatory harmonization, and 
for that, we do have the authority, and we are--we have a very 
active program of harmonized research and harmonized 
rulemaking. When I found out about this, and I was educated on 
it when I first got here in 2001, I suggested that, since 
nothing had really happened on the 1998 agreement, which is 
when this agreement was signed in Geneva, that perhaps we 
should set a deadline of November 2004 for a global technical 
regulation, and we, in fact, didn't meet that on a subject 
which is door locks and retention systems, which is part of our 
rollover injury prevention plan. So that is one side, and it is 
working, it is slow, as international negotiations are, but it 
does work.
    The other place, though, that is much more, I think, 
important to the Secretary, and frankly, where the fruit is 
much lower hanging, is in the area of human factor vehicle 
safety worldwide. And worldwide, we lost over a million people, 
and that is a conservative estimate, because we just have to 
use estimates. We don't have data collection systems in many 
developing countries. But as countries motorize, which is the 
second thing they do after they get money. The first is 
telecommunications. Then, they start transportation. And the 
easiest way for them to enhance their transportation is to buy 
vehicles, without the road infrastructure, without safety 
features, and so forth. So our intention is to participate with 
the World Health Organization, to follow along on a U.N. 
resolution which was passed in April of last year, to identify 
best practices, to allow economies in countries that are 
developing to try to stem the tide of traffic fatality in their 
countries. We are seeing huge problems in places like China and 
Thailand, and Indonesia, and all across Africa and Latin 
America, where just the basics of a central agency of 
government to help with this, or the use of safety belts, or 
impaired driving, or pedestrian--separating pedestrians from 
vehicles. All that is lacking. So this is part of the 
President's good neighbor policy. We would like to reach out to 
these nations, and to be able to provide technical assistance 
and best practices for them.
    Ms. Baldwin. Okay. One quick question. I am almost out of 
time, so maybe you can answer in writing later. You have talked 
about human factor. In my district, in Wisconsin, it is not 
unusual for accidents to be caused by the animal factor. I see 
white-tailed deer on the side of the road very frequently. 
Obviously, it can be very dangerous. What sort of extent of 
research do you have in that arena?
    Mr. Runge. We have been party to testing of some of these 
things, like whistles, that don't work. There are ideas about 
reflectors that scare deer, and you know, we are aware of these 
things, but it is a tough problem, you know. Once again, I 
think that we are sort of faced with treating the animal like 
any other obstruction that you might get, whether it is a tree 
or a post or a guardrail, and that is, is to buckle up and 
drive sober, and control your speed. And unfortunately, these 
crashes are going to occur, and we really don't have a method 
to keep those animals away from the roadway.
    Mr. Stearns. The gentlelady's time has expired. The 
gentlelady from Tennessee, Ms. Blackburn.
    Ms. Blackburn. Thank you, Mr. Chairman. And I want to thank 
you for your well prepared and timely delivered testimony, that 
allows us to kind of work ahead. I will have to tell you, 
before coming to Congress, I was in the State Senate in 
Tennessee, and part of the leadership team on our 
Transportation Committee in the State, so was familiar with 
reading your rules, the regulations, the memos that came down. 
So it is nice to visit with you.
    Ms. Baldwin was talking a little bit about human error, and 
I find it so interesting, you know. In your testimony, you were 
talking about 90 percent of the crashes, and the human error 
factor there. And I want to talk with you about three quick 
points, stability control, and the benefits of that technology. 
In your testimony, I think you said it is 61 percent of the 
vehicles now are--have the technology. Is that correct?
    Mr. Runge. I don't think that is correct, and I don't have 
the number, but it is much smaller than that.
    Ms. Blackburn. Much smaller than that.
    Mr. Runge. I am sure that Mr. Webber may be able to fill in 
that hole for you.
    Ms. Blackburn. Okay. So you are not sure of the exact 
number of cars. In a situation like the stability control, it 
seems that the market and the consumers' desire for safe cars 
is pushing the technology forward in the vehicles, and is the 
market driving that, or is--are you all, with forced 
regulation, driving the desire for that, and what do you see as 
your participation in that component?
    Mr. Runge. I suspect--well, I don't suspect--I know for a 
fact that many vehicles on the road do have electronic 
stability control, but they are mostly at the higher end of the 
price spectrum. Some manufacturers have voluntarily agreed to 
put electronic stability control in all of their vehicles, 
namely GM, by 2009. I think that Toyota said in their truck 
fleet by 2007, and so forth. So it is spreading across the 
manufacturers. For anything that has this much efficacy, has a 
63 percent reduction in SUV fatal crashes, or a 30 percent 
reduction in passenger car fatal crashes, this is the kind of 
cost effectiveness that is smart government for regulating. And 
we would want to level the playing field to ensure that 
everybody who buys a car has access to technologies that keep 
vehicles on the pavement.
    Ms. Blackburn. Okay. And in that vein, getting that 
information out about safe cars with safercar.gov website, what 
are your efforts on advertising that? How are you working with 
auto retailers and also the manufacturers on that effort?
    Mr. Runge. We have a marketing plan, and I talk about it 
everywhere I go, you know. It is on this lapel pin I have got. 
It is everything that we do, we talk about safercar.gov. You 
know, bless their hearts, the folks at Lowe's Motor Speedway 
last month gave us a courtesy sponsorship for the Quaker State 
and Lube 200 brought to you by Click It or Ticket, and we 
talked about safercar.gov for 4 hours. You know, it is--you 
know, we have a limited marketing budget, obviously, but you 
are exactly correct. Unless consumers avail themselves of the 
crash test ratings and the rollover ratings, it is very 
difficult to get the message out. So yesterday morning, I was 
on the evening news and the morning shows, talking about the 
new rollover ratings. You know, 4--3 years ago, there was one 
four star rollover rated SUV. Now, there are 24. So you know, 
the market is working. For whatever reason, the manufacturers 
are making vehicles that get better crash ratings, and I hope 
that, in fact, it is market forces at work, and not simply my 
bully pulpit.
    Ms. Blackburn. Well, if you are blessing their hearts, you 
have got a little Southern in your soul, so you must know about 
driving some cars. All right. A couple more things before my 
time expires. Looking at a couple of other components. When you 
are--the Senate bill has--requesting a final ruling July 1, 
2008, on the side impact crash improvements. And then, also, 
power window switches by April 1, 2007. If these were removed, 
when would you expect to make your ruling on this?
    Mr. Runge. With respect to side impact, we will beat that. 
We will leave it in the dust. With respect to power window 
switches, you know, we just finished a final rule in September 
that will require manufacturers to have switches that children 
cannot kneel on and roll the window up, which in our review of 
the death certificate data, is the problem. Now, there is a 
political--there is some political movement toward getting us 
to get rid of recessed rocker switches that a child's knee 
cannot contact, because they might stick their toe in somehow, 
and you know, lift it up, and entrap themselves, which we have 
never seen a case of. So this is a mandate that we don't think 
needs to be mandated. And you know, we will be happy to look at 
it again, as we have been looking at it before, but the problem 
is fixed. So if that goes away, the rule needs to go away as 
well.
    Mr. Stearns. The gentlelady's time has expired. And the 
gentleman from Massachusetts, Mr. Markey.
    Mr. Markey. Thank you, Mr. Chairman, Dr. Runge. I respect 
your work, and I thank you for coming.
    As you know, Doctor, I authored the original amendment to 
the TREAD Act, which directed NHTSA to draft and implement a 
new regulation that would require all motor vehicles to be 
equipped with a warning system that would alert motorists when 
a tire was significantly under-inflated.
    Mr. Runge. I do have a vague recollection of that, Mr. 
Markey.
    Mr. Markey. And, of course, the reason it is important is 
that when it is under-inflated, it could lead to de-treading of 
the tire, and what we saw in the Ford Firestone incident is 
that then causes accidents as the car goes off the road and 
kills the passengers. As you know, there is a lawsuit that has 
been filed by the tire industry and Public Citizen which raises 
several safety concerns.
    Right now, we are here in June of 2005, on an amendment 
which I successfully authored back in 2000, which targeted the 
original implementation of this critical safety provision for 
2002. The delay, in my view, not only has repercussions for 
consumer safety in the United States, but also represents a 
financial hit to the companies and manufacturers that have 
invested in this technology, and that have increased their 
production levels in anticipation of a launch this year.
    My question to you is whether NHTSA has considered other 
potential avenues of action to address the concerns raised in 
the suit, instead of fighting it in court, and facing the 
specter of having to completely rewrite the regulations for a 
second time. And is there any way, any other way, to resolve 
this, other than through litigation at this point?
    Mr. Runge. Mr. Markey, we believe that the rule that we 
finally arrived at, which as you well know, is very similar to 
the original rule that we wrote, which by the way, if that had 
gone through, all vehicles would have TPMSes in them now, and 
we wouldn't be having this conversation.
    There is a real concern that if--that these--we don't want 
them to false alarm, and to become an annoyance, and relive 
1974 all over again with safety belt buzzers and this sort of 
thing. Our engineers have done the best they can to make sure 
that they have a balance between TPMSes that will warn people 
when there is a safety problem and warn them when their tires 
are under-inflated to the point where they are really under-
inflated but not a safety problem. They really believe that the 
margins that they have constructed around the compliance test 
are fully sufficient to correct the safety problem. And 
manufacturers, when they make these things, they will make them 
so that they alarm well before it gets to 25 percent under-
inflation, but that is the area that we are going to run the 
compliance test on. We want to make sure that everyone does it 
at least by then. And there are some issues with, you know, 
whether it is--whether we let out 1 PSI or 2 PSI that are in a 
world of arcane engineering minutiae that we are going to be 
looking at very closely. And I think we will revisit some of 
those technical engineering issues, but I think they are very 
confident that they have solved the safety problem with this 
rule, and I hope that it will stand, and I hope the court will 
throw it out.
    Mr. Markey. Will the vehicle manufacturers be required to 
still begin phasing in the tire pressure monitoring systems to 
their vehicle lines in October of this year, or will they be 
able to postpone it due to the lawsuit?
    Mr. Runge. The final rule is the final rule, and they will 
still be required to phase them in October.
    Mr. Markey. So beginning this October.
    Mr. Runge. Yes.
    Mr. Markey. And it will continue. Thank you. And you also, 
in the Wall Street Journal, recently said that you are going to 
do some new fuel economy standards that will save billions of 
gallons of gasoline, and it will still be fair to the industry. 
What is your timeframe for that overhaul?
    Mr. Runge. We have a deadline for a final rule in April 1, 
2006.
    Mr. Markey. Have you consulted with the environmental 
community?
    Mr. Runge. Yes, sir.
    Mr. Markey. What details can you share with us?
    Mr. Runge. None.
    Mr. Markey. Are you considering the sort of weight-based 
CAFE standards approach that has one for SUVs, one for midsize, 
and one for lower?
    Mr. Runge. Well, if you recall, the advance notice of 
proposed rulemaking, we ask for comment on attribute-based 
systems, and that is certainly part of our deliberation.
    Mr. Markey. I would recommend to you that you not move with 
the different categories, that you keep the merged approach. I 
think otherwise, we are going to wind up with 50 percent of all 
people buying SUVs up in this higher category, and we are going 
to wind up with, unfortunately, lower fuel economy standards in 
totality. I think the goal has to be for us to improve the fuel 
economy standards. SUVs, and we learn it again in today's 
testimony, SUVs are huge gas guzzlers, which is an 
environmental and import problem for us. They are more likely, 
three and a half times more likely, to kill people, as--in 
other cars, that we have learned, and they are also more likely 
to back over kids, and to kill them. So this is an area where, 
you know, SUVs are always looking for special treatment, that 
we have to avoid it. And I will just say that when I was----
    Mr. Stearns. The gentleman's time has expired. Mr.--Dr. 
Runge has to leave, and we have two other members----
    Mr. Markey. Can I say----
    Mr. Stearns. [continuing] and----
    Mr. Markey. Mr. Chairman, I have gone over less than any 
person thus far----
    Mr. Stearns. I know, and what happens is----
    Mr. Markey. [continuing] including the chairman, the 
ranking members, and any of the other members.
    Mr. Stearns. I[continuing] but--in all deference to you, I 
have been in hearings where we have been generous, and I just, 
out of deference to the other members, if you don't mind, if 
you can sum up in the next 15 seconds.
    Mr. Markey. I can do it in 15 seconds, and----
    Mr. Stearns. Okay.
    Mr. Markey. [continuing] it will just be to----
    Mr. Stearns. Okay.
    Mr. Markey. [continuing] say that I was run over by a car 
when I was 5 years old. This SUV issue is huge. I drove an ice 
cream truck working my way through college for every single 
summer for 100 days. When you back a truck out of a backyard, 
which is what I had, a huge ice cream truck, it is a magnet for 
kids. But I was the only person in the neighborhood or the city 
with that kind of a vehicle. We now have tens of millions of 
SUVs backing out of driveways every day, and kids are just 
there, and I had to go out a half a foot every time just to 
keep making sure I wasn't hitting anyone, so this is a huge 
issue. We have to deal with it, and----
    Mr. Stearns. The gentleman's time has expired.
    Mr. Markey. Thank you.
    Mr. Stearns. And the gentleman from New Hampshire, Mr. 
Bass.
    Mr. Bass. I will pass.
    Mr. Stearns. The gentleman from New Hampshire passes. Mr. 
Rogers.
    Mr. Rogers. I know you have to go. Thank you for being here 
just in 30 seconds. I understand you are going to Detroit. 
Great place in the world. Spend a lot of time there, spend 
money. Buy stuff while you are there, including a car.
    One word of caution. There is some talk that you may go to 
a watered down version of TPMS. Let me just give you my 
strongest commendation not to do that. We have come a long way, 
when you are in a process of putting this thing out. And I hope 
it is soon, because this--the litigation is starting to kill 
the folks who are involved in this, and I think you know that. 
We need some resolution on this. Don't water it down. Have a 
great trip to Detroit. Come back with a CTS Cadillac built in 
Lansing, Michigan. Thank you.
    Mr. Sterns. I thank my colleague. Dr. Runge, your patience 
in helping us by changing your travel plans is appreciated, and 
with that, we will conclude the first panel, and now, we will 
move to the second panel, but before we do, as I mentioned 
earlier, we will have opening statements from members who wish 
to put their opening statements in the record, or to give them. 
At this point, is there any member who would like to give an 
opening statement who has not given one?
    The gentleman from Massachusetts is recognized.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    As I was saying, when I was driving my ice cream truck, 
that it really was like an attractive nuisance, okay. And I 
realize that, you know, because you could not see little kids. 
You just couldn't. And of course, I was especially sensitive, 
because an ice cream truck is a huge electromagnet of ice cream 
that draws kids from streets away.
    And we now live in a world where, unlike automobiles, where 
you can see out the back window, and you can see who's there, 
you just can't. And we need to have some mechanism here by 
which we deal with this very real problem that exists in this 
SUV era. And of course, we are going to wind up with a 
situation where SUVs are not going to be purchased as much as 
they have been in the past, because the price of gasoline is 
just skyrocketing. We are up to $60 per barrel now. Many people 
believe that OPEC is targeting $70 or $80 a barrel over the 
next year or 2. So we are going to see a change in behavioral 
patterns. They are testing as a Nation to see how far we will 
go before we will revolt. We obviously haven't revolted yet, 
but when General Motors is at junk bond status, and Ford is at 
junk bond status, you have a real problem in our country, and 
so you are going to see a shift, somewhat, in the consumer 
purchasing habits. But nonetheless, we will still have SUVs as 
a big part of our marketplace, and these issues, especially the 
issue that was mentioned earlier, where if you are in a 
passenger car, you are three and a half times more likely to 
die in a crash with a regular--with an SUV. An SUV passenger is 
three and a half times more likely to survive than a passenger 
vehicle in a regular automobile. There is a big issue, 
especially if people start to buy Priuses and other cars that 
are being manufactured by Toyota and Nissan and other 
manufacturers.
    So as people now say, I am--that they are going to respond 
to the high price of gasoline, they buy smaller cars. The SUVs 
are out there, still in gas guzzlers, and in the crash, you are 
going to have thousands of people who die because we are not 
building in the proper kinds of protections for these people. 
So we have the greatest responsibility here, Mr. Chairman. We 
can save more lives on this committee than just about any other 
place in Congress or America. But we have to be cognizant of 
it. People are going to be moving back to smaller cars. They 
are going to be vulnerable. The SUVs will kill them, and we 
need to have a discussion about it. Because the automotive 
manufacturers, especially the American automotive 
manufacturers, have not provided a safe alternative to the SUV 
at this point. So it is a big discussion. This is the 
committee, this is the place. We have the greatest 
responsibility as Americans are being put in jeopardy, 
especially as the price of gasoline pushes people toward these 
smaller vehicles.
    I yield back.
    Mr. Stearns. I thank the gentleman.
    [Additional statements submitted for the record follow:]

Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming

    Thank you, Mr. Chairman.
    The American consumer approaches any and all goods and services 
with expectations of quality. When approaching motor vehicles, one of 
the highest consumer expectations is occupant safety features, only 
natural given the high incidence of crash-related injury and death on 
our nation's roads and highways.
    The subject of today's hearing is how effective the National 
Highway Traffic Safety Administration (NHTSA) has been in protecting 
consumers from unreasonable risk of death and injury. We are light-
years ahead of where we were two decades ago in terms of vehicle and 
occupant safety. But as fatality rates decrease, so too have consumer 
expectations increased. Despite progress made, the United States still 
experiences tens of thousands of deaths and millions of injuries on an 
annual basis.
    This hearing is especially timely given the NHTSA reauthorization 
language included in the Senate-passed Transportation bill. The 
language sets deadlines for the completion of rulemakings in relation 
to side impact crash protection, rollover prevention, door locks, and 
fuel economy labeling procedures, just to name a few.
    We owe much of our progress in vehicle safety to technological 
advances spurred on by heightened consumer expectations. There is no 
denying we must continue considering practical and performance-based 
standards, but some of the testimony we will hear today will caution 
against costly and unproven federal mandates that hinder innovation, 
and in some cases, force manufacturers to make safety tradeoffs.
    I look forward to the insight today's panel will provide regarding 
the viability of mandates contained in the Senate's NHTSA 
reauthorization package. I am hopeful we will also be able to explore 
alternative approaches to helping NHTSA achieve its consumer safety 
mission.
    With that, I wish to thank Chairman Stearns for scheduling this 
important hearing. Mr. Chairman, I yield back the balance of my time.

                                 ______
                                 
  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas

    I'd like to thank Chairman Stearns and Ranking Member Schakowsky 
for holding this hearing today. I'd also like to thank our witnesses 
for being here today to discuss the important topic of highway safety.
    The U.S. Department of Transportation indicates there were 42,800 
highway deaths in 2004 and a staggering 3 million injuries due to 
traffic accidents. Unfortunately, on May 5th of this year, a good 
friend of mine, Joe Moreno was killed when he lost control of his truck 
and it rolled over several times. He was a state representative who 
represented a part of Houston in my congressional district and was on 
his way back to Austin for votes after having watched the Houston 
Rockets play in the play offs.
    Too many of us have stories like the one I just told you. However, 
there are always many factors to consider when accidents occur. For 
example, in the past, it has been determined that faulty tires have 
resulted in serious accidents. Road conditions can change drastically 
with changing weather, and unfortunately, most traffic accidents 
involve human error, the most serious being driving while intoxicated.
    A recent article in the Houston Chronicle reveals that Houston had 
103,000 auto accidents with 215 fatalities reported to the Houston 
Police Department. This does not include figures involving the State 
Department of Public Safety or our county law enforcement officers who 
also respond to traffic accidents. As of early this month, Houston 
already had 100 fatalities for 2005. This issue is extremely important 
to our community.
    The charges handed to the National Highway Traffic Safety 
Administration carry enormous weight to the public safety. This is why 
I'm grateful that industry has been working closely with the NHTSA to 
develop the best safety standards we can possibly have.
    I support the provisions in the Senate version of HR 3. The 
standards set forth in this version of the bill address safety issues 
that often result in the most serious injuries such as roll overs, side 
impact collisions and occupant ejection prevention.
    These provisions will set goals and will hopefully give the NHTSA 
the flexibility it needs to work with industry in bringing the best 
design and technology to implement these higher safety standards.
    I would also like to note that I support any incentive the federal 
government can offer states to implement primary seat belt laws. I 
agree with many of our experts that getting people to use their seat 
belt is the quickest way to bring down the number of injuries and 
deaths on our highways.
    I'd also like to see states have tougher enforcement on drunk 
driving laws. The fact remains that alcohol has been a factor in 40 
percent of all traffic fatalities last year. Drinking and driving is 
still a problem in our country and we should find a way to address it.
    I look forward to working with my colleagues as we try to get the 
best bill we possibly can for the public safety and for the auto 
industry.
    Thank you Mr. Chairman. I yield the balance of my time.

    Mr. Stearns. Now, we will have panel No. 2. Please take 
your seats. Mr. Frederick Webber is present, of Alliance of 
Automobile Manufacturers. Mr. Brian O'Neill is President of 
Insurance Institute for Highway Safety. Ms. Susan Pikrallidas, 
Vice President of Public Affairs, AAA. And Ms. Janette Fennell, 
President of Kids and Cars.
    Mr. Webber, we will start with your opening statement, and 
welcome to all of you.
    Mr. Webber. Thank you, Mr. Chairman, and good morning.
    Mr. Stearns. Good morning.

   STATEMENTS OF FREDERICK L. WEBBER, PRESIDENT, ALLIANCE OF 
 AUTOMOBILE MANUFACTURERS; BRIAN O'NEILL, PRESIDENT, INSURANCE 
INSTITUTE FOR HIGHWAY SAFETY; SUSAN PIKRALLIDAS, VICE PRESIDENT 
OF PUBLIC AFFAIRS, AAA; AND JANETTE E. FENNELL, PRESIDENT, KIDS 
                            AND CARS

    Mr. Webber. My name is Fred Webber, and I am President of 
and CEO of the Alliance of Automobile Manufacturers. I am 
pleased to be afforded the opportunity to offer the views of 
the Alliance at this important hearing.
    Product safety is an area in which manufacturers compete 
and seek competitive advantage. I think you coined this phrase, 
Mr. Chairman, some time back when you said safety sells, and 
manufacturers are leveraging their safety performance and 
equipment in efforts to distinguish their products from 
competitors. According to the J. D. Power and Associates 2002 
U.S. Automotive Emerging Technologies study, nine of the top 10 
features most desired today by consumers in their next new 
vehicle are designed to enhance vehicle or occupant safety. 
Manufacturers are responding to this increased consumer demand 
for safety across their entire product line.
    For example, among 2005 models, 99 percent of new vehicles 
are available with antilock brakes, 51 percent are available 
with electronic stability control, 74 percent are equipped with 
safety belt pre-tensioners, 57 percent are equipped with rear, 
center, lap, shoulder safety belts, and 75 percent are 
available with side airbags with chest protection. But to get 
it right, engineering decisions and future product decisions 
must rely on good data. NHTSA's two key traffic crash data 
programs, the National Automotive Sampling System and the 
Fatality Analysis Reporting System, provide crucial information 
to safety planners and vehicle design engineers. The NASS 
program in particular has been chronically underfunded. On 
October 17, 2002, the Alliance and various other safety groups 
sent a letter to NHTSA Administrator Runge, outlining the 
importance of sound crash and injury data. The Alliance 
emphasized the need for additional funds for NASS in order to 
evaluate the effectiveness of both behavioral and vehicular 
safety measures.
    Consistent with the need for more real world data, Alliance 
members have voluntarily installed event data recorders in 
their vehicles. EDRs provide improved data to assist safety 
researchers, auto engineers, government researches, and trauma 
doctors in their work. EDRs can improve our collective 
understanding of crash events, and lead to improvements in 
vehicle safety systems. Recording certain data elements in the 
moments just prior to and during a crash can contribute to the 
breadth and reliability of the crash data already gathered by 
State and Federal Governments, and widely used by public and 
private entities to study and improve transportation safety. 
NHTSA and NTSB have noted the important safety benefits of 
EDRs.
    During the 2005 State legislative session, 15 States 
considered legislation on EDRs. These bills either mandate that 
EDRs be in vehicles, require on-off switches, or control the 
use of EDRs, due to privacy concerns, a big issue. In 2004, 
NHTSA proposed a rulemaking for EDRs, and a final rule is 
expected by the end of this year. The Alliance believes that, 
indeed, there should be a uniform national policy on EDRs.
    Turning to the Senate provisions on the highway bill, the 
Alliance supports the non-traffic incident data collection 
provisions in Section 7255. Currently, there is little real 
world data on the magnitude, contributing causes, and 
circumstances of off-road events such as back-over accidents or 
children being left unattended in vehicles. We need that data. 
If safety resources are able to get to the most bang for the 
buck, then we first need to understand the problems to ensure 
that technological solutions are both effective and an 
efficient use of scarce resources.
    The Senate bill also mandates a number of major motor 
vehicle safety rulemakings. Some of these rulemakings already 
in process at NHTSA and consistent with its current safety 
priorities, you heard this from Administrator Runge already. As 
a matter of policy, however, while we support and participate 
in the rulemaking progress, we believe that any final rule, if 
appropriate, should be based on sound data, public comment, and 
examination of alternatives, consideration of economic 
consequences, and appropriate lead time.
    By requiring that rules must be published, regardless of 
the public rulemaking record on that subject, the Senate bill's 
approach prejudges the outcome of the rulemaking process, and 
deprives NHTSA of its authority to make safety-related 
assessments and determinations of rulemaking priorities. We 
cannot support any requirement that final rules must be issued 
regardless of information provided to the agency through its 
public notice and comment process. The complexity of safety 
rulemakings requires that careful attention be accorded to the 
inherent tradeoffs associated with regulations. The rulemakings 
in the Senate bill require tradeoffs. One, whether stronger 
roofs might be--might result in a higher rate of rollover, 
because of added structure to the top of the vehicle, thereby 
raising its center of gravity, and increasing rollover risk, 
and two, whether window treatments to reduce ejections for 
unbelted occupants could lead to increased head and neck 
injuries to belted occupants. These safety tradeoffs are not 
hypothetical situations or reasons not to act. Instead, they 
are real, complex issues that need to be addressed by experts. 
The expert agency established by the Congress to address these 
issues, NHTSA, should make regulatory decisions based on a 
sound public record, and not based on arbitrary deadlines or 
anecdotal-based solutions.
    In closing, I would like to respectfully remind the 
committee that motor vehicle safety is a shared responsibility 
among government, consumers, and vehicle manufacturers. Auto 
manufacturers are more committed than ever to developing 
advanced safety technologies to reduce fatalities and injuries 
resulting from motor vehicle crashes. But as a Nation, we will 
never fully realize the potential benefits of vehicle safety 
technologies until we give vehicle occupants properly 
restrained and impaired drivers off the road.
    [The prepared statement of Frederick L. Webber follows:]

   Prepared Statement of Fred Webber, President and CEO, Alliance of 
                        Automobile Manufacturers

    Thank you Mr. Chairman. My name is Fred Webber and I am President 
and CEO of the Alliance of Automobile Manufacturers. I am pleased to be 
afforded the opportunity to offer the views of the Alliance at this 
important hearing. The Alliance of Automobile Manufacturers (Alliance) 
is a trade association of nine car and light truck manufacturers 
including BMW Group, DaimlerChrysler, Ford Motor Company, General 
Motors, Mazda, Mitsubishi Motors, Porsche, Toyota and Volkswagen. One 
out of every 10 jobs in the U.S. is dependent on the automotive 
industry.

 SIGNIFICANT PROGRESS HAS BEEN MADE TO REDUCE FATALITIES AND INJURIES 
           FROM MOTOR VEHICLE CRASHES, BUT CHALLENGES REMAIN

    Over the past 20 years, significant progress has been made in 
reducing the traffic fatality rate. In 1981, the number of fatalities 
per 100 million vehicle miles traveled stood at 3.17. By 2003, this 
rate had been driven down by 53 percent to 1.48 fatalities per 100 
million vehicle miles traveled. The level of competitiveness among 
automakers, which key industry observers have described as ``brutal,'' 
has helped to accelerate the introduction of safety features ahead of 
regulation, aiding in the progress made.
    Safety is an area in which manufacturers compete and seek 
competitive advantage. Safety ``sells'' and manufacturers are 
leveraging their safety performance and equipment in efforts to 
distinguish their products from competitors. According to the J. D. 
Power and Associates 2002 U.S. Automotive Emerging Technologies study, 
nine of the top 10 features most desired by consumers in their next new 
vehicle are designed to enhance vehicle or occupant safety and 
manufacturers are responding to this increased consumer demand for 
safety across their entire product line.
    Despite the progress made, however, data show that 42,643 people 
lost their lives on U.S. highways in 2003 and almost 2.9 million were 
injured. Tragically, 56 percent of vehicle occupants killed in crashes 
were not restrained by safety belts or child safety seats. Alcohol was 
a factor in 40 percent of all fatalities. This is unacceptable. As a 
nation, we simply must do better.
    The Alliance and our members are constantly striving to enhance 
motor vehicle safety. And, we continue to make progress. Each new model 
year brings safety improvements in vehicles of all sizes and types. 
But, as the Government Accountability Office reaffirmed, vehicle 
factors contribute less often to crashes and their subsequent injuries 
than do human or roadway environmental factors.<SUP>1</SUP> We will 
never fully realize the potential benefits of vehicle safety 
technologies until we get vehicle occupants properly restrained and 
impaired drivers off the road.
---------------------------------------------------------------------------
    \1\ ``Highway Safety--Research Continues on a Variety of Factors 
That Contribute to Motor Vehicle Crashes.'' United States Government 
Accountability Office, GAO-03-436, March 2003.
---------------------------------------------------------------------------
    INCREASED SAFETY BELT USAGE AND PREVENTING IMPAIRED DRIVING ARE 
      NECESSARY TODAY TO PREVENT NEEDLESS FATALITIES AND INJURIES

    The single most effective way to reduce traffic fatalities and 
serious injuries in the short term is to increase the use of active 
occupant restraint systems, safety belts and child safety seats. 
Members of the Alliance have a long and proud record in supporting 
increased safety belt usage beginning in the mid 1980's with funding 
for Traffic Safety Now, a safety belt advocacy group lobbying state 
governments for the passage of mandatory safety belt use laws, to 
participation in and funding of the Air Bag & Seat Belt Safety Campaign 
(Campaign). The Campaign is housed in the National Safety Council and 
principally funded by the voluntary contributions of motor vehicle 
manufacturers. The effectiveness of the Campaign is reflected in the 
increase in belt use from 61 percent, when the Campaign was formed in 
1996, to today, with belt use at 80 percent.
    This 19 percentage point increase in belt use is largely due to 
high visibility enforcement Mobilizations coordinated by the Campaign 
in cooperation with the National Highway Traffic Safety Administration 
(NHTSA), state highway safety offices and law enforcement agencies in 
all fifty states. Recently, the largest Mobilization ever was conducted 
with 12,243 law enforcement agencies providing stepped up enforcement 
and close to $26 million in paid advertising to augment the enforcement 
effort. Funding for the enforcement ads, both national and state, comes 
from funds earmarked by Congress for this purpose. We believe that it 
is important for Congress to continue to provide this funding.
    Primary enforcement safety belt use laws are significantly 
correlated with higher safety belt usage levels. States with primary 
enforcement laws have average safety belt usage rates approximately 11 
percentage points higher than states having secondary enforcement laws. 
Currently, only 22 states and the District of Columbia have primary 
safety belt laws. While the Campaign, through its lobbying efforts, has 
contributed to primary enforcement legislation being enacted in several 
states, further progress has been difficult to achieve. The 
Administration has requested significant funding for incentives to 
states passing primary enforcement laws. These incentives are part of 
the Senate-passed highway bill and the Alliance strongly supports this 
provision. See Attachment 1. This proposal has merit and should be 
approved by Congress.
    Impaired driving is also a significant highway safety problem. 
While substantial progress in reducing impaired driving has been made 
in the last quarter century, more must be done to prevent these 
needless tragedies. Repeat offenders are disproportionately involved in 
fatal crashes. The Senate-passed bill contains a provision that updates 
the Section 164 Repeat Offender program, consistent with current 
research. It aims to provide more effective treatments to High-BAC 
drivers (drivers with a blood alcohol concentration (BAC) level of 0.15 
or higher, which is almost twice the legal limit of 0.08) and repeat 
offenders. High-BAC drivers are involved in some 60% of alcohol-related 
highway fatalities. The Alliance strongly supports this provision and 
it should be approved by Congress. See Attachment 2 1n addition to the 
priority areas of increasing safety belt use and reducing impaired 
driving, Congress needs to provide adequate funding for the Section 402 
State and Community Highway Safety Program.

    ALLIANCE MEMBERS ARE AGGRESSIVELY PURSUING SAFETY ADVANCEMENTS, 
                     COLLECTIVELY AND INDIVIDUALLY

    Advancing motor vehicle safety remains a significant public health 
challenge--one that automakers are addressing daily, both individually 
and collectively. Alliance members make huge investments in safer 
vehicle design and technology. Manufacturers not only meet, but also 
exceed motor vehicle safety standards in every global market in which 
vehicles are sold. Manufacturers alone, not as a result of any 
regulatory mandate, implemented many safety features currently 
available on motor vehicles in the U.S. Those who claim that vehicle 
safety will not be advanced in the absence of regulatory requirements 
are living in the past and are not paying attention to today's market 
place. A partial list of voluntarily installed advanced safety devices 
without or prior to regulation is attached. See Attachment 3.
    The Alliance is pursuing a number of initiatives to enhance safety. 
We have redoubled and unified our activities to collectively address 
light truck-to-car collision compatibility. On February 11-12, 2003, 
the Alliance and the Insurance Institute for Highway Safety (IIHS) 
sponsored an international meeting on enhancing vehicle-to-vehicle 
crash compatibility. On February 13, 2003, the Alliance and IIHS sent 
NHTSA Administrator Dr. Jeffrey Runge a letter summarizing the results 
of this meeting, and indicating the industry planned to develop 
recommendations that auto companies could take to enhance crash 
compatibility.
    Ten months later, on December 2, 2003, we delivered to NHTSA a 
multi-phase plan for enhancing the crash compatibility of passenger 
cars and light trucks. This plan was developed by an international 
group of safety experts. At the same time, we also delivered to NHTSA a 
commitment made on behalf of the world's automakers to begin to design 
cars and trucks according to the performance criteria specified in the 
group of experts' plan. This commitment will lead to significant 
improvements in the protection afforded to occupants in crashes. It is 
the most comprehensive voluntary safety initiative ever undertaken by 
automakers.
    For the North American market, front-to-side crashes, where the 
striking vehicle is a light truck or SUV, represent a significant 
compatibility challenge. We are placing a high priority on enhancing 
the protection of occupants inside vehicles struck in the side by, 
among other things, enhancing head protection of occupants in struck 
vehicles. We expect our efforts to lead to effective counter-measures 
that auto manufacturers can incorporate in their vehicles. We are 
working on efforts intended to aid in the development of evaluation 
criteria that will be established to drive improvements in car side 
structures to reduce side impact intrusion and provide for additional 
absorption of crash energy.
    With regard to front-to-front crashes, our initial plan focuses on 
specific recommendations to enhance alignment of front-end energy 
absorbing structures of vehicles. Manufacturers have been working to 
improve this architectural feature by modifying truck frames. The 
voluntary standard will govern structural alignment for the entire 
light-duty vehicle fleet and provide for an industry wide initiative. 
In addition, we are developing test procedures that could lead to more 
comprehensive approaches to measuring and controlling these crash 
forces. These efforts to develop voluntary standards for crash 
compatibility, when combined with an industry commitment to design 
vehicles in accordance with them, is a model for voluntary industry 
action. These programs have proven to be very effective in bringing 
significant safety improvements into the fleet faster than has been 
historically possible through regulation. The voluntary standards 
process also has the flexibility to produce rapid modifications should 
the need arise.
    The best way to illustrate the benefits for such an approach is to 
examine the development of the Recommended Procedures for Evaluating 
Occupant Injury Risk From Deploying Side Airbags finalized in August 
2000. In response to concerns about potential injury risk to out-of-
position (OOP) women and children from deploying side airbags, the 
Alliance, the Association of International Automobile Manufacturers 
(AIAM), the Automotive Occupant Restraints Council (AORC), and IIHS 
used a joint working group to develop test procedures with injury 
criteria and limits to ensure that the risk of injury to OOP occupants 
from deploying side airbags would be very limited.
    After an intensive effort, the working group developed a draft set 
of test procedures. This draft was presented in a public meeting on 
June 22, 2000. Comments were collected and the finalized procedures 
were presented to NHTSA on August 8, 2000. Now, in model year 2005, 90 
percent of side airbags have been designed in accordance with the 
August 8, 2000 Recommended Procedures. More importantly, the field 
performance of side air bags remains positive. These procedures and 
public commitment were also used by Transport Canada as the basis for a 
Memorandum of Understanding (MOU) between automobile manufacturers and 
the Canadian government.
    Another Alliance initiative is assessing opportunities, to further 
reduce the frequency and consequences of rollover. Rollovers represent 
a significant safety challenge that warrants attention and action. 
Alliance efforts to reduce the frequency and consequences of rollover 
involve passenger cars as well as SUVs, vans, and pickup trucks. Our 
efforts include developing a handling test procedure or recommended 
practice that will focus on an assessment of the performance of 
electronic stability control systems and other advanced handling 
enhancement devices. A typical rollover is one in which the driver 
becomes inattentive or distracted, loses control of the vehicle, and 
then strikes something that trips the vehicle, causing it to roll. 
Electronic stability control systems are designed to help drivers to 
keep out of trouble in the first place. However, should a rollover 
occur, the Alliance is assessing opportunities to enhance rollover 
occupant protection, to determine the feasibility of developing test 
procedures to assess the performance of countermeasures designed to 
further reduce the risk of occupant ejection in rollover crashes, given 
the large numbers of occupants ejected in such events. Of course the 
most effective, simplest and least expensive means of reducing ejection 
is for occupants to wear safety belts. Safety belts are 75-80 percent 
effective in reducing ejections.
    The most effective voluntary improvement in decades is electronic 
stability control. Electronic stability control (ESC) uses sensors to 
detect if a driver is about to lose control, and microprocessors 
automatically apply individual brakes and/or reduce engine power. 
Today, 51 percent of 2005 models are available with ESC, up 11 
percentage points from 2004, and up 44 percentage points from 2003. 
According to a NHTSA analysis, ESC showed a reduction in fatal rollover 
crashes of 63 percent in SUVs and 30 percent in cars. A similar 
analysis by IIHS also showed significant benefits--a 56 percent 
reduction in single vehicle fatal crashes and a 41 percent reduction in 
all single vehicle crashes. Stability controls, developed and installed 
voluntarily by industry, is highly effective in reducing crashes, 
especially those related to loss of control and subsequent rollover. 
See Attachment 4.
    Alliance members are also individually pursuing initiatives to 
enhance motor vehicle safety. One such initiative that has received 
widespread support is the installation of vehicle-based technologies to 
encourage safety belt usage. Preliminary research on a system deployed 
in the United States by one Alliance member found a statistically 
significant 5 percentage point increase in safety belt use for drivers 
of vehicles equipped with that system compared with drivers of 
unequipped vehicles. NHTSA estimates that a single percentage point 
increase in safety belt use nationwide would result in an estimated 250 
lives saved per year. Beginning in model year 2004, all members of the 
Alliance began deploying various vehicle-based technologies to increase 
safety belt use. The rollout of these technologies will continue over 
the next few model years.

  COMPREHENSIVE AND CURRENT DATA ARE NECESSARY TO MAKE INSIGHTFUL AND 
                     SOUND PUBLIC POLICY DECISIONS

    NHTSA's two key traffic crash database programs, the National 
Automotive Sampling System (NASS) and the Fatality Analysis Reporting 
System (FARS) provide crucial information to safety planners and 
vehicle design engineers. The NASS program, in particular, has been 
chronically under-funded. On October 17, 2002, the Alliance and various 
other safety groups sent a letter to NHTSA Administrator Dr. Jeffrey 
Runge outlining the importance of sound crash and injury data. The 
Alliance emphasized the need for additional funds for NASS in order to 
evaluate the effectiveness of both behavioral and vehicular safety 
measures. See Attachment 5.
    The Administration has proposed substantial funding to upgrade 
state traffic records systems. Improved state record systems can help 
improve the quality of FARS data and assist states in establishing 
safety program priorities. The Alliance strongly supports upgrading 
state and federal crash data systems and urges Congress to provide 
appropriate levels of funding for them. The Alliance believes this 
funding is critical because NHTSA rulemakings must be data-driven, 
supported by scientifically sound evidence, and demonstrate the 
potential for cost-effective safety benefits without undesired side 
effects. We must ensure that our safety investments, from both 
government and industry are achieving the largest benefits possible.
    The Alliance also sponsors a significant amount of safety research 
that is shared with the safety community. The Alliance is sponsoring a 
program to collect real-world crash data on the performance of 
depowered and advanced air bags at three sites around the U.S. (Dade 
County, Florida, Dallas County, Texas, and Chilton, Coosa, St. Clair, 
Talledega, and Shelby Counties in Alabama). This program adds valuable 
information about air bag performance to the extensive crash data 
already being collected by NHTSA through NASS. The Alliance is 
committed to funding this program that will run through this year. The 
current Alliance commitment for the advanced air bag research is $4.5 
million over 4 years. The Alliance project will observe all the NASS 
data collection protocols so that the Alliance funded cases can be 
compared with, and evaluated consistently with, other cases in the NASS 
dataset.
    Consistent with the need for more real world data, Alliance members 
have voluntarily installed Event Data Recorders (EDRs) in their 
vehicles. EDRs provide improved data to assist safety researchers, auto 
engineers, government researchers and trauma doctors in their work. 
EDRs can improve our collective understanding of crash events and lead 
to improvements in vehicle safety systems. Recording certain data 
elements in the moments just prior to and during a crash can contribute 
to the breadth and reliability of the crash data already gathered by 
state and federal governments and widely used by public and private 
entities to study and improve transportation safety. NHTSA and NTSB 
have noted the important safety benefits of EDRs. See Attachment 6.
    During the 2005 state legislative session, 15 states have 
introduced bills on EDRs. These bills either mandate EDRs be in 
vehicles, require on/off switches, or control the use of EDRs due to 
privacy concerns. In 2004, NHTSA proposed a rulemaking for EDRs and a 
final rule is anticipated by the end of this year. The Alliance 
believes there is a need for a uniform national policy on EDRs.

     HIGHWAY AND MOTOR VEHICLE SAFETY PROVISIONS IN THE SENATE BILL

    In addition to adequate funding for NASS, the Alliance believes it 
important for NHTSA to have the resources necessary to conduct a 
comprehensive study of crash causation similar to the multi year 
``Indiana Tri-Level Study'' that was completed 25 years ago. 
Researchers at Indiana University Bloomington's Institute for Research 
in Public Safety conducted the Tri-Level Study of the Causes of Traffic 
Accidents from 1972 through 1977. According to NHTSA officials, the 
Indiana Tri-Level Study has been the only study in the last 30 years to 
collect in-depth, on-scene crash causation data. NHTSA relies on it 
today because other NHTSA data is collected from police crash reports 
or collected days or weeks after the crash, making it difficult to 
obtain causation data. Significant advancements in vehicle safety 
technology and design have occurred since then, making this study 
obsolete as a basis for regulatory decisions.
    Therefore, the Alliance strongly supported the National Highway 
Traffic Safety Administration's FY 2006 budget request for $10 million, 
so that NHTSA can effectively update their crash causation data. An 
updated study would help guide and enlighten public policy aimed at 
reducing the frequency of traffic crashes, injuries, and fatalities. 
This is a crucial step toward improving the quality of data available 
to inform sound regulatory decision-making at NHTSA.
    The Alliance supports the nontraffic incident data collection 
provisions in the Senate bill (Section 7255). Currently, there is 
little real world data on the magnitude, contributing causes, and 
circumstances of off-road events such as back over accidents or 
children being left unattended in vehicles. If safety resources are to 
be able to get ``the most bang for the buck'' then we first need to 
understand the problems to ensure that any technological solutions are 
both effective and an efficient use of limited resources.
    The provision in the Senate bill (Section 7257) on Automobile 
Information Disclosure requires vehicle window labels include 
information about safety ratings assigned and formally published or 
released by NHTSA as part of the New Car Assessment Program (NCAP). The 
Alliance supports meaningful consumer information and will work through 
the rulemaking process to encourage a satisfactory outcome.

   THE NHTSA MANDATED RULEMAKINGS IN THE SENATE PASSED HIGHWAY BILL 
                    PREJUDGE THE RULEMAKING PROCESS

    The NHTSA reauthorization provisions in the Senate passed bill 
would mandate a number of major motor vehicle safety rulemakings. Some 
of these rulemakings are already in process at NHTSA and consistent 
with their current safety priorities. As a matter of policy, however, 
while, we support and participate in the rulemaking process, however, 
as a matter of policy, we believe that any final rule, if appropriate, 
should be based on sound data, public comment, an examination of 
alternatives, consideration of economic consequences and provide 
appropriate lead-time. By requiring that rules must be published, 
regardless of the public rulemaking record on that subject, the Senate 
bill's approach prejudges the outcome of the rulemaking process and 
deprives NHTSA it's authority to make safety related assessments and 
determinations of rulemaking priorities. Thus, we cannot support any 
mandate requiring that final rules must be issued, regardless of 
information provided to the agency through its public notice and 
comment process. There is no need for the Congress to order NHTSA to 
both short-circuit its own governing legislation regarding the criteria 
for establishing rules as well as the requirements in the 
Administrative Procedures Act regarding responding to public comments.
    The complexity of safety rulemakings requires that careful 
attention be accorded to the inherent tradeoffs associated with 
regulations. In the past, we have seen tradeoffs among adult high-speed 
protection in frontal crashes and associated harm to children and 
others in low-speed crashes. The March 6, 2004 IIHS Status Report, 
notes that the 1997 rule issued by NHTSA that allowed manufacturers to 
produce ``depowered'' air bags was the right decision then and still is 
now. In designing occupant restraint systems, manufacturers must 
carefully balance high-speed and lower-speed protection, protection for 
belted vs. unbelted occupants, and protection for large adults and 
smaller adults and children. All involve safety tradeoffs.
    Another tradeoff acknowledged by the National Academy of Sciences, 
and others, have pointed out the significant increase in highway 
casualties that resulted from the downsizing and downweighting of 
vehicles in the late 1970s and early 1980s as a result of the need to 
rapidly increase fuel economy. Further, the rulemakings in the Senate 
bill require NHTSA to make additional tradeoffs for example, (1) 
whether stronger roofs might result in a higher rate of rollover 
because of added structure to the top of the vehicle, thereby raising 
its center of gravity and increasing rollover risk and (2) whether 
window treatments to reduce ejections for unbelted occupants could lead 
to increased head and neck injuries to belted occupants. These safety 
tradeoffs are not hypothetical situations or reasons not to act. 
Instead, they are real complex issues that need to be addressed by 
experts. The ``expert'' agency established by the Congress to address 
these issues--NHTSA--should make regulatory decisions based on a sound 
public record, and not based on arbitrary deadlines.

THE POTENTIAL BENEFITS OF VEHICLE SAFETY TECHNOLOGIES CAN NOT BE FULLY 
 REALIZED UNTIL VEHICLE OCCUPANTS ARE PROPERLY RESTRAINED AND IMPAIRED 
                        DRIVERS ARE OFF THE ROAD

    Motor vehicle safety is a shared responsibility among government, 
consumers and vehicle manufacturers. Auto manufacturers are more 
committed than ever to developing advanced safety technologies to 
reduce fatalities and injuries resulting from motor vehicle crashes. 
But as a nation, we will never fully realize the potential benefits of 
vehicle safety technologies until we get vehicle occupants properly 
restrained and impaired drivers off the road.

[GRAPHIC] [TIFF OMITTED] T2984.001

[GRAPHIC] [TIFF OMITTED] T2984.002

[GRAPHIC] [TIFF OMITTED] T2984.003

[GRAPHIC] [TIFF OMITTED] T2984.004

[GRAPHIC] [TIFF OMITTED] T2984.005

[GRAPHIC] [TIFF OMITTED] T2984.006

[GRAPHIC] [TIFF OMITTED] T2984.007

[GRAPHIC] [TIFF OMITTED] T2984.008

[GRAPHIC] [TIFF OMITTED] T2984.009

[GRAPHIC] [TIFF OMITTED] T2984.010

    Mr. Stearns. I thank the gentleman. Mr. O'Neill.

                   STATEMENT OF BRIAN O'NEILL

    Mr. O'Neill. Thank you, Mr. Chairman, members of the 
committee. My name is Brian O'Neill. I am President of the 
Insurance Institute for Highway Safety, which is a nonprofit 
research and communications organization that identifies ways 
to reduce motor vehicle crash injuries, deaths, and property 
damage. I am here today to discuss various approaches to 
improving vehicle safety.
    If we look at the history, there have been three periods of 
vehicle safety improvement. From the beginning of motorization 
into the 1960's, safety improvements were voluntary and 
limited. Crash protection features were rarely considered by 
the industry.
    The second phase began in the 1960's, as government 
regulations started to require manufacturers to meet a 
comprehensive set of performance standards. Many of these 
standards for the first time addressed crash protection. Auto 
manufacturers did not welcome this regulation, but they 
accepted it as the only way many safety features would be 
adopted. Manufacturers of that time believed safety could not 
be sold, and safety advocates were convinced that Federal 
regulation was the only way to force automakers to develop new 
crash protection technologies such as airbags.
    The third phase of safety improvements began with NHTSA's 
initiation of the New Car Assessment Program, under which 
vehicle crash tests are conducted with instrumented dummies to 
provide consumers with comparative safety information by make 
and model. Not long after this program was launched in the late 
1970's and early 1980's, automakers began advertising their 
NCAP crash test results. They also began advertising 
availability of airbags. This marked an end to what has been 
almost--what had been the almost universal view that safety 
could not be sold.
    Today, an abundance of independent information helps 
consumers factor safety into their vehicle purchase decisions. 
NHTSA's NCAP rates front, side crash protection and rollover 
propensity. We at the Institute rate vehicles' front, side, and 
rear crash protection. Manufacturers recognizing the power of 
this consumer information have responded by improving the 
safety performance of many of their vehicles. Examples are the 
improvements in frontal crash protection, especially the 
designs of vehicle safety cages and front-end crumple zones, 
that have been made in response to the Institute's program of 
offset crash tests. When various vehicle groups were first 
tested by the Institute, relatively few models earned good 
ratings, and many were rated by us as marginal or poor 
performers. In contrast, virtually all new passenger vehicles 
sold today now have good ratings in these tests. A few are 
acceptable, and a handful of older designs are still rated 
marginal, but not one single design in the marketplace today is 
rated as poor.
    Similar improvements are being made in response to the 
Institute's more recently initiated side impact crashworthiness 
program. In April 2004, we released the first side impact 
ratings for 13 midsize cars. Among these, only two earned good 
ratings, one was acceptable, and the other 10 were rated poor. 
Following a second round of midsize tests earlier this year, 
just 1 year after the first tests, we now have nine midsize 
cars rated as good, four acceptable, four marginal, and seven 
poor, and more improvements are on the way.
    Auto manufacturers are responding to these programs because 
they recognize the power of the safety marketplace. There is no 
debate about whether safety sells cars any more. It does, and 
the manufacturers and their suppliers are voluntarily 
developing and installing new safety technologies. An example 
is side airbags that protect occupants' heads. This technology, 
which reduces driver fatality risk in side impacts by about 45 
percent, was developed without regulation or even the threat of 
it, and now, they are well on their way to becoming standard 
equipment.
    But there does continue to be an important place for 
Federal rulemaking to establish minimum safety levels for all 
new vehicles. One question that has been before this committee 
is who should establish NHTSA's rulemaking priorities. Should 
it be Congress, or should the agency set its own priorities? 
Ideally, NHTSA should have both the commitment and the 
technical expertise to set priorities and complete the 
rulemaking process by issuing standards. But history has been 
mixed in this regard. Few NHTSA Administrators have been 
knowledgeable about highway safety when they were appointed, so 
lags to accommodate learning frequently have slowed the 
agency's progress. Plus, the political leadership sometimes has 
been ideologically opposed to rulemaking.
    I believe that NHTSA's present Administrator, Jeff Runge, 
is competent, knowledgeable, and committed. Therefore, I 
believe detailed Congressional dictates for new rulemaking are 
not needed this time. Any Congressional mandates that may be 
issued should be broad rather than specific. The goal should be 
to facilitate safety outcomes rather than to try to tell NHTSA 
in detail how to achieve those outcomes.
    Today, automakers and their suppliers are developing a wide 
range of new technologies, including many features designed to 
prevent crashes, and in some cases, these are already being 
marketed. We have already heard today about electronic 
stability control, which the Institute and NHTSA studies show 
to be very effective in preventing single vehicle crashes. But 
other technologies beginning to be deployed and under 
development include lane departure warning systems, blind spot 
detection, night vision enhancement, adaptive cruise control 
with stop/go braking, run-flat tires. Still more features, such 
as brake boost assist, may prevent some crashes, and reduce the 
severity of others. Systems are also being developed to 
activate crash protection features before impacts begin.
    Because of the slow pace of rulemaking, NHTSA can play only 
a limited role, as far as regulations are concerned, in getting 
this kind of technology in new cars. These new innovations pose 
challenges for NHTSA and the rest of the safety community. We 
do not have the equivalence of crash tests with instrumented 
dummies to assess the performance of these new technologies. In 
most cases, crash data bases do not provide sufficient and 
reliable information to assess the potential benefits that can 
be expected. We simply do not know how many crashes occur when 
drivers drift out of their travel lanes, for example. We do not 
know the extent to which suddenly deflating tires contribute to 
crashes, nor do we know how drivers might respond to the 
various new technologies. The absence of reliable data about 
crash causation limits our ability to predict the potential 
benefits of many of these new technologies. NHTSA, the auto 
industry, its suppliers, and the safety community need to work 
together to develop better data and new methods to assess such 
technologies, so the most effective ones can be promoted.
    Mr. Stearns. Mr. O'Neill, I need you to sum up.
    Mr. O'Neill. I will, sir.
    Today, vehicle safety is being improved through regulation, 
consumer information, and voluntary standards. This mix means 
that important safety improvements will be achieved much faster 
than when we relied solely on the slow and deliberative 
regulatory process. We must recognize today that we have 
options in addition to Federal regulations to achieve vehicle 
safety improvements.
    Thank you, sir.
    [The prepared statement of Brian O'Neill follows:]

Prepared Statement of Brian O'Neill, President, Insurance Institute for 
                             Highway Safety

    The Insurance Institute for Highway Safety is a nonprofit research 
and communications organization that identifies ways to reduce motor 
vehicle crash deaths, injuries, and property damage. I am the 
Institute's president, and I am here to discuss various approaches to 
improving vehicle safety.
    For a long time the belief was widespread that vehicle safety could 
not be sold. The only way to promote safety improvements was federal 
regulation. This view no longer prevails. Crash test programs conducted 
by the National Highway Traffic Safety Administration (NHTSA) and 
Insurance Institute for Highway Safety supply consumers with abundant 
information to help them factor safety into their vehicle purchase 
decisions. Manufacturers advertise safety because it is such an 
important factor in the marketplace. The manufacturers and their 
suppliers are not only responding to various consumer crash test 
programs but also developing new technologies to secure a competitive 
edge. These innovations are outpacing the deliberative federal 
rulemaking process.
    Many of the new technologies are intended to prevent crashes. These 
pose a challenge for NHTSA and the larger safety community to develop 
better data and new methods to assess the potential benefits so the 
most effective technologies can be promoted.

History of vehicle safety improvements
    There have been three periods of improvement. From the beginning of 
motorization into the 1960s, the improvements were voluntary and 
limited. Manufacturers improved crash avoidance features including 
brakes, lights, etc., but crash protection features rarely were 
considered.
    The second phase of safety improvement began in the 1960s, as 
government regulations began requiring manufacturers to meet a 
comprehensive set of performance standards. Many of these standards 
addressed crash protection. Auto manufacturers did not welcome this 
regulation, but they accepted it as the only way many safety features 
would be adopted. The manufacturers believed safety could not be sold, 
and safety advocates were convinced that federal regulation was the 
only way to force automakers to develop new crash protection 
technologies such as airbags.
    The third phase of safety improvement began with NHTSA's initiation 
of the New Car Assessment Program (NCAP), under which vehicle crash 
tests are conducted with instrumented dummies to provide consumers with 
comparative safety information by make and model. Not long after this 
program was launched in the late 1970s and early 1980s, some automakers 
began advertising airbags and, later, their vehicles' NCAP crash test 
results. This marked an end to what had been the almost universal view 
that safety could not be sold.
    Today an abundance of information helps consumers factor safety 
into their vehicle purchase decisions. NHTSA's NCAP rates front and 
side crash protection and rollover propensity. We at the Insurance 
Institute for Highway Safety rate vehicles' front, side, and rear crash 
protection. Manufacturers recognize the power of this consumer 
information, and they have responded by dramatically improving the 
safety performance of their vehicles. Examples are the improvements in 
frontal crash protection, especially the designs of vehicle safety 
cages and front-end crumple zones, that have been made in response to 
the Institute's program of offset crash tests. When the various vehicle 
groups first were tested, relatively few models earned good ratings. 
Many were marginal or poor. In contrast, virtually all passenger 
vehicles now earn good ratings in frontal offset crash tests. A few are 
acceptable, and a handful of older designs still are rated marginal. 
None is poor.
    Tests of three Saab models illustrate this progress. The 1995 Saab 
900's front-end structural design was very poor. It allowed major 
collapse of the occupant compartment in the offset test. The structure 
of the 1999 Saab 9-3 was somewhat improved, mainly in the foot region. 
There was less structural collapse. The 2003 9-3 was improved even 
more, so that this model now has excellent structural design.
    Similar improvements are being made in response to the Institute's 
more recently initiated side impact crashworthiness program. In April 
2004 we released the first side impact ratings for 13 midsize cars. 
Among these only 2 earned good ratings, 1 was acceptable, and the other 
10 were rated poor. Following a second round of tests of midsize cars 
earlier this year, there now are 9 rated good, 4 acceptable, 4 
marginal, and 7 poor.
    Auto manufacturers are responding to these crashworthiness 
evaluation programs because they recognize the power of the safety 
marketplace. There is no debate about whether safety sells cars--it 
does--and the manufacturers and their suppliers are voluntarily 
developing and installing new safety technologies. An example is side 
airbags that protect occupants' heads. This technology, which reduces 
driver fatality risk in side impacts by about 45 percent, was developed 
without regulation or even the threat of it.
    Side impact airbags initially were introduced in more expensive 
passenger vehicle models. Now they are well on the way to becoming 
standard equipment, in part because of the Institute's crashworthiness 
evaluations and in part because automakers are addressing the issue of 
the harm that SUVs and pickups inflict on car occupants, especially in 
side crashes.
    As powerful as the safety marketplace is, it cannot fully address 
issues such as the harm that light trucks pose to car occupants. In 
February 2003 NHTSA Administrator Jeffrey Runge challenged automakers 
to address this issue. The response is an effort, led by the Institute 
and Alliance of Automobile Manufacturers, to develop voluntary 
standards to reduce the risks. To begin the process, experts from 
around the world presented the latest research on crash compatibility 
at a technical meeting convened in Washington, D.C. Then two groups of 
engineers and other technical experts from car companies and safety 
organizations began meeting weekly, one group addressing 
incompatibility in front-to-side impacts and the other addressing 
front-to-front crashes. Within months the working groups completed the 
first phase of their work, and all of the major automakers agreed to 
adopt the performance and design requirements developed by the two 
groups.
    The requirements addressing front-to-side crashes will improve 
occupant head protection in such collisions. In effect, auto 
manufacturers have agreed that by September 2009 they will equip all of 
their new vehicles with side impact airbags that protect occupants' 
heads. To address incompatibility in front-to-front crashes, automakers 
agreed that by September 2009 all of their new pickups and SUVs will 
have front-end energy-absorbing structures that overlap the federally 
mandated bumper zone for cars. This is a necessary first step toward 
reducing the chances of override and underride, thus enhancing the 
ability of the front ends of both vehicles to absorb crash energy and 
keep damage away from the occupant compartments. In effect, this 
particular agreement sets geometric design restrictions for the front 
ends of SUVs and pickups--something that would be harder and more 
complicated to achieve through the NHTSA rulemaking process because 
federal motor vehicle safety standards must specify performance, not 
design, requirements.
    This is not the end of the collaborative effort. In fact, it is 
more like the beginning. The current research phase is expected to lead 
to additional performance requirements addressing front-to-front crash 
compatibility. A series of barrier and vehicle-to-vehicle crash tests 
will be conducted to develop procedures to measure the distribution of 
crash forces across the front ends of vehicles. This should lead, in 
turn, to requirements that will match front-end forces in head-on 
crashes between cars and light trucks. Similarly, research planned for 
side impacts is expected to lead to performance criteria for body 
regions in addition to the head as well as evaluations of advanced 
dummies for use in side impact testing.
    It should not be assumed that achieving these kinds of voluntary 
standards is an easy process. Virtually every major automaker 
participated in the compatibility meetings, and there were frequent 
disagreements. Exchanges sometimes became contentious as we negotiated 
our way through the collaborative process. To achieve consensus we met 
frequently, conducted teleconferences, debated myriad options, and 
revisited thorny issues again and again.
    We at the Institute signed on to this process knowing our 
credibility would be at stake if the outcomes of the collaboration 
turned out to be standards reflecting the lowest common denominators. 
So we were committed to making sure the process led to important safety 
improvements. I believe such improvements will happen, especially as 
the research phases of this initiative progress and we develop new 
knowledge about countermeasures to reduce crash incompatibilities.

Establishing rulemaking priorities
    Although today we can address some vehicle safety issues on a 
voluntary basis, there continues to be an important place for federal 
rulemaking to establish minimum safety levels for all new vehicles. A 
question is, who should establish NHTSA's rulemaking priorities? Should 
it be Congress, or should the agency set its own priorities? Ideally 
NHTSA should have both the commitment and the technical expertise to 
set priorities and complete the rulemaking process by issuing 
standards. But history is mixed in this regard. Few NHTSA 
administrators have been knowledgeable about highway safety when they 
were appointed, so lags to accommodate learning frequently have slowed 
the agency's progress. Plus the political leadership sometimes has been 
ideologically opposed to rulemaking, which has further slowed progress 
toward vehicle safety improvements.
    A good example involves the side impact protection rule. Federal 
Motor Vehicle Safety Standard (FMVSS) 214, first issued in 1970, was an 
adaptation of internal General Motors requirements for beams in car 
doors to resist intrusion. Somewhat later NHTSA conducted extensive 
research aimed at upgrading the standard to include crash testing with 
instrumented dummies. This research increased knowledge about vehicle 
performance in side impacts, but largely for political reasons NHTSA 
was not pursuing many new rules during the 1980s. Upgrading side impact 
requirements was put on hold. In November 1989 the newly appointed 
administrator, Jerry Curry, responded to what was by then strong 
political pressure to move forward with an upgrade, and he committed to 
do so early in his tenure. An upgraded rule was issued within a year of 
his arrival at NHTSA. Because of continuing technical controversy about 
the adequacy of the new side impact test dummy, Curry acknowledged when 
he issued the rule in October 1990 that it was not perfect. But adding 
that waiting for a perfect rule would only delay the timely 
establishment of a good rule, he said he expected the agency to pursue 
further upgrades as new research became available.
    NHTSA recently issued a notice of proposed rulemaking to further 
upgrade FMVSS 214 by adding crash tests and test dummies. The new 
standard will, in effect, require head protection. In the meantime, the 
Institute's side impact crashworthiness program and the voluntary 
agreement on front-to-side compatibility already are accelerating the 
installation of side airbags that protect people's heads. By the time 
any FMVSS 214 revisions can take effect, virtually all cars already 
will meet the new requirements. So in this case marketplace demands and 
voluntary standards will have superceded agency action.
    As this example indicates, the rulemaking process has not always 
proceeded as expeditiously as it should. Sometimes this is because the 
agency's leadership has failed or because Congress has changed the 
agency's own priorities. I believe NHTSA's present administrator, Jeff 
Runge, is competent, knowledgeable, and committed. Therefore, I believe 
detailed Congressional dictates for new rulemaking are not needed at 
this time. Any Congressional mandates that may be issued should be 
broad rather than specific. The goal should be to facilitate safety 
outcomes rather than to tell NHTSA how to achieve those outcomes. And 
in all cases Congress should ensure that what it legislates NHTSA to 
undertake is feasible and based on sound science and adequate data.

Challenge of new safety technologies
    Automakers and their suppliers are developing a wide range of new 
technologies, including many features designed to prevent crashes, and 
in some cases these already are being marketed. An example is 
electronic stability control, which NHTSA and Institute studies show to 
be effective in preventing single-vehicle crashes. Other examples 
include lane departure warning systems, blind spot detection, night 
vision enhancement, adaptive cruise control with stop-and-go braking, 
and run-flat tires. Still more features such as brake boost assist may 
prevent some crashes and reduce the severity of others. Systems also 
are being developed to activate crash protection features before 
impacts begin.
    These innovations pose challenges for NHTSA and the rest of the 
safety community. We do not have the equivalents of crash tests with 
instrumented dummies to assess the performance of the new technologies. 
In most cases crash databases do not provide sufficient and reliable 
information to assess the potential benefits that can be expected. We 
simply do not know how many crashes occur when drivers drift out of 
their travel lanes, for example. We do not know the extent to which 
suddenly deflating tires contribute to crashes. Nor do we know how 
drivers might respond to the various new technologies. The absence of 
reliable data about crash causation limits our ability to predict 
potential benefits of many of these new technologies. NHTSA, the auto 
industry, its suppliers, and the safety community need to work together 
to develop better data and new methods to assess such technologies so 
the most effective ones can be promoted.

Conclusion: a range of complementary approaches
    Today vehicle safety is being improved through regulation, consumer 
information, and voluntary standards. This mix should mean that 
important safety improvements will be achieved much faster than when we 
relied solely on the slow and deliberative regulatory process. Federal 
standards set minimum levels of safety, but in some areas the 
manufacturers are designing vehicles substantially beyond these 
minimums to earn good ratings in consumer crash test programs. New 
safety technologies are being developed. But not every vehicle safety 
issue can be addressed in the marketplace. For example, it is hard to 
imagine consumers demanding vehicles that are less aggressive, or 
harmful, to people in other vehicles. So alternatives are needed. One 
such approach is for automakers to collaborate on voluntary safety 
standards. The main reason the Institute has signed on to collaborative 
approaches is that sometimes they can offer a faster track toward 
improvements than federal rulemaking would allow.
    Voluntary approaches do not replace rulemaking, which is and will 
continue to be an important NHTSA function. While the agency need not 
address every issue with a standard, it should have in place a long-
term program to review and upgrade--or in some cases to eliminate--its 
standards. If the agency adheres to such a course, there should be no 
need for Congressional dictates on rulemaking.
    What is important to recognize is the range of options available 
today to achieve vehicle safety improvements. The wisest course is to 
proceed on a case-by-case basis, making full use of the most 
advantageous approach in any given situation.

    Mr. Stearns. Thank the gentleman. Ms. Pikrallidas, welcome.

                 STATEMENT OF SUSAN PIKRALLIDAS

    Ms. Pikrallidas. Thank you, Mr. Chairman. I am Susan 
Pikrallidas, and I am Vice President of Public Affairs for AAA.
    The focus of this hearing is--has been on NHTSA's safety--
the--I am sorry, the safety provisions in the transportation 
reauthorization bill. However, AAA was specifically requested 
to provide information to the committee on a consumer 
protection issue in the bill, and that is what I will be 
addressing my remarks to. I am referring to the requirement in 
Section 7260 that the Environmental Protection Agency, in 
consultation with NHTSA, revise the process used to determine 
fuel economy estimates for vehicle labeling purposes to reflect 
the actual mileage vehicles achieve under real world 
conditions.
    The summer driving season is upon us. Next week, AAA will 
release its travel projections for the July 4 holiday weekend, 
and we expect Americans will be traveling in record numbers. 
Nevertheless, gasoline prices remain high, as we discussed 
earlier today, and with the cost of gasoline well over $2 a 
gallon, the family travel budget is going to feel a pinch.
    AAA members have asked us what they can do to conserve 
fuel. We provide a number of driving tips, vehicle maintenance 
suggestions, and other information to help them save money and 
conserve fuel. One suggestion relates to purchasing more fuel 
efficient vehicles. Unfortunately, new car buyers wishing to 
factor fuel economy into their purchasing decisions are short-
changed by the information they see on the window sticker. In 
too many case, they experience a different kind of sticker 
shock when they take their new car on the road.
    Truth in advertising is what the Senate provision seeks to 
achieve, nothing more. AAA views this provision as a simple, 
straightforward directive to the Federal agency charged with 
administering test procedures that produce mileage ratings 
consumers see on the window stickers of their new cars. By 
EPA's own admission, existing procedures are outdated, and 
Agency officials agree that test procedures must be revised. 
Section 7260 of the Senate-passed transportation bill provides 
Congressional direction, so that EPA will do what it has said 
it should do, and that is to update their existing test 
procedures.
    Why do we need this change? Mr. Chairman, consumers are 
misled when they read these mileage ratings on window stickers. 
They have every right to believe that the ratings produced by a 
federally mandated test accurately reflect what they will see 
once they drive the vehicle off the lot. Real world experience 
often produces a different reality than a laboratory test. 
EPA's fuel economy tests are 30 years old, and are out of step 
with current driving habits and traffic patterns. They do not 
take into account higher speed limits or the effects of driving 
on congested roads. Tests are run with the air conditioning 
system off, even though virtually every vehicle comes with air 
conditioning, and most drivers use it.
    Mr. Chairman, experts from the Energy Information 
Administration have said EPA's current methods ``may be 
inappropriate for evaluating vehicles used today,'' and the 
National Academy of Sciences' National Resource Council says 
``most drivers experience lower fuel economy than suggested by 
EPA's results.'' But the most persuasive evidence comes from 
consumers themselves, who are frustrated when the mileage they 
actually see is less than what they were led to believe when 
they bought their vehicles.
    Over the last several months, considerable work has been 
done to craft a compromise provision that achieves objectives 
everyone supports without the additional costs of creating new 
tests. When this issue was raised on the House floor during 
debate on the energy bill, it was the concern that new tests 
would need to be created that derailed an amendment and the 
intent of what consumers were trying to achieve. Since then, 
AAA, along with other stakeholder groups, worked with majority 
and minority staffs in the Senate and reached agreement on the 
language that is now found in Section 7260 of the Senate 
transportation bill.
    Truth in advertising can be achieved by utilizing existing 
EPA tests that are used for other purposes such as emissions 
testing. We believe that allowing EPA to use a combination of 
these existing tests, rather than the outmoded fuel economy 
labeling test, will achieve the desired results. EPA is not 
required to develop a completely new test. The language in the 
bill makes clear that EPA will be given the flexibility to 
``update and revise the process used to determine fuel economy 
for labeling purposes only,'' and can be adjusted for factors 
such as speed limits, acceleration rates, braking, variations 
in weather and temperature, vehicle load, use of A/C, driving 
patterns, and use of other fuel consuming factors.
    Mr. Chairman, this approach was carefully crafted to meet 
the concerns of all parties, consumers and manufacturers. It is 
a win-win solution that will lead to consumers getting what 
they deserve, accurate information on which to make informed 
purchasing decisions.
    We have only one last hurdle to cross. That is a decision 
on the part of House conferees to accept the Senate language in 
the transportation bill. A positive signal of support from this 
subcommittee will send the right signal to conferees and their 
consumer constituents.
    Thank you, Mr. Chairman.
    [The prepared statement of Susan Pikrallidas follows:]

   Prepared Statement of Susan Pikrallidas, Vice President of Public 
                              Affairs, AAA

    Mr. Chairman: my name is Susan Pikrallidas, and I am the Vice 
President of Public Affairs for AAA. On behalf of our association, 
thank you for the opportunity to discuss one small, but important 
provision in the Senate version of the transportation reauthorization 
bill. I am referring to the requirement in Section 7260 that the 
Environmental Protection Agency, in consultation with the National 
Highway Traffic Safety Administration, revise the process used to 
determine fuel economy estimates for vehicle labeling purposes to 
reflect the actual mileage vehicles achieve under ``real world 
conditions.''
    The summer driving season is upon us. Next week AAA will release 
its travel projections for the July 4th holiday weekend, and we expect 
that Americans will be traveling in record numbers. Nevertheless, 
gasoline prices remain high. With the cost of gasoline well over $2.00 
a gallon, the family travel budget is going to feel a pinch.
    AAA members have asked what they can do to conserve fuel during 
periods of high gas prices. We provide a number of driving tips, 
vehicle maintenance suggestions, and other information to help them 
save money and conserve fuel. One suggestion relates to purchasing more 
fuel efficient vehicles. Unfortunately, new car buyers wishing to 
factor fuel economy into their purchasing decisions are short-changed 
by the information they see on the window sticker. In too many cases, 
they experience a different kind of sticker shock when they take their 
new car on the road.
    ``Truth-in-advertising'' is what the Senate provision seeks to 
achieve--nothing more! AAA views this provision as a simple, straight-
forward directive to the federal agency charged with administering test 
procedures that produce the mileage ratings consumers see on the window 
stickers of new vehicles. By EPA's own admission, existing procedures 
are outdated, and agency officials agree that test procedures must be 
revised. Section 7260 of the Senate-passed transportation bill provides 
Congressional direction so that EPA will do what it has said it should 
do, and that is update their existing test procedures.
    Why do we need this change? Mr. Chairman, consumers are mislead 
when they read these mileage ratings on window stickers. They have 
every right to believe that ratings produced by a federally mandated 
test accurately reflect what they will see once they drive the vehicle 
off the lot. Real-world experience often produces a different reality 
than a laboratory test. EPA's fuel economy tests are 30 years old and 
are out of step with current driving habits and traffic patterns. They 
do not take into account higher speed limits or the effects of driving 
on congested roads. Tests are run with the air conditioning system off, 
even though virtually every car comes with A/C and most drivers use it.
    Mr. Chairman: experts from the Energy Information Administration 
have said EPA's current methods ``may be inappropriate for evaluating 
vehicles used today'' and the National Academy of Sciences' National 
Resource Council says ``most drivers experience lower fuel economy than 
suggested by EPA's results.'' But, the most persuasive evidence comes 
from consumers themselves who are frustrated when the mileage they 
actually see is less than what they were led to believe when they 
bought their vehicles.
    Over the last several months, considerable work has been done to 
craft a compromise provision that achieves objectives that everyone 
supports without the additional costs of creating new tests. When this 
issue was raised on the floor of the House during debate on the energy 
bill, it was the concern that new tests would need to be created that 
derailed an amendment and the intent of what consumers were trying to 
achieve. Since then AAA, along with other stakeholder groups, worked 
with Majority and Minority committee staff on the Senate side and 
reached agreement on the language that is now found in Section 7260 of 
the Senate transportation bill.
    Truth-in-advertising can be achieved by utilizing existing EPA 
tests that are used for other purposes such as emissions testing. We 
believe that allowing EPA to use a combination of these existing tests, 
rather than the out-moded fuel economy labeling test will achieve the 
desired results. EPA is not required to develop a completely new test. 
The language in the bill makes clear that EPA will be given the 
flexibility to ``update and revise the process used to determine fuel 
economy values for labeling purposes only'', and can be adjusted for 
factors such as speed limits, acceleration rates, braking, variations 
in weather and temperature, vehicle load, use of A/C, driving patterns, 
and use of other fuel consuming factors.
    Mr. Chairman: this approach was carefully crafted to meet the 
concerns of all parties--consumers and manufacturers. It's a win-win 
solution that will lead to consumers getting what they deserve: 
accurate information on which to make informed purchasing decisions.
    We have only one last hurdle to cross: that is a decision on the 
part of House conferees to accept the Senate language in the 
transportation bill. A positive signal of support from this 
subcommittee will send the right signal to conferees and their consumer 
constituents.
    Thank you, Mr. Chairman.

    Mr. Stearns. Thank the gentlelady. Ms. Fennell.
    Ms. Fennell. Thank you, Mr. Chairman. Is this on? Thank 
you--is that on?
    Mr. Stearns. You don't have it on. There you go. Just push 
that button.
    Ms. Fennell. How is that?
    Mr. Stearns. That is good.

                 STATEMENT OF JANETTE E. FENNELL

    Ms. Fennell. Thank you, Mr. Chairman, and the committee, 
for holding this hearing, and inviting me to speak on behalf of 
Kids and Cars. I come here from a different perspective than 
the other panel members, as a mom, and as a person who has 
lived through a life-threatening situation where my family were 
kidnapped, locked in the trunk of a car. All this happened when 
we didn't know what happened to our then 9 month old baby. So 
it is from that perspective that I have learned about these 
situations.
    Mr. Stearns. Your 9 month old daughter was locked in the 
trunk of the car?
    Ms. Fennell. No, my husband and I were locked in the trunk 
of the car.
    Mr. Stearns. You were locked in the trunk of the car.
    Ms. Fennell. Right. And during that kidnapping episode, we 
had no idea what our abductors had done then, during----
    Mr. Stearns. Okay.
    Ms. Fennell. [continuing] with our baby.
    Mr. Stearns. Okay.
    Ms. Fennell. But I am here today as a testament that we did 
survive, and it is because my family was so blessed that I have 
dedicated my entire life to try to make cars safer for people, 
but in particular, children.
    Kids and Cars is a nonprofit organization, and we have 
tried to bring light to this issue of non-traffic, non-crash 
incidents. We collect data about children less than 14, but 
predominantly, what we find, are these incidents are happening 
to children five and younger.
    Dr. Runge spoke earlier about a situation where this data 
would not be easily assessed, and I am here to tell you that 
this information is available. When a child dies in the United 
States of America, a police report is written. What is the 
difference right now is that those reports, because the 
government has said they are not looking at non-traffic, non-
crash incidents, are shredded and go away. The information is 
there. It is available through police reports, through child 
death review teams, and I would be more than happy to be a 
consultant, and teach them how to collect these data.
    These type of incidents also are in NHTSA's jurisdiction, 
by their own admission. So that is very important. We are only 
asking them to do something that is already in their charter. 
The first thing I would like to do, because like I said, I am a 
mom, and I am very concerned about this, is talk about from the 
perspective of a child, just a little book we have put 
together, and the title of it is ``Making Funny Pictures in the 
Driveway.'' It is a one page book. ``Sally draws a funny face. 
Daddy begins to back up the car. Sally doesn't see Daddy. Daddy 
doesn't see Sally. The end.'' Sometimes, stories about kids and 
cars end badly. In the U.S., more than one--more than two 
children are backed over and killed every week in a driveway or 
parking lot. The CDC tells us that over 48 children are treated 
in emergency rooms every week, because they have been backed 
over by a vehicle. This is something we need immediate 
attention on. As I go home, and I turn on my computer and 
answer my phone, I will be dealing with two more families every 
week that have lost a child, and what really puts this in 
perspective, in over 70 percent of those incidents, it is a 
family member behind the wheel of the vehicle that kills that 
child.
    The next provision has to do with not leaving children 
alone in cars. We need to collect that data. They are being 
left behind, because they are out of sight, out of mind. We 
talk about power window strangulations, and Dr. Runge talks 
about a rule, but the rule is not going to fix the problem. All 
they did was say that these dangerous rocker and toggle 
switches should be recessed. We need to ban them, and we need 
auto-reverse. Children never have to die, and it is not just 
children leaning out of windows. Other people activate power 
window switches, unbeknownst to the other person, and can very 
severely injured children and adults.
    The other situation we deal with is vehicles set into 
motion. Again, we have another book for that, ``Playing in 
Daddy's Car is Fun,'' and it is a one page book, and it just 
says: ``Little Bobby presses many buttons. He pretends to 
drive. It is lots of fun. Then, the car begins to roll down the 
hill. The end.'' One would think that the voluntary standard of 
a brake shift interlock, which means that you have to have your 
foot on the brake before you can engage a car into gear would 
have taken place many years, because car manufacturers did it 
voluntarily. But that is one of the problems with a voluntary 
mandate, is not all cars have that. There are cars on the lot, 
2005 vehicles, that have no brake shift interlock. 
Unfortunately, I get the calls, I find the stories where little 
children knock the car into gear, they become afraid, jump out, 
the car runs over them, and they are killed. We really urge the 
House to enact the legislation, and address these safety 
issues.
    There is also another bill, H.R. 2230, the Cameron 
Gulbransen Kids and Cars Safety Act, that would improve the 
power windows, that would help to remind people to bring 
infants with them. Our cars already tell us if we have left our 
keys in the ignition. They tell us if we have left our 
headlights on. What could be more important than leaving a 
little child behind? We need NHTSA to collect that data, and we 
want regular collection of the data, so we can really 
understand how large this problem is.
    There was a voice earlier about the possibility of making 
this a separate bill. I urge you, please don't do this. We need 
these things to move forward, and we need this to move forward 
just as soon as possible. We understand human factors, but 
there are some things that our vehicles can do through vehicle 
design to help prevent these very preventable tragedies that 
are happening to children in particular. We can't wait any 
longer.
    Kids and Cars urges the members of the House Energy and 
Commerce Committee to support enactment of the Senate motor 
vehicle safety provisions included in H.R. 3, and quickly pass 
H.R. 2230, the Cameron Gulbransen Kids and Cars Safety Act.
    Thank you very much.
    [The prepared statement of Janette E. Fennell follows:]

 Prepared Statement of Janette E. Fennell, Founder and President, KIDS 
                                AND CARS

    Mr. Chairman, my name is Janette Fennell and I am the founder and 
president of KIDS AND CARS, an organization dedicated to improving the 
safety of children in and around motor vehicles. I wish to thank you 
and the members of the Subcommittee on Commerce, Trade and Consumer 
Protection of the House Committee on Energy and Commerce for inviting 
me to appear before you today to testify on the important issue of 
child safety. I come before you today because there are a number of 
legislative measures that Congress can enact this summer that will save 
the lives of thousands of people, especially children, each year. KIDS 
AND CARS appreciates the opportunity to express our views on the 
reauthorization of the National Highway Traffic Safety Administration 
(NHTSA).
    Motor vehicle crashes are the leading cause of death for children 
three years of age and older, and children are often victims of non-
traffic, non-crash incidents as well. Children, especially young 
children, are unaware of the dangers that they can encounter each day 
in and around motor vehicles, even vehicles that are not moving. While 
it is the responsibility of parents and other adults to protect our 
children, many parents are themselves unaware of the risk presented by 
power windows or the simple act of backing the family car out of the 
driveway. These type of incidents are within NHTSA's jurisdiction as 
the agency itself admits, ``NHTSA is also responsible for motor vehicle 
safety when there is not a crash or the event occurs off the public 
traffic way.'' <SUP>1</SUP>
---------------------------------------------------------------------------
    \1\ Data Collection Study: Deaths and Injuries resulting from 
certain non-traffic and non-crash events' NHTSA (May 2004).
---------------------------------------------------------------------------
    KIDS AND CARS was founded in 1999 to address the often overlooked 
problem of nontraffic, noncrash incidents and focuses on dangers 
encountered by children in and around passenger vehicles. Children can 
be harmed when they are inside vehicles whether or not the engine is on 
and the vehicle is moving. We collect data involving children 14 years 
of age and younger, the majority of cases involve children under the 
age of 5. The Centers for Disease Control and Prevention (CDC) reported 
that over 9,100 children were treated in emergency rooms from July 2000 
to June, 2001, due to nontraffic noncrash events.<SUP>2</SUP> This is a 
weekly average of 176 injuries per week, each and every week. Although 
some say that the issue of children being injured and killed in and 
around motor vehicles is not a serious and significant safety issue, 
the CDC report refutes this view. KIDS AND CARS has compiled a national 
database that is recognized as a source for fatality and injury 
information and is thoroughly documented. We know that our database 
doesn't capture all such incidents since we do not have the resources 
to conduct a census. As a result these incidents are vastly 
underreported to state, local and federal authorities. For over five 
years, we have urged NHTSA to track on an annual basis child fatalities 
and injuries. Yet, the NHTSA does not include the reports of these 
kinds of child fatalities or nonfatal serious injuries in federal 
traffic safety databases. It seems that we literally need an act of 
Congress to get NHTSA to begin tracking these incidents.
---------------------------------------------------------------------------
    \2\ Injuries and Deaths Among Children Left Unattended in or Around 
Motor Vehicles--United States, July 2000-June 2001, MMWR, 51(26); 570-
572 (Jul. 5, 2002). Copy of study attached to testimony.
---------------------------------------------------------------------------
    Power windows are one source of injury for children in motor 
vehicles. Children can be injured or killed by power windows even when 
responsible adults are in the vehicle. Last year alone, 8 children died 
after being strangled by power windows.
    Another danger to children is heatstroke. Last year 35 children 
died from hyperthermia after being left in hot cars, many times by 
caring, loving parents who inadvertently left the child inside the car. 
From 1998 through 2004, at least 230 children have perished in this 
manner.
    Children are also in jeopardy due to blind zones that are a result 
of poor vehicle design. While all passenger vehicles have a blind zone 
to the rear of the vehicle, the size of the zone increases dramatically 
in light trucks, especially sport utility vehicles (SUVs) and pickup 
trucks. I have attached a chart from Consumer Reports depicting the 
rear blind zones for a popular sedan, minivan, SUV and pickup truck. 
According to our data at KIDS AND CARS, at least 101 children were 
backed over and killed in 2004, at least 91 children were backed over 
and killed in 2003, and at least 58 were killed in 2002. In addition a 
February 2005 report from the Centers for Disease Control and 
Prevention (CDC) found that for each of the years 2001 through 2003 an 
estimated 2,492 children per year were treated in emergency rooms for 
nonfatal motor vehicle backover injuries-a total of 7,476 children over 
a three year period injured in backover incidents.<SUP>3</SUP> Our data 
indicates that at least 2 children are backed over and killed every 
week in the US. Furthermore, the CDC data tell us that an additional 48 
children are treated in emergency rooms after being backed over each 
week. These data confirm that backover incidents are a regular and all 
too frequent occurrence. The tragedy is that they are preventable.
---------------------------------------------------------------------------
    \3\ Nonfatal Motor-Vehicle-Related Backover Injuries Among 
Children--United States, 2001--2003, MMWR, 54(06); 144-146 (Feb. 18, 
2005). Copy of study attached to testimony.
---------------------------------------------------------------------------
    If children were dying by the hundreds in airplane crashes or due 
to food poisoning this Congress would be racing to enact legislation to 
correct the problem. Right now, the House of Representatives has two 
golden opportunities that would improve the safety of children and save 
lives.
    The Senate amendment of the House-passed federal-aid highway 
reauthorization bill, H.R. 3, the Transportation Equity Act: A Legacy 
for Users (TEA-LU), includes a number of important child-friendly 
safety provisions. In the Senate version, Section 7254 provides for a 
study of technologies to prevent backover incidents in which people, 
especially children, are run over because they are in the blind zone 
and the driver was unable to see them when backing up. Currently there 
are no standards whatsoever that regulate what a person should be able 
to see when backing their vehicle. Section 7255 would have NHTSA 
collect non-traffic, noncrash incident data at least biennially, a 
critical step if we are to understand the true size and scope of this 
problem. In addition, Section 7258 of the Senate amendment would make 
power window switches less prone to inadvertent use and thus reduce 
some, although not all, of the danger to children in vehicles with 
automatic power windows.
    Since the House passed bill, H.R. 3, has no comparable provisions 
to protect the safety of children on these issues, I strongly urge the 
members of the Committee to support adoption of these Senate child 
safety provisions as part of the final bill.
    The House also has the opportunity to build on the H.R. 3 
provisions by moving expeditiously to pass H.R. 2230, the Cameron 
Gulbransen Kids and Cars Safety Act of 2005, which addresses four 
critical safety issues for children. H.R. 2230 will: 1) provide a more 
comprehensive improvement in power window protection for children and 
adults; 2) remind drivers to remove infants when they leave the 
vehicle; 3) protect children, the disabled, and others by ensuring that 
drivers have good rearward visibility and an unobstructed view behind 
their vehicle when backing up; and, 4) ensure the regular collection of 
death and injury data in non-traffic, non-crash events involving motor 
vehicles. The American Academy of Pediatrics endorses these life saving 
measures. I have attached a copy of their letter of support to my 
testimony. These reasonable measures should be adopted.
    For many years, parents have been told to transport their children 
in the back seat of vehicles because they are much safer there. Until 
recently, voluntary action by auto manufacturers without the benefit of 
government regulation resulted in most rear center seating position 
being equipped with only a lap belt. The use of lap belts alone by 
children is well known to result in serious abdominal and spinal 
injuries. It took an act of Congress to force NHTSA to require lap/
shoulder belts in all rear center seating positions. The issue of 
nontraffic, noncrash injuries should not be left to chance. Children 
will continue to die needlessly unless and until Congress directs the 
agency to regulate in this area.
    Children are also killed and maimed every day in the epidemic of 
motor vehicle crashes that recurs on our nation's highways every year. 
According to government data, in 2002 motor vehicle crashes were the 
leading cause of death in the U.S. for children 3 years and older, 
indeed for all Americans ages 3 to 33. Vehicle crashes were the second 
leading cause of death among toddlers, ages 1-3. In 2003, 1,198 
children under the age of 10 were killed in motor vehicle crashes and 
147,000 more suffered injuries, 14,000 of which were incapacitating 
injuries.<SUP>4</SUP> These statistics do not include any of the data 
that KIDS AND CARS and other organizations have collected about 
nontraffic, noncrash incidents. Some studies have shown that young 
children could be in more danger in their own driveways than as 
passengers of automobiles. In addition, children 10 to 15 years of age 
suffered 1,372 deaths, as well as 145,000 injuries and 14,000 
incapacitating injuries in motor vehicle crashes in the same 
year.<SUP>5</SUP>
---------------------------------------------------------------------------
    \4\ Traffic Safety Facts 2003, at 86, NHTSA (DOT HS 809-775).
    \5\ Id.
---------------------------------------------------------------------------
    Adults and teens also suffer the ravages of motor vehicle crashes. 
Current projections indicate there were a total of 42,800 traffic-
related deaths in 2004. In order to protect children and all vehicle 
occupants, long-overdue safety initiatives must be adopted to stem the 
rising tide of motor vehicle fatalities. Fortunately, the Senate-passed 
version of H.R. 3 contains a number of measures that will substantially 
improve safety for every person and family members across the country.
    Over 10,000 people die each year in rollover crashes. Unbelted 
occupants are often fully ejected, but even belted occupants can be 
partially ejected, through windows that break, and doors that open. 
Section 7251 of the Senate amendment to H.R. 3 addresses both rollover 
prevention and enhanced protection for occupants in rollover crashes.
    Under Section 7251, NHTSA will issue rollover prevention 
performance criteria consistent with stability enhancing technologies. 
Safety technologies, such as electronic stability control (ESC) 
systems, have had clear success in reducing crashes in a number of 
large studies in the U.S. and Europe. ESC is particularly effective in 
preventing SUV rollover crashes. And this technology is already 
standard equipment in most European-built vehicles and is available as 
either standard or optional equipment in many U.S. models. But not all 
ESC systems are created equal. Testing by Consumer Reports, for 
example, has found that some systems are more effective than others in 
preventing vehicle rollover. The bill will direct NHTSA to evaluate 
existing systems and establish minimum performance criteria for those 
systems. Automakers indicated earlier this year that they plan to make 
ESC standard equipment in most SUVs, to be phased in over the next 
several model years. NHTSA's rulemaking agenda already indicates the 
agency plans to develop test procedures for ESC and to make a decision 
on rulemaking this year.<SUP>6</SUP> While adopting ESC technology may 
be on NHTSA's rulemaking agenda with plans to develop test procedures 
for ESC and to make a rulemaking decision this year, direction from 
Congress is necessary to ensure that these actions are carried out.
---------------------------------------------------------------------------
    \6\ NHTSA Vehicle Safety Rulemaking and Supporting Research 
Priorities: 2005-2009, Section II.A.--Preventing Rollovers, NHTSA (Jan. 
2005) (Priorities Plan).
---------------------------------------------------------------------------
    Occupants stand a much better chance of surviving a crash if they 
are not ejected from the vehicle. Section 7251 directs NHTSA to develop 
a standard to reduce full and partial occupant ejection because while 
ESC looks like it will prevent many rollover crashes that lead to 
ejection, it will not eliminate them all. According to the agency, from 
1999 to 2003 there was an average of 8,584 deaths (and 39,000 injuries) 
due to occupant ejection, both partial and full ejection, annually. 
Two-thirds of these ejections occurred in rollover crashes. According 
to NHTSA's Priorities Plan, reducing occupant ejection is also on the 
agency's rulemaking agenda. The Senate provision gives the agency until 
October 2009 to issue a final rule on ejection prevention, and 30 
months to complete an already pending rulemaking to ensure that sliding 
doors on vans remain locked and do not open during a crash. These 
timelines are considerably beyond NHTSA's own schedule for action.
    Finally, Section 7251 addresses the need to update the roof 
strength standard. This standard has not been improved since it was 
first adopted some 34 years ago and is widely recognized as failing to 
provide basic crashworthiness protection during rollovers. The agency 
has stated it plans to publish a notice of proposed rulemaking on roof 
crush this year and to issue a final rule in 2006. Because such 
promises have not been fulfilled in the past, the Senate provision 
calls for a proposed rule by the end of this year and a final rule by 
July 2008. Once again a generous timeline is provided.
    The Senate legislation addresses rollover, roof crush, and ejection 
in a single provision because these safety issues are interrelated. In 
a rollover crash sensors developed for ESC systems can be used to 
trigger safety belt pre-tensioners and side impact airbags. If the roof 
fails, however, not only is there intrusion into the passenger 
compartment but other safety systems will not function properly. Roof 
failure can affect the geometry of the safety belt system and result in 
the side impact air bags not providing effective protection. In 
addition, roof crush will cause the vehicle side windows to break 
allowing occupants to be fully or partially ejected. NHTSA has 
historically approached each of these safety problems as separate 
issues. The Senate bill encourages the agency to take a comprehensive 
and unified approach to solving these interdependent safety problems.
    Another important safety provision, Section 7252, is intended to 
ensure that NHTSA completes its pending side impact rulemaking 
proceeding. This rulemaking is vitally important because it is expected 
to assure that side impact air bags for head protection are available 
as standard equipment. Studies have shown that side impact air bags can 
make the difference between living and dying for occupants inside a 
vehicle struck in the side by an SUV or pickup truck. The Senate 
deadline is July 1, 2008, for issuance of a final rule. Given that the 
proposed rule was issued on May 14, 2004, over a year ago, the Senate's 
allotment of an additional three years for a final rule is quite 
reasonable.
    The modest measures included in Sections 7251 and 7252 are 
necessary for safety. They do not dictate the outcome of any rule--
leaving the specific requirements for the agency to determine. 
Furthermore, the provisions address only issues that NHTSA has itself 
identified as core safety priorities. In all of these areas, the agency 
has already issued a proposed a rule or plans to issue one in the near 
future. However, as we all know, the attention and even the good 
intentions of federal agencies do not necessarily result in the 
accomplishment of internal plans and policies. To ensure that the NHTSA 
remains on track and carries through with its plans, it is essential 
that Congress provide the added incentive and certitude that comes with 
legislative goals and deadlines. In an editorial entitled Reducing 
Rollovers, the Washington Post strongly urged the House to accept the 
Senate measures, concluding that under the circumstances 
``congressional prodding is not interference, it is in order.'' 
<SUP>7</SUP>
---------------------------------------------------------------------------
    \7\ Reducing Rollovers, Washington Post, Saturday, June 18, 2005, 
p. A18.
---------------------------------------------------------------------------
    Also significant is the section on 15-passenger van safety 
improvements. The safety of these vehicles is another issue of critical 
importance for children because of the high percentage of such vans 
that are used to transport children to and from schools and during and 
after school to extra-curricular activities. The House should agree in 
conference to adopt the eminently reasonable requirement that 15-
Passenger vans be rated for rollover resistance as part of NHTSA's New 
Car Assessment Program (NCAP). The House should also support the Senate 
bill's restrictions on the use of such vans as school buses unless they 
comply with the safety standards applicable to school buses.
    We cannot wait any longer or continue to stand by while families 
needlessly suffer the death or serious injury of a loved one. Every 
day, I work with parents who have had to bury a child and who cannot 
understand why feasible and affordable safety systems are not standard 
equipment on every car sold in the United States. When we develop 
vaccines to protect children from deadly diseases, we make them 
available to everyone. Now is the time to make these motor vehicle 
safety vaccines available to every family. I can think of no more 
eloquent statement on the need for basic safety features in all 
vehicles than the one from Automotive News, the publication that covers 
the automotive industry, ``All safety-related devices should become 
standard equipment on all vehicles. No choice. It's not an economic 
decision; it's a moral decision. When the choice becomes profit vs. 
lives, the decision should be simple.'' <SUP>8</SUP>
---------------------------------------------------------------------------
    \8\ Automotive News (Nov. 2004).
---------------------------------------------------------------------------
    You have the power to help prevent the tragic injuries and 
fatalities that families are suffering everyday from the death or 
serious injury of a loved one in a motor vehicle related tragedy.
    I urge the Members of the House Energy and Commerce Committee to 
support enactment of the Senate motor vehicle safety provisions 
included in H.R. 3 and to quickly pass H.R. 2230 the Cameron Gulbransen 
Kids and Cars Safety Act of 2005.

    Mr. Stearns. I thank you.
    Let me just clarify, just for the record. On your opening 
statement, I didn't see a part of your opening, your written 
statement. You said that you and your husband were locked in 
the trunk of a car. For how long?
    Ms. Fennell. We were put in the trunk of car, taken to a 
secondary location, and that is where we were assaulted, 
robbed, and left basically for dead in the trunk. Fortunately, 
we were able to escape the confines in the trunk. Probably 
total we were in there 2 hours.
    Mr. Stearns. Today, we do have releases on the trunk, so--
right, so that if people are locked in the trunk, they can 
voluntarily get out of the trunk.
    Ms. Fennell. Yes. That was my----
    Mr. Stearns. Was that because of your----
    Ms. Fennell. Actually, that was something I worked for.
    Mr. Stearns. Okay.
    Ms. Fennell. Again, because my family was blessed, I found 
out there wasn't data about people being locked in the trunk. I 
built a data base. I showed that it was a problem. 
Representative Stupak had a bill. We got to study the problem. 
It is now a regulation that all vehicles purchased or leased in 
the United States must have an inside trunk release. These type 
of incidents are no different than trunk release. I can only 
tell you the problems are much, much, much bigger.
    Mr. Stearns. So you are trying to make the same argument 
for the trunk release for your other items.
    Ms. Fennell. Absolutely.
    Mr. Stearns. Yes.
    Ms. Fennell. It is non-traffic, it is non-crash. Nobody 
knows how big the problem is.
    Mr. Stearns. Probably, one of the reasons why it is 
difficult to get a lot of accurate information is because a lot 
of these, the cars coming out of the driveway, occur on private 
property, and probably, the police are not called in as a 
traffic statistic, but perhaps, it is done through the 
insurance companies, so it might be more difficult to find 
that. Has that been true? How do you track--because you seem to 
be much more concerned about it than Dr. Runge, who--his 
LexisNexis showed there was very little statistics on this. How 
do you get your statistics? Is it because families call you?
    Ms. Fennell. Well, it is a really sophisticated system, but 
it is very objective, of course. We have a clipping service. We 
do LexisNexis searches. We have people all over the country 
that know the work that we do, and bring these to our 
attention. We also work with child death review teams. It seems 
as though many people don't understand that when a child in the 
United States has died, in most cases, there is a review. But 
there are police reports when children die. The problem is, as 
they get rolled up into the system at the State level, the FARS 
data base says, No. 1, if it wasn't a crash, No. 2, if it 
didn't happen on a public road or highway, it doesn't get 
included in our data.
    Mr. Stearns. Yes.
    Ms. Fennell. That is where those reports are being 
shredded. So the information is there. All we need to do is 
change the purview, and say please collect all fatalities. The 
National Highway Traffic Safety Administration is our agency to 
keep us safe, and make sure the vehicles that we drive are 
safe. It shouldn't matter where these things are happening.
    Mr. Stearns. Okay. Mr. Webber, when I was looking at this, 
I was reminded of the passive safety versus active safety, and 
I guess the question is, and Ms. Fennell mentioned that you 
cannot leave your car without a buzz, if you leave the keys in 
the car. You know, if doors are cracked, you have an indication 
on the dashboard. Do you think the passive safety technology 
has sort of reached its limit, in terms of saving lives and 
preventing injuries, and now, the automobile industry needs to 
move to more active safety, to the next level in motor vehicle 
safety? Or what is your feeling on that, and of course, I am 
talking about, you know, what has been done for the rollover? 
When I was in Detroit at the auto show, they put me in a 
simulated vehicle, where a deer came out in front, and I 
obviously turned to the left very quickly to avoid the deer, 
but at that point, the car took over, and rather than me 
causing me a spin or possibly a turnover, the car, through 
stability control, was able to stabilize the vehicle. So do you 
think we are moving into this whole new area where the passive 
safety has gone as far as we can, and we need to move into 
active safety?
    Mr. Webber. Well, I wouldn't say passive safety has gone as 
far as it can. I want to go back to Ms. Fennell's statement. We 
are very sensitive to not only what went on in her life 
personally, but what is being recommended, especially in H.R. 
2230, and I just want to make a point here. We have examined 
that proposal very, very carefully. There are a lot of mandates 
in that bill, and one of those mandates, for example, mandates 
a technology that just doesn't exist, and I am talking here 
about sensors for cars for parents who leave their kids in the 
car. We don't have that technology yet. It is one thing to 
mandate it, but if you don't have it. Now, are we going to have 
it some day? Perhaps, but we need time. Everything needs time, 
and it is just not there.
    I want to point out, by the way, and you are probably 
familiar with this, that there is a program in Utah that is 
working pretty well. It is called Spot the Tot. And as people 
walk around, whether you are in a shopping center, wherever, 
shouldn't we all be constantly alert looking for something that 
is alive, whether it is a child or animal in an automobile that 
may be buttoned up on a hot day? But those sensors are not 
available yet. They are passive in nature. I suspect the 
automobile industry, like any other industry, takes that 
seriously, and down the road, perhaps. Perhaps we will have 
that technology.
    To your question directly about electronic stability 
control, and yes, we have done a lot of work voluntarily on 
this, and it is very exciting, and I have been on test sites, 
and have gone through the maneuvers, and have seen or felt the 
car taking over to avoid the crash. It is wonderful technology. 
It is not cheap, but as you know, some of the manufacturers now 
are making it standard equipment. We believe in voluntary 
programs. We have a long list of what we have done voluntarily, 
in terms of crash avoidance, and that is in Appendix 3 of my 
lengthier statement, but I want to say that in this case, we 
really need a rule to level the playing field. And that is why 
we are working with and supporting NHTSA's effort in this area. 
Crash avoidance is very, very critical, and this is one of the 
ways to avoid crashes, to have the ESC in place in every 
vehicle.
    Mr. Stearns. Mr. O'Neill, how do you compare NHTSA's 
provision in this bill, in the Senate bill, with those from 
last year's NHTSA highway bill? Has the bill improved, in your 
opinion?
    Mr. O'Neill. They certainly are much less specific, and I 
think that is an improvement. I think there is nothing wrong 
with Congress giving NHTSA general directions. I think Congress 
should really avoid the specifics, and not get into deadlines, 
at least when we have an agency that is run by a very competent 
Administrators, as we do now.
    Mr. Stearns. My last question is directed to you, Ms. 
Pikrallidas, is basically, you have mentioned this EPA 
labeling. There is some concern that revising EPA labeling will 
affect fuel economy calculations on the CAFTA program. Is that 
your intent--CAFE.
    Ms. Pikrallidas. No, not at all. This is--this amendment 
and this language is simply about labeling. All it does is 
essentially ask EPA to use existing tests that they already 
have that are much more modern, to use adjustment factors to 
put onto labels of new cars accurate fuel miles per gallon 
ratings. It has nothing to do with CAFE standards. It has 
everything to do with just putting on the cars what the actual 
miles per gallon is.
    Mr. Stearns. All right. My time has expired. The 
gentlelady, Ms. Schakowsky.
    Ms. Schakowsky. Mr. Webber, you talked about, you 
associated yourself with the notion of safety sells. And so 
with that in mind, why not have some of those items as standard 
features, rather than upgrades or optional features? Wouldn't 
those be good marketing tools for automobiles?
    Mr. Webber. I suppose we could load up every automobile 
with everything we can possibly think of. There are always 
tradeoffs.
    Ms. Schakowsky. I am not talking about sun roofs. I am 
talking about things like we did airbags.
    Mr. Webber. I understand.
    Ms. Schakowsky. We did seatbelts.
    Mr. Webber. I understand. A lot of that technology is 
expensive. You could price the car out of the range of the 
typical consumer, if you are not careful. I think the task of 
the industry is going to, as they continue to develop safer 
cars, and cars with more safe technology in them, is to get 
that price down, so that the typical consumer can avoid that, 
and to make sure, too, that that safety technology applies to 
an area where there really is a good, sound data and statistics 
backing the need for that.
    Ms. Schakowsky. Well, I wanted to ask you about----
    Mr. Webber. I think we are on the----
    Ms. Schakowsky. [continuing] the question of price. Isn't 
it true that when technologies become standard features that 
those prices really drop? Like what was the price of an airbag 
before and after the issue of standard features?
    Mr. Webber. Before it became standard equipment?
    Ms. Schakowsky. Uh-huh.
    Mr. Webber. I am told that originally, we were talking 
about $400 or $500 for that airbag. That has come down 
substantially, correct. And I suspect on some of these safety 
technologies that is what is going to happen over a period of 
time.
    Ms. Schakowsky. I am looking at price comparisons of 
vehicle technologies put out by the advocates for highway and 
auto safety, and they are talking about stronger roof systems, 
prevent roof crush in rollover crushes, $25 to $50. Don't you 
think most consumers, for a number of things, safety belt pre-
tensioners, takes the slack out of seat belts, $35 to $50. 
Vehicle safety label, $0.01. I mean, there is a number of 
technologies, a number of items that could be added at 
relatively low cost.
    Mr. Webber. And indeed, they are being added. Many of them 
depend on the choice of the consumer. These are assessable. The 
consumer can purchase those and add them to the base price of 
the automobile. That is the real, on the good news front, and 
by the way----
    Ms. Schakowsky. As optional features, you are saying.
    Mr. Webber. Many of them optional features. More and more 
becoming standard features. ESC is a good example of how that 
eventually, we come a standard feature, in my opinion, in all 
vehicles, if I follow the rulemaking on the part of NHTSA 
correctly. So that trend, it is a good trend, and that trend 
will continue.
    Ms. Schakowsky. Okay. I wanted to--I am glad you believe 
that we need to have some rules, and that we need to have some 
required features.
    Mr. Webber. On electronic stability control, specifically, 
yes.
    Ms. Schakowsky. Ms. Fennell, I wanted to ask you what are 
the costs of a number of the safety features that you are 
advocating, and how do they compare to luxury features, for 
example, in automobiles?
    Ms. Fennell. The type of things we are looking for is an 
auto-reverse on power windows, and that would be $8 to $10 a 
window. When you look at either a rear camera or rear sensors, 
you know, once it would become a standard feature, I am 
thinking that comes way, way down below $100. The--it is very 
important that people understand that there is no performance 
standard whatsoever on what you should be able to see when you 
are backing up your vehicle. Nothing exists. So when you are 
backing up, you are backing blind, and it is not like people 
try to do this on purpose, but it really is the fact that 
because we are driving higher, wider, longer, bigger vehicles, 
that blind zone that you saw demonstrated on Good Morning 
America is what is happening in America. You cannot see little 
children when they are in that area.
    Ms. Schakowsky. On the auto-reverse, I heard Dr. Runge say 
that the recessing is sufficient, and that there is absolutely 
no evidence that there is any problem that recessing won't 
solve.
    Ms. Fennell. That is not correct, and Dr. Runge could just 
go to the Office of Defects Investigation and read the reports 
where not only children, but let us say someone else in the 
vehicle has raised a window not knowing that someone else's 
fingers or hands, I mean, there has been amputations. There is 
a problem, of course, with children leaning out, and they are 
strangled to death. But there is many, many other things that 
happen, and it is not just through that person actuating the 
power window on their own.
    Ms. Schakowsky. Can you make sure that I get that 
information, and that we communicate that to Dr. Runge? One 
other thing. There is--seems to be a difference of philosophy 
here on whether or not we should include, for example, in the 
transportation bill, or whether at all, it is necessary to have 
statutory requirements. You are saying now that it is required 
for trunks, since your horrifying incident, should we be 
including those requirements that are now in the transportation 
bill, and why do you feel that those arguments that they are 
unnecessary are not valid?
    Ms. Fennell. I feel we absolutely need to have these 
regulations, and I feel that all of the things that are in the 
Senate bill are very generous in the timeframes. Dr. Runge 
himself said they are almost all very doable. The reason we 
need timelines and timeframes is then we know that they will be 
done. You know, trunk entrapment was something that was 
suggested 30 years ago, and it never happened, until we were 
able to get it, you know, to get it together and make it 
happen. So I think it is very important that the deadlines are 
set. I don't think we need to be proscriptive, but I think we 
do need performance standards, and let the industry and NHTSA 
figure out what is the best way, as a for instance, to make 
sure when we are backing our vehicles, we are not driving 
blind.
    Ms. Schakowsky. My concern, Mr. O'Neill, with your view 
that as long as you have someone who is as--an activist on 
these issues as Dr. Runge is, then we don't need to do 
anything. But of course, that is not how government works. I 
mean, we don't know how long he is going to be there. We don't 
know what the view or the level of activity of anyone who would 
follow him. So I am actually very surprised that your industry 
would want to set policy based on individuals.
    Mr. O'Neill. Well, we are not saying that nothing should be 
done, or there should be no dictates. What we are saying is 
they should be broad, rather than specific. For example, I am 
not at all familiar with the issues on power windows. Ms. 
Fennell is. But it seems to me that it is not necessary to 
conclude that a rule is the final solution. Maybe, the agency 
could be told that this is an issue that they should address, 
and maybe with voluntary agreements with the manufacturers, we 
could get action faster than the process of rulemaking, which 
is very slow and very deliberative, by design.
    There are alternative ways, in many cases, to address 
problems without mandating a rule. It may be that a rule is 
appropriate. It may not be. I think what we should be saying to 
NHTSA is these are issues that should be addressed, and 
addressed in the most efficient and fastest way possible.
    Mr. Stearns. The gentlelady's time has expired. The 
gentleman from New Hampshire, Mr. Bass.
    Mr. Bass. Thank you, Mr. Chairman. For Mr. Webber and/or 
Mr. O'Neill. There are--a couple of you may have mentioned 
this, I think you mentioned it in your statements. There are 
market forces involved in safety, and I am wondering to what 
extent market forces are pushing automobiles to become safer, 
and second, insurance companies providing incentives, i.e., 
rebates, discounts, et cetera. To what extent are--is the 
industry moving the process forward?
    Mr. Webber. Well, as I said in my opening statement, Mr. 
Bass, market forces are playing a very big role when it comes 
to safety. And again, nine of the top 10 top features most 
desired by consumers as they purchase new automobiles today are 
to enhance vehicle or occupant safety, and the industry is 
responding to it. The industry is acutely aware of it, and the 
industry is going to do everything it can to meet that consumer 
demand.
    Mr. O'Neill. I think there is no question that today, 
market forces are very important. You heard from Dr. Runge that 
they expect to issue a new side impact rule very soon. That 
side impact rule will, in effect, require manufacturers to 
provide airbags, side impact airbags that protect the head. I 
think by the time that rule becomes effective, virtually every 
new car being sold in America will already have those airbags 
because of market forces. So market forces are very important 
and very effective. They are promoting safety technology very 
fast. Unfortunately, when it comes to insurance mechanisms for 
incentives, most of your insurance premium for injuries is for 
liability. That is for injuries that you cause to people in 
other vehicles. So the first party, third party insurance 
system does not allow much room for incentives for you to be 
purchasing a safe car, because your insurance is primarily 
paying for injuries that are occurring in somebody else's car, 
if you are at fault in a collision.
    Mr. Bass. Do you have any suggestions as to how we might 
change that? What are our options? Clearly, a safer car, you 
ought to have lower insurance rates, and that would be an 
incentive to--for consumers to want them.
    Mr. O'Neill. Well, the problem with insurance is that most 
of your premium is not for injuries inside your car, but for 
injuries you may cause in an at-fault collision----
    Mr. Bass. Yes.
    Mr. O'Neill. [continuing] in other cars. If we had a true 
no-fault insurance system, then there would be much more room 
for incentives for persons to buy a safe car.
    Mr. Bass. Ms. Fennell, you--I just want to confirm that you 
think the top priority for new safety is the automatic window 
stop mechanism, that is No. 1, and then second, is the backup 
protection?
    Ms. Fennell. No, I would say that the backup protection is 
No. 1, just because of the true numbers. Again, we know that 
many more children are dying because they have been backed 
over, and you know, many more injured. In 1998, the data that 
Dr. Runge referred to, when they collected the death 
certificates, that is actually before this huge change in the 
vehicle mix, where you know, we used to all be driving sedans 
back in 1998. Now, everyone is driving these larger trucks and 
SUVs. So with the over 120 people identified at that time 
point, I also used that to bench my data. I know what I find is 
the bare, bare minimum, vastly underestimates the true 
magnitude of the problem, and probably is 2 to 3 times bigger 
than the numbers that I report. I think it is really important 
to understand on all of these issues, that we know that there 
is a problem. The technology already exists today. It is not 
something we have to invent. The legislation is here. We have 
very well-crafted legislation, and now, what we are really 
looking for is that political will to move this forward, to 
move it forward as quickly as we can, because it has taken so 
many years to even get to this point, and with that, we will 
save the lives of many people----
    Mr. Bass. Okay. Real quickly----
    Ms. Fennell. [continuing] especially children.
    Mr. Bass. Okay. Just going down the panel. There are three 
levels of control of safety, voluntary, relying on the 
industry, rulemaking through NHTSA, and Congressional action. 
Where do you all stand in terms of what is the preferred route 
for assuring that automobiles are safe, and you reach--and you 
attain that balance between safety, economy, and cost? Rule, 
volunteer, Congress prescribes. Just real quick, because I only 
have 1 second left.
    Mr. Webber. Voluntary action.
    Mr. Bass. Okay.
    Mr. Webber. It is quicker, and sometimes, a lot more 
competent.
    Mr. Bass. Mr. O'Neill?
    Mr. O'Neill. I think we need a mixture of all of these 
approaches, and I will just give one example, at the risk of 
prolonging it. The backup issue also involves rear visibility, 
and we do have a problem with rear visibility in vehicles. We 
need some better standards or performance for rear visibility, 
because some SUVs actually put spare wheels blocking part of 
the rear window. So it is not just cameras and backup warning 
devices. It is being able to see more out of the back of a 
vehicle when you are looking rearward, and so a broad mandate 
would address this issue, rather than----
    Mr. Bass. Ms. Pikrallidas, do you have any comments on it 
or not?
    Ms. Pikrallidas. Our expertise in AAA----
    Mr. Bass. Okay. If you don't, don't worry about it. And Ms. 
Fennell, I think you like as much--you want to see 
Congressional action, because you support the legislation that 
you have outlined, correct?
    Ms. Fennell. Well, because I am very fortunate to be 
working in a coalition with the insurance industry, auto 
suppliers, consumer and health organizations, of course, I 
support this. But this bill is needed to assure that the public 
will benefit in a timely way from cost effective and feasible 
safety improvements. Voluntary solutions are not appropriate in 
these areas, such as rollovers. They kill 10,000 people every 
year.
    Mr. Bass. Okay. I have got to yield back. Thank you, Mr. 
Chairman.
    Mr. Stearns. The gentleman's time has expired. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. Thanks to the 
panelists. Ms. Pikrallidas, is that right? Did I get that 
right.
    Ms. Pikrallidas. Pikrallidas.
    Mr. Rogers. Pikrallidas. Did I get that right? Okay. 
Thanks. My--is it Greek?
    Ms. Pikrallidas. Yes.
    Mr. Rogers. My Greek is awful, but thank you very much. I 
do love the flaming cheese, though. Wonderful thing. In your 
testimony, you describe the Senate's language on fuel economy 
labeling as a win-win solution, and as carefully crafted to 
meet the concerns of all parties. I found that a little 
curious, as I was--the language that was changed was mine, of 
which we were not consulted in that particular round of all 
parties, apparently. And you added something, at least were 
involved in the adding of the word processes, and let me quote 
you in the language. ``Update and revise the process used to 
determine fuel economy values for labeling purposes.'' Can you 
describe what processes means? What do you mean by that?
    Ms. Pikrallidas. Essentially, what--we--the Senate language 
tries to accomplish is to suggest that the existing tests are 
30 years old and they are outdated. They don't measure a lot 
of--they don't measure real world driving conditions. What we 
are asking is that EPA use tests that they already have, for 
example, USO6, that was set up and designed to simulate real 
world driving conditions. To add the adjustment factors which 
you discussed in the House energy bill. To add those adjustment 
factors to more modern tests that do simulate real world 
driving conditions, to come up with a more accurate miles per 
gallon labeling system. In other words, that comes up with 
miles per gallon that, a labeling system that gives you, gives 
the consumer essentially what they are going to get on the road 
when they drive it.
    Mr. Rogers. One of the concerns that I have, and the reason 
we came up with the language that we did was that we believed 
that there may be an inadvertent impact on CAFE standards, and 
I think we all understand that CAFE standards is an issue that 
should be looked at. We need to address it, but we should do it 
in a very careful and calculated way, given the understanding 
of weight and design, and lead time for design factors. Our 
next models--I mean, there is a lot that goes into this, and it 
is quite frankly, an old and antiquated formula that was fairly 
arbitrary. So we need to be smart about that to not have a 
negative impact on economic terms from these automakers who are 
trying to play by the rules. Right? So we got to this thing. We 
said this is--we don't want any vagueness in this language, and 
when you add process, even by your own description, you have 
left the door open a mile wide. And would you support, would 
AAA support making it very, very clear in that language that it 
would not, in fact, impact CAFE standards by the change of 
this? I mean, we want to make efficient tests. We didn't want 
multiple tests. It made no sense to do that. Tests need to be 
modernized. We think we can do that with one test. Would you 
support that language to clarify very certainly that this does 
not impact CAFE standards?
    Ms. Pikrallidas. Mr. Rogers--and you made these points very 
eloquently during the House debate--we--I would agree with you, 
we would agree with you, that CAFE is a whole other issue. It 
is an issue that, as you have just said here, needs looking at 
in a very serious way. Those standards are very old as well. I 
think we would be open to looking at language that would 
clarify that we are looking at only the labeling. We would want 
to make sure that the language doesn't do anything to prohibit 
getting more accurate labeling. But that is our intention. What 
we are looking for in this bill is simply making it possible 
for a consumer to go buy a car, read the labeling stickers, and 
then drive out on the road, and get those miles per gallon 
ratings. That is really all we are trying to accomplish in this 
bill, accurate labeling, so that consumers know what they are 
buying, particularly in an age of high energy prices.
    Mr. Rogers. You bet. And I think that is exactly the intent 
of the language that we proffered on the House floor, to do 
exactly that. That is what we wanted as well, because we do 
think it is important that you have an understanding of the 
mileage that you are buying, because we want mileage to be part 
of market forces, right? That is what we are all shooting for, 
because we think that is good for the auto companies. We think 
they are going to make voluntary changes in their design 
features, that keeps people safe, and allows them to get more 
gallons, better gas mileage.
    Ms. Pikrallidas. And if I could just--and the only concern 
we have with the House language was that it was adding 
adjustment factors to old tests. We just think there are newer 
tests that simulate real world driving that EPA already has. 
Not new tests, there are existing tests. They should be used. 
That is what the adjustment factor should be applied to, and 
that was a part of that.
    Mr. Rogers. But you didn't say that in your language. You 
made it--it is fairly vague. Process, processes. What does that 
mean? It could mean a whole bunch of things. And if I am 
somebody over, who has got the sharp pencil, and get to figure 
that out, it might look completely different from your 
intention. We need to be very, very careful on this. You know, 
our automobile economy in the United States is at a very 
interesting place in its history. And the unintended 
consequences of being vague in language like this could be 
catastrophic. And I think that you ought to go back to the 
drawing board and be supportive of very clear language on this, 
so that we get exactly what we both want, very clear labeling, 
realistic labeling, that does not impact CAFE. That is another 
debate for another day, that needs to be very, very carefully 
looked at. So I will take your response today that AAA does, in 
fact, support language that is very clear that this does not, 
in any way, impact CAFE standards.
    Ms. Pikrallidas. That is our intent. I mean, I don't have 
legislative language in front of me, so I am at a disadvantage 
there, but our intent is to deal with labeling. That is the 
intent of what we are trying to get through the Senate bill, or 
through the Senate language.
    Mr. Rogers. Thank you. Thanks for your--I know that was a 
fun exchange. I know you really enjoyed that. I do appreciate 
all of you, and unfortunately, we are going to need to go vote. 
But this is very, very important, and I am just glad to hear 
Mr. Bass ask the question, and I wish Mr. Markey were still 
here. You know, the automobile companies, and I would encourage 
all of you, and even those listening, to come and see what kind 
of design work that they are doing on their own for vehicle 
safety, for better gas mileage, for a car that has technology 
that actually matches what the consumer wants.
    There is this great myth out there that overnight at the 
stroke of a pen, things can change, and you are going to get a 
car that gets 65 miles to the gallon that is as big as an 
Excursion, that you are going to want to drive. I wish that 
were so, because if it were so, believe me, you would have a 
car out there right now that looked exactly that. And I give my 
hats off to all the automakers, both foreign and domestic, who 
are aggressively pursuing technology that matches what people 
want. There is a reason that people are buying SUVs. They are 
safer, and they are bigger, and you can take your whole family. 
Mom can pack up groceries and a bike and drive her kids to six 
different places in the same day, and have a vehicle that meets 
those needs of that particular family. And by this rush by some 
to say that we are doing--the automobile industry is a horrible 
thing, doing horrible things to people, I think is--well, it is 
wrong at best, and it may be worse. They are not doing those 
kind of things, and I would encourage all of the folks, other 
members, everybody, to come out and see what these automobile 
companies are doing for vehicle safety and for our environment. 
It is pretty exciting stuff, and to meet these actual designers 
and people who are in the back room trying to make this work, 
and to hear their excitement and their enthusiasm is pretty 
neat.
    They are not the victims. I understand that, Mr. Chairman. 
This is awful important.
    Mr. Stearns. We have about 3 minutes left to vote.
    Mr. Rogers. And I would--at that, sir, yield back my time.
    Mr. Stearns. Very good. Very good. I thank the gentleman. I 
thank him and his patience for staying and making his points, 
and with that, the subcommittee will adjourn. I will thank the 
witnesses for their forbearance, too.
    [Whereupon, at 11:47 a.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
  Response for the Record by the Alliance of Automobile Manufacturers
    Question 1: What are the problems you foresee with Congress 
mandating that NHTSA promulgate a final rule by a certain date?
    Response: Our concern over legislatively-mandated rules is not over 
improving safety--indeed, industry is competing vigorously and moving 
rapidly to provide ever-increasing levels of safety in its vehicles--
but over process. Safety rulemakings are often complex, involving 
myriad technical details, analyses of data, complex occupant safety and 
other tradeoffs, and consideration of necessary leadtime. Mandates for 
rules to be issued by specified dates can short-circuit the necessary 
analyses and potentially lead to unintended adverse safety 
consequences, as we have seen in prior situations and as the NHTSA 
Administrator has testified.
    The NHTSA mandated rulemakings in the Senate passed highway bill 
prejudge the rulemaking process. By requiring that rules must be 
published, regardless of the public rulemaking record on that subject, 
the Senate bill's approach prejudges the outcome of the rulemaking 
process and deprives NHTSA of it's authority to make safety related 
assessments and determinations of rulemaking priorities. Thus, we 
cannot support any mandate requiring that final rules must be issued 
regardless of information provided to the agency through its public 
notice and comment process. There is no need for the Congress to order 
NHTSA to both short-circuit its own governing legislation and 
Presidential Executive Orders regarding the criteria for establishing 
rules as well as the requirements in the Administrative Procedures Act 
regarding responding to public comments. We believe that the Congress, 
through oversight and other hearings, can influence NHTSA regulatory 
actions without mandating the promulgation of specific rules.
    The complexity of safety rulemakings requires that careful 
attention be accorded to the inherent tradeoffs associated with 
regulations. In the past, we have seen tradeoffs among adult high-speed 
protection in frontal crashes and associated harm to children and 
others in low-speed crashes. The March 6, 2004 IIHS Status Report, 
notes that the 1997 rule issued by NHTSA that allowed manufacturers to 
produce ``depowered'' air bags was the right decision then and still is 
now. In designing occupant restraint systems, manufacturers must 
carefully balance high-speed and lower-speed protection, protection for 
belted vs. unbelted occupants, and protection for large adults and 
smaller adults and children. As NHTSA itself has testified, there are 
complex interactions between roof strength and rollover propensity and 
glass-plastic glazing to reduce ejections for unbelted occupants vs. 
the possibility of increased head and neck injury to belted occupants. 
All involve safety tradeoffs. Also, tradeoffs exist between safety and 
fuel economy. The agency must be able to correctly balance these 
complexities and arbitrary deadlines by which rules must be issued are 
inconsistent with this need.
    Question 2: Can you comment on Dr. Runge's testimony as to 
harmonization of safety standards internationally, as well as the need 
to engage in research and development in fuel integrity of hydrogen 
powered vehicles?
    Response: The Department seeks to clarify its authority to 
participate and cooperate in international activities to enhance motor 
vehicle and traffic safety worldwide. This would allow NHTSA's 
participation in international activities aimed at identifying the best 
practices for reducing traffic fatalities and injuries, particularly in 
developing countries. Recognizing that motor vehicle safety is a shared 
responsibility of governments, manufacturers, and consumers, the 
Alliance agrees with NHTSA that combining motor vehicle safety 
initiatives being pursued in the United States with those of other 
countries can help to promote the cost-effective deployment of safety 
technologies worldwide, including in developing countries. 
International cooperation and collaboration in the development of 
global safety standards permits participating governments to leverage 
research investments from other countries and economic communities 
thereby increasing the scientific data and innovation pool on which 
regulations can be based.
    The Department seeks funding to engage in fuel system integrity 
research involving hydrogen powered vehicles. This initiative would 
support the President's Hydrogen Fuel Initiative and the FreedomCar 
Program. Ultimately, this research would facilitate science-based 
evaluation for the need and scope of any fuel system integrity 
regulations for hydrogen powered vehicles. Such regulations already 
exist for vehicles fueled or powered by gasoline, compressed natural 
gas, and electricity. The Alliance is supportive of science-based 
rulemakings as well as the President's Hydrogen Fuel Initiative and the 
FreedomCar Program and thus, supports the funding requested by NHTSA.
                                 ______
                                 

 Response for the Record by Jeffrey W. Runge, Administrator, NHTSA, to 
                 Questions Submitted by Hon. Tim Murphy

    Dr. Runge, I would like to ask you a few questions about 
the Early Warning Reporting requirements. It is my 
understanding that manufacturers of more than 500 vehicles per 
year must submit detailed data on a quarterly basis, while 
manufacturers of less than 500 vehicles have less burdensome 
reporting requirements. The TREAD Act states that regulations 
such as the Early Warning Reporting requirements shall not 
impose requirements unduly burdensome taking into account the 
manufacturer's cost of compliance and NHTSA's ability to use 
the information in a meaningful manner.
    Question 1: While I recognize that NHTSA has a simpler 
report for small manufacturers, when a manufacturer produces 
500 or more vehicles per year but still does so in limited 
quantities of an individual vehicle model, i.e. custom or semi-
custom built, will you be able to realistically use that 
detailed data in a meaningful way?
    Response: Yes. The agency's current methods for analyzing 
Early Warning Reporting (EWR) data take into account the volume 
of production. Thus, even though the production of some models 
might be small, NHTSA adjusts the data to reflect production. 
In the past, the agency's investigations have influenced safety 
recalls where the vehicle population was substantially lower 
than 500. During the EWR rulemaking, NHTSA presented an 
analysis of recalls conducted by manufacturers with an annual 
production between 500 and 1500 vehicles to gauge the nature of 
the impact that small manufacturers have on motor vehicle 
safety. This analysis found that small manufacturers have 
significant safety-related defects that can have a significant 
impact on motor vehicle safety.
    Question 2: How many vehicles need to be produced in a 
given year for there to be some real statistical significance 
to the individual model data they provide you under the EWR 
requirements?
    Response: Statistical significance is not a necessary 
component for detecting a potential safety defect. The Agency's 
investigative staff relies on historical trend data to develop 
comparison information as an indicator of potential defects. 
The current method used to analyze EWR aggregate data produce a 
ranking of make, model, and model year vehicles for each 
component category. This ranking is used by agency 
investigators, along with other agency data, to determine which 
issues warrant investigations. However, NHTSA statisticians are 
continuing to evaluate statistical methods that may be 
appropriate to effectively analyze the EWR data.
    The EWR data is being evaluated to assess its ability to 
identify trends that are potentially related to a safety 
defect. The assessment will evaluate a number of different 
issues including whether safety-related defect trends can be 
identified in individual models produced in limited quantities.
    Question 3: What analysis did you do during the EWR 
rulemaking process to determine that 500 vehicles per year is 
the best dividing line between a small volume manufacturer and 
a large one? Why have you defined a small volume manufacturer 
as one producing 5,000 or more vehicles in other rulemakings, 
specifically the advanced airbag regulations and the recent 
tire pressure monitoring system regulations?
    Response: As noted in response to Question 1, above, the 
agency analyzed both recalls and investigations and determined 
that manufacturers who produce between 500 and 1500 vehicles 
produce products that contain serious safety defects. Thus, to 
exclude this category of manufacturers would potentially allow 
serious safety hazards to go unremedied.
    Every rulemaking is unique. Therefore, the underlying 
considerations that determine the number of manufacturers that 
will be subjected to one rule are not necessarily the same as 
those that determine who will be subjected to a different rule. 
For instance, the requirements for advanced air bags are more 
complex and difficult to adopt than the requirements to report 
EWR aggregate counts. Moreover, the exclusions in the advance 
air bag rulemaking simply deferred compliance by low volume 
subsidiaries until the end of the phase-in period. It did not 
exclude them from adopting the requirements as would be the 
case if the reporting threshold for EWR where raised to 5,000 
vehicles.
    Question 4: What analyses, if any, have been published 
based on the EWR data you have been collecting? Has NHTSA 
identified any previously undetected defects on its own as a 
result of this data?
    Response: To date, the agency has not published any 
analyses based on EWR data. We are unable to publish an 
analysis of the data reported by manufacturers pursuant to the 
EWR regulation because the data is confidential by regulation.
    The agency has publicly stated that the EWR information 
alone is not sufficient by itself to determine whether the 
product contains a safety-related defect. The usefulness of the 
EWR data is to identify trends that are potentially related to 
a safety-related defect. If the agency's assessment of the EWR 
data taken with all other available data obtained by the agency 
indicates a possible trend, the agency will open an 
investigation. Since manufacturers started reporting EWR 
information in late 2003, EWR has assisted in identifying some 
potential safety-related trends. Some of these investigations 
remain open. One was closed. Some investigations influenced 
safety-related recalls and one service campaign. Also in 2004, 
the agency influenced some domestic recalls based on 
information from submission of foreign recalls or foreign 
campaigns.

                                 <all>

</pre></body></html>
